<html>
<title> - GULF WAR SYNDROME: TO EXAMINE NEW STUDIES SUGGESTING LINKS BETWEEN GULF SERVICE AND HIGHER RATES OF ILLNESSES</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
GULF WAR SYNDROME: TO EXAMINE NEW STUDIES SUGGESTING LINKS BETWEEN GULF 
                 SERVICE AND HIGHER RATES OF ILLNESSES
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM
                             AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION
                               __________

                            JANUARY 21, 1997
                               __________

                            Serial No. 105-1
                               __________

Printed for the use of the Committee on Government Reform and Oversight






                     U.S. GOVERNMENT PRINTING OFFICE
38-711                       WASHINGTON : 1997
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN H. SCHIFF, New Mexico         EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              TIM HOLDEN, Pennsylvania
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
JOHN SHADEGG, Arizona                DENNIS KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           ROD R. BLAGOJEVICH, Illinois
MARSHALL ``MARK'' SANFORD, South     DANNY K. DAVIS, Illinois
    Carolina                         JOHN F. TIERNEY, Massachusetts
JOHN E. SUNUNU, New Hampshire        JIM TURNER, Texas
PETE SESSIONS, Texas                 THOMAS H. ALLEN, Maine
MIKE PAPPAS, New Jersey                          ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
------ ------
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 21, 1997.................................     1
Statement of:
    Duffy, Frank, M.D., associate professor of neurology, Harvard 
      Medical School; Robert Haley, M.D., director of 
      epidemiology, University of Texas Southwestern Medical 
      Center; and David Schwartz, M.D., professor of internal and 
      preventative medicine, University of Iowa Medical College..   224
    Kizer, Kenneth W., M.D., Under Secretary for Health, 
      Department of Veterans Affairs, accompanied by Frances 
      Murphy, VA Central Office; Bernard Rostker, Special 
      Assistant for PGW Illnesses, Department of Defense; Donald 
      Custis, M.D., Admiral, U.S. Navy (retired), member, 
      Presidential Advisory Committee on PGW Veterans' Illnesses, 
      accompanied by Holly L. Gwin, Deputy Director and Counsel..   122
    Kornkven, Chris, Persian Gulf war veteran, Watertown, WI; 
      James Brown, Persian Gulf war veteran, Hannibal, MO; and 
      James Green, veteran, Fishertown, PA.......................   268
Letters, statements, etc., submitted for the record by:
    Brown, James, Persian Gulf war veteran, Hannibal, MO:
        Information concerning Persian Gulf war veterans with 
          Neoplasms by DX and age group, fiscal years 1991 
          through 1995...........................................   308
        Prepared statement of....................................   286
    Custis, Donald, M.D., Admiral, U.S. Navy (retired), member, 
      Presidential Advisory Committee on PGW Veterans' Illnesses, 
      prepared statement of......................................   167
    Duffy, Frank, M.D., associate professor of neurology, Harvard 
      Medical School, prepared statement of......................   228
    Haley, Robert, M.D., director of epidemiology, University of 
      Texas Southwestern Medical Center, prepared statement of...   247
    Kizer, Kenneth W., M.D., Under Secretary for Health, 
      Department of Veterans Affairs:
        Information concerning VA personnel......................   198
        Prepared statement of....................................   128
    Kornkven, Chris, Persian Gulf war veteran, Watertown, WI, 
      prepared statement of......................................   274
    Murphy, Frances, VA Central Office, information concerning 
      the number of doctors at Birmingham Department of Veterans 
      Affairs Medical Center.....................................   192
    Pappas, Hon. Mike, a Representative in Congress from the 
      State of New Jersey, prepared statement of.................   121
    Rostker, Bernard, Special Assistant for PGW Illnesses, 
      Department of Defense, prepared statement of...............   155
    Sanders, Hon. Bernard, a Representative in Congress from the 
      State of Vermont, a document entitled, ``A Biopsychosocial 
      Therapeutic Approach for the Treatment of Multiple Chemical 
      Sensitivity Syndrome in Veterans of Desert Storm''.........    11
    Schwartz, David, M.D., professor of internal and preventative 
      medicine, University of Iowa Medical College, prepared 
      statement of...............................................   259
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, information concerning holding 
      this hearing prior to adoption of the committee rules......     3
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................     5








GULF WAR SYNDROME TO EXAMINE NEW STUDIES SUGGESTING LINKS BETWEEN GULF 
                 SERVICE AND HIGHER RATES OF ILLNESSES

                              ----------                              


                       TUESDAY, JANUARY 21, 1997

                          House of Representatives,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Christopher Shays 
(chairman of the Subcommittee on Human Resources and 
Intergovernmental Relations) presiding.
    Present: Representatives Gilman, Shays, Ros-Lehtinen, Horn, 
Sessions, Pappas, Snowbarger, Towns, and Sanders.
    Staff present: Lawrence J. Halloran, subcommittee staff 
director/counsel; Robert A. Newman, subcommittee professional 
staff member; Jared Carpenter, subcommittee clerk; Teresa 
Austin, committee staff assistant; Cherri Branson, minority 
professional staff; Phil Barnett, minority chief counsel; and 
Jean Gosa, minority staff assistant.
    Mr. Shays. I would like to call this hearing to order and 
to welcome our witnesses and our guests. In the last Congress, 
we convened six hearings to examine the Department of Veterans' 
Affairs, the VA, handling of the health complaints of Gulf war 
veterans. We did so because veterans consistently told us their 
evidence of toxic exposures was being minimized or ignored.
    Over the course of those hearings, the Department of 
Defense (DOD) belatedly acknowledged more than 21,000 United 
States troops were exposed to some level of chemical weapons 
agents after destruction of the ammunition depot at Khamisiyah 
in Iraq. The Central Intelligence Agency (CIA) admitted their 
weather modeling would never prove their earlier conclusion 
that no United States troops had been exposed to toxic vapor 
plumes after coalition bombing of known Iraqi chemical weapons 
stores. And the VA conceded that vital research into the health 
effect of low-level chemical exposures had been given a low 
priority out of unwarranted deference to the Pentagon's now-
discredited conclusions.
    So we are making progress.
    The DOD has expanded its investigation team in an effort to 
make up for the previous, superficial Pentagon inquiries into 
toxic exposures. The Presidential Advisory Committee on Gulf 
War Veterans' Illnesses will continue to oversee that effort. 
Both the DOD and VA will undertake more research into the 
chronic health effects of low levels of toxins.
    Recently, the VA reviewed the health records of more than 
2,000 of the 21,000 troops stationed within a 50 kilometer 
radius of the Khamisiyah bunkers. It appears those closest to 
the chemical detonations are sicker than other veterans who 
have sought special treatment in the VA's Gulf War Health 
Registry. We will hear testimony from the VA on this new data.
    We will also hear about published results that help 
distinguish and clarify the roles of toxic exposures and stress 
in causing subtle neurological damage and delayed, chronic 
health effects.
    Our purpose today, and in the months ahead, is thorough, 
constructive, and fair oversight of the VA and other 
departments and agencies charged to find answers for Gulf war 
veterans. Our mission is to ensure that motion is never 
mistaken for progress, that conclusions don't become evidence, 
and that military doctrine does not blind the research agenda 
or dictate the medical standard of care.
    Thanks to Chairman Dan Burton, and the committee's ranking 
Democrat, Representative Henry Waxman, we are able to convene 
this hearing today prior to the formal organization of 
subcommittees and the adoption of rules for the 105th Congress 
governing the subcommittees. Their willingness to go forward 
today demonstrates the bipartisan commitment to the accurate 
diagnosis, effective treatment, and fair compensation of Gulf 
war veterans.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.001
    
    Mr. Shays. We welcome all our witnesses, particularly the 
veterans who will testify in our third panel. It is to them we 
owe continued vigilance in pursuit of the causes and cures of 
Gulf war veterans' illnesses.
    At this time, I would ask the former ranking member and 
maybe the present ranking member, Mr. Towns, if he has a 
statement to read.
    Mr. Towns. Thank you, Mr. Chairman.
    Mr. Shays. I just want to know, should I take it personally 
that you choose not to sit in this seat?
    Mr. Towns. No, no, it doesn't have to do with anything, Mr. 
Chairman. I guess the only thing was I was looking forward to 
having your seat. That is the only thing.
    Let me also thank you, Mr. Chairman, for holding this 
hearing. Since our first hearing on this matter in the 104th 
Congress, I have steadfastly maintained several core beliefs. I 
believe that illnesses of the Persian Gulf war veterans should 
be examined and treated. Current research should be continued 
to determine the existence of a specific illness or syndrome. 
Compensation should be provided for those individuals whose 
Persian Gulf service has rendered them disabled or suffering 
from chronic illnesses, and research on these causes of 
potential treatment for those illnesses should be expanded.
    I am encouraged to discover that earlier this month the 
President asked VA Secretary Brown to examine the possibility 
of extending benefits to soldiers who suffered from undiagnosed 
illnesses; that $27 million in funding is available for new 
research efforts; that the Department of Defense has initiated 
a 110 member task force to investigate claims of chemical 
exposure; and that the term of the Presidential Advisory 
Commission on Persian Gulf War Illnesses has been extended. I 
am very pleased about that. These are all encouraging 
developments in an area that often only carries bad news.
    I hope that these developments mean that all concerned have 
reached an agreement to listen to our veterans and share 
information from Federal agencies with Congress and with the 
American public. I believe that the failure to reach such an 
agreement would undermine trust and confidence in government, 
cast doubt upon any of the few research findings, and waste the 
investigational and medical resources of Federal agencies. This 
Nation cannot afford such a result.
    Again, Mr. Chairman, I would like to thank you for calling 
this hearing today and staying with this issue. I agree with 
you; I think it is too important not to examine it and make 
certain that we find the cause of this illness. It is very 
clear to me that where there is smoke, there must be fire. 
Thank you.
    Mr. Shays. I thank the gentleman, and while you don't sit 
at this seat, I consider you an equal partner in this effort. 
And thank you for your past and present work on this.
    [The prepared statement of Hon. Edolphus Towns follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.002
    
    [GRAPHIC] [TIFF OMITTED] T8711.003
    
    [GRAPHIC] [TIFF OMITTED] T8711.004
    
    Mr. Shays. In the order of the Members who came here, I am 
going to invite a new Member, Mr. Sessions from Texas, if he 
has any opening statement.
    It is good to have you here.
    Mr. Sessions. Thank you, sir. My comments are related to 
the people who are here before us. It is people who recognize 
the problem that is evident in America.
    Men and women who went across the globe to represent 
America have come back with terrible symptoms, and I believe 
the public is unsure of the cause. I hope to be an active part 
of this committee to listen to expert testimony and witnesses 
who are in the medical field who can shed light on this and to 
offer my background and experience to get to the bottom of 
this.
    I appreciate you allowing me to be here. Thank you.
    Mr. Shays. Thank you. We are eager and happy to have you 
participate, and I would thank and recognize Mr. Sanders, who 
has been at these hearings, all six of them, and have 
appreciated his contribution.
    Mr. Sanders. Thank you very much, Mr. Chairman, and 
congratulations on your excellent work and congratulations on 
the panels you have assembled today.
    Mr. Chairman, to my mind, one of the issues that we have 
not gotten into as thoroughly as we might, and I think we are 
going to make a major step forward today, is the impact of the 
synergistic effect of a variety of chemical exposures on the 
men and women who served in the Persian Gulf. I think it is 
important that we finally have recognized that thousands of our 
soldiers have been exposed to chemical war agents, but there 
were many other chemical exposures there, as you know.
    According to the American Medical Association, ``Evidence 
now exists linking military service during the Persian Gulf war 
to a variety of ailments, including neurological injuries 
potentially caused by exposure to chemical weapons, government-
issued insect repellent, and possibly by a drug taken to 
prevent poisoning from nerve gas.'' But what we must always 
keep in mind is that the Persian Gulf theater was a chemical 
cesspool, and that our soldiers there were exposed not only to 
chemical agents, war chemical agents, but to many, many other 
chemical agents as well.
    Although some doctors have had some success treating sick 
veterans for chemical exposure, to the best of my knowledge, 
the VA, the DOD, and HHS have not offered veterans a treatment 
specifically geared to overexposure to toxicity. I understand 
that we are in a catch-22. Since we do not yet have a clear 
diagnosis, it is very hard to treat the problem. I understand 
that we need to take our time with some treatment protocol, 
such as those offered by Drs. Nicholson and Hyman who treat 
Gulf war syndrome with antibiotics because there is a risk of 
negative side effects. I am pleased that money has apparently 
been appropriated to take a closer look at these treatment 
protocols. That is an important step forward.
    In the meantime, there are treatment programs that have no 
negative side effects which are making veterans feel better. 
And we should implement this no-risk, win-win treatment 
immediately.
    Mr. Chairman, I will later submit to the record a document 
entitled, ``A Biopsychosocial Therapeutic Approach for the 
Treatment of Multiple Chemical Sensitivity Syndrome in Veterans 
of Desert Storm.'' It is a treatment protocol. It was written 
by Dr. Myra Shayevitz, who was a physician with the Veterans 
Administration at the North Hampton, MA, hospital, dated May 5, 
1995.
    Dr. Shayevitz is of the belief, and treated patients on the 
basis, that they were suffering from multiple chemical 
sensitivity. She had good success. And in talking with Dr. 
Shayevitz, who is no longer at the VA, her concern was that she 
was--how should we phrase it?--not getting the kind of support 
that she wanted from the medical people on top.
    I should tell you, Mr. Chairman, that last week I had a 
very good meeting with Secretary Brown and some of the VA 
physicians, urging them to take a more complete look at 
treatment protocols involving detoxification of our veterans, 
and I hope very much that we will go forward in that area.
    In 1993, Dr. Shayevitz treated over 100 Gulf war veterans 
for chemical exposure, and improved the health of most of them. 
So, in other words, there is a treatment protocol out there.
    The problem is as I understand and you understand that when 
we talk about multiple chemical sensitivity, we are talking 
about a controversial area. Not every physician in America 
agrees with this. The chemical industry does not agree with 
this.
    On the other hand, as somebody who has been involved in 
this issue for a number of years, I can tell you that there are 
hundreds of thousands, if not millions, of Americans in 
civilian life--forget the Persian Gulf--who have been affected 
by overdoses of chemicals.
    There are medical organizations now who are treating tens 
of thousands of people overdosed with chemicals. And it seems 
foolhardy to me to be conservative now and not look at all of 
the medical options that are out there when we have so many 
people who are suffering, and, most importantly, when this 
treatment protocol is a safe treatment protocol. Detoxification 
is not a dangerous drug. It will not have any dangerous side 
effects.
    We have people, for example, Dr. William Rea of the 
Environmental Health Center in Dallas, TX, who has on his own, 
mostly on a pro bono basis, treated over 60 veterans. Dr. Rea 
is well-known throughout the country as being one of the 
pioneers in the whole area of the multiple chemical 
sensitivity.
    Dr. Charles Ensure in Kansas has also treated patients.
    So I would suggest, Mr. Chairman, what this meeting is 
about is to open up the door to different treatments. The 
present diagnosis and treatment from VA and DOD is not working.
    I would conclude by simply thanking Dr. Rostker, if I am 
pronouncing your name right. We met last time informally on a 
television program. You were on the East Coast and I was here, 
or whatever, so it is nice to see you in person. If you allow 
me to quote from the letter that you sent me.
    Dr. Rostker says he knows that I met with Secretary Brown 
and so forth and he says, I understand you met this week with 
Secretary Brown and his staff at the Department of Energy to 
discuss multiple chemical sensitivity research efforts, and 
that additional research proposals on chemical sensitivities 
among Gulf war veter-

ans will be considered for future funding. I support such 
additional research. And he is shaking his head for the record, 
up and down the right way.
    Regardless of the current uncertainties and understanding 
of the complex issues surrounding MCS and the many other 
potential causes of illness, we will continue to try to 
understand and explain why so many of those suffer with the 
Gulf war syndrome. I think that is a step forward and we will 
pursue that later.
    Thank you, Mr. Chairman.
    Mr. Shays. I appreciate the gentleman.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.005
    
    [GRAPHIC] [TIFF OMITTED] T8711.006
    
    [GRAPHIC] [TIFF OMITTED] T8711.007
    
    [GRAPHIC] [TIFF OMITTED] T8711.008
    
    [GRAPHIC] [TIFF OMITTED] T8711.009
    
    [GRAPHIC] [TIFF OMITTED] T8711.010
    
    [GRAPHIC] [TIFF OMITTED] T8711.011
    
    [GRAPHIC] [TIFF OMITTED] T8711.012
    
    [GRAPHIC] [TIFF OMITTED] T8711.013
    
    [GRAPHIC] [TIFF OMITTED] T8711.014
    
    [GRAPHIC] [TIFF OMITTED] T8711.015
    
    [GRAPHIC] [TIFF OMITTED] T8711.016
    
    [GRAPHIC] [TIFF OMITTED] T8711.017
    
    [GRAPHIC] [TIFF OMITTED] T8711.018
    
    [GRAPHIC] [TIFF OMITTED] T8711.019
    
    [GRAPHIC] [TIFF OMITTED] T8711.020
    
    [GRAPHIC] [TIFF OMITTED] T8711.021
    
    [GRAPHIC] [TIFF OMITTED] T8711.022
    
    [GRAPHIC] [TIFF OMITTED] T8711.023
    
    [GRAPHIC] [TIFF OMITTED] T8711.024
    
    [GRAPHIC] [TIFF OMITTED] T8711.025
    
    [GRAPHIC] [TIFF OMITTED] T8711.026
    
    [GRAPHIC] [TIFF OMITTED] T8711.027
    
    [GRAPHIC] [TIFF OMITTED] T8711.028
    
    [GRAPHIC] [TIFF OMITTED] T8711.029
    
    [GRAPHIC] [TIFF OMITTED] T8711.030
    
    [GRAPHIC] [TIFF OMITTED] T8711.031
    
    [GRAPHIC] [TIFF OMITTED] T8711.032
    
    [GRAPHIC] [TIFF OMITTED] T8711.033
    
    [GRAPHIC] [TIFF OMITTED] T8711.034
    
    [GRAPHIC] [TIFF OMITTED] T8711.035
    
    [GRAPHIC] [TIFF OMITTED] T8711.036
    
    [GRAPHIC] [TIFF OMITTED] T8711.037
    
    [GRAPHIC] [TIFF OMITTED] T8711.038
    
    [GRAPHIC] [TIFF OMITTED] T8711.039
    
    [GRAPHIC] [TIFF OMITTED] T8711.040
    
    [GRAPHIC] [TIFF OMITTED] T8711.041
    
    [GRAPHIC] [TIFF OMITTED] T8711.042
    
    [GRAPHIC] [TIFF OMITTED] T8711.043
    
    [GRAPHIC] [TIFF OMITTED] T8711.044
    
    [GRAPHIC] [TIFF OMITTED] T8711.045
    
    [GRAPHIC] [TIFF OMITTED] T8711.046
    
    [GRAPHIC] [TIFF OMITTED] T8711.047
    
    [GRAPHIC] [TIFF OMITTED] T8711.048
    
    [GRAPHIC] [TIFF OMITTED] T8711.049
    
    [GRAPHIC] [TIFF OMITTED] T8711.050
    
    [GRAPHIC] [TIFF OMITTED] T8711.051
    
    [GRAPHIC] [TIFF OMITTED] T8711.052
    
    [GRAPHIC] [TIFF OMITTED] T8711.053
    
    [GRAPHIC] [TIFF OMITTED] T8711.054
    
    [GRAPHIC] [TIFF OMITTED] T8711.055
    
    [GRAPHIC] [TIFF OMITTED] T8711.056
    
    [GRAPHIC] [TIFF OMITTED] T8711.057
    
    [GRAPHIC] [TIFF OMITTED] T8711.058
    
    [GRAPHIC] [TIFF OMITTED] T8711.059
    
    [GRAPHIC] [TIFF OMITTED] T8711.060
    
    [GRAPHIC] [TIFF OMITTED] T8711.061
    
    [GRAPHIC] [TIFF OMITTED] T8711.062
    
    [GRAPHIC] [TIFF OMITTED] T8711.063
    
    [GRAPHIC] [TIFF OMITTED] T8711.064
    
    [GRAPHIC] [TIFF OMITTED] T8711.065
    
    [GRAPHIC] [TIFF OMITTED] T8711.066
    
    [GRAPHIC] [TIFF OMITTED] T8711.067
    
    [GRAPHIC] [TIFF OMITTED] T8711.068
    
    [GRAPHIC] [TIFF OMITTED] T8711.069
    
    [GRAPHIC] [TIFF OMITTED] T8711.070
    
    [GRAPHIC] [TIFF OMITTED] T8711.071
    
    [GRAPHIC] [TIFF OMITTED] T8711.072
    
    [GRAPHIC] [TIFF OMITTED] T8711.073
    
    [GRAPHIC] [TIFF OMITTED] T8711.074
    
    [GRAPHIC] [TIFF OMITTED] T8711.075
    
    [GRAPHIC] [TIFF OMITTED] T8711.076
    
    [GRAPHIC] [TIFF OMITTED] T8711.077
    
    [GRAPHIC] [TIFF OMITTED] T8711.078
    
    [GRAPHIC] [TIFF OMITTED] T8711.079
    
    [GRAPHIC] [TIFF OMITTED] T8711.080
    
    [GRAPHIC] [TIFF OMITTED] T8711.081
    
    [GRAPHIC] [TIFF OMITTED] T8711.082
    
    [GRAPHIC] [TIFF OMITTED] T8711.083
    
    [GRAPHIC] [TIFF OMITTED] T8711.084
    
    [GRAPHIC] [TIFF OMITTED] T8711.085
    
    [GRAPHIC] [TIFF OMITTED] T8711.086
    
    [GRAPHIC] [TIFF OMITTED] T8711.087
    
    [GRAPHIC] [TIFF OMITTED] T8711.088
    
    [GRAPHIC] [TIFF OMITTED] T8711.089
    
    [GRAPHIC] [TIFF OMITTED] T8711.090
    
    [GRAPHIC] [TIFF OMITTED] T8711.091
    
    [GRAPHIC] [TIFF OMITTED] T8711.092
    
    [GRAPHIC] [TIFF OMITTED] T8711.093
    
    [GRAPHIC] [TIFF OMITTED] T8711.094
    
    [GRAPHIC] [TIFF OMITTED] T8711.095
    
    [GRAPHIC] [TIFF OMITTED] T8711.096
    
    [GRAPHIC] [TIFF OMITTED] T8711.097
    
    [GRAPHIC] [TIFF OMITTED] T8711.098
    
    [GRAPHIC] [TIFF OMITTED] T8711.099
    
    [GRAPHIC] [TIFF OMITTED] T8711.100
    
    [GRAPHIC] [TIFF OMITTED] T8711.101
    
    [GRAPHIC] [TIFF OMITTED] T8711.102
    
    [GRAPHIC] [TIFF OMITTED] T8711.103
    
    [GRAPHIC] [TIFF OMITTED] T8711.104
    
    [GRAPHIC] [TIFF OMITTED] T8711.105
    
    [GRAPHIC] [TIFF OMITTED] T8711.106
    
    [GRAPHIC] [TIFF OMITTED] T8711.107
    
    [GRAPHIC] [TIFF OMITTED] T8711.108
    
    [GRAPHIC] [TIFF OMITTED] T8711.109
    
    [GRAPHIC] [TIFF OMITTED] T8711.110
    
    [GRAPHIC] [TIFF OMITTED] T8711.111
    
    Mr. Shays. At this time I would call on Mr. Gilman, who is 
the chairman of the International Relations Committee of this 
House, and appreciate you being here.
    Mr. Gilman. Thank you, Mr. Chairman.
    First of all, I want to commend you for providing us the 
opportunity to further pursue this important issue, and I also 
want to recognize the commitment of many of our colleagues on 
this subcommittee in pursuing the issue.
    While I have not benefited from last year's hearings or 
actual participation, I do share our colleagues' concern for 
our Nation's Persian Gulf war veterans and their families. The 
issue of the Persian Gulf war syndrome is highly controversial 
and emotional for all of those involved, including the families 
of the veterans involved.
    And while we may disagree about the cause of the syndrome 
or even if one all-encompassing disease exists, I think we all 
agree that the Department of Defense's record on this subject 
left much to be desired. It is simply inexcusable that DOD 
flatly and categorically denied the presence of chemical 
weapons in the Persian Gulf war theater, despite evidence to 
the contrary. It was only after being faced with overwhelming 
evidence that this position was suddenly reversed last summer.
    Likewise, the VA's position of not having given much 
attention and priority to the possibility of low-level 
exposures in their medical research and in our treatment of our 
veterans, I think was short-sighted. In essence, it appears 
that the VA simply followed the lead by the Department of 
Defense in not considering the possibility of low-level 
chemical exposure.
    There are numerous serious questions which do remain. In 
recent studies by the President's Advisory Committee, and two 
separate university studies have resulted in widely diverse 
conclusions, certainly more research is needed, yet we must 
guard against studying this subject to death. There are 
numerous veterans who are suffering from something that was 
related to their service in the Gulf.
    I am concerned that all the studies in the world are not 
going to reveal any magic bullet which will answer all of our 
questions with regard to the cause of the syndrome, yet the 
Persian Gulf theater was a highly toxic environment. Whether it 
was a few chemical agents or a combination of various factors, 
we are not certain. But in all probability, stress from combat 
played a role, but I remain highly skeptical that stress is the 
sole cause.
    One issue which I hope we will be addressing, Mr. Chairman, 
during this or any future hearings, is that of the reported 
birth defects in children born to Gulf war veterans, especially 
those who had healthy children born prior to the Gulf war. That 
issue which has not received much attention is one that could 
safely be assumed to be totally unrelated to any combat stress. 
With this being said, I again thank Chairman Shays for pursuing 
this issue. I look forward to hearing the testimony of our 
witnesses today.
    Mr. Shays. Thank you very much, Mr. Gilman, and at this 
time I would call on Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Although I am not fortunate enough to serve on your 
subcommittee, I wanted to briefly stop by and congratulate you 
for holding a hearing on this important issue. As the wife of a 
Vietnam veteran, our family knows all too well how long it took 
our Armed Forces to recognize the health effects that many of 
the chemicals used in that war had on the brave men and women 
who fought there and served our country well.
    We certainly thought that sad chapter was behind us, yet we 
find ourselves in a new decade once again confronting the 
bureaucracy and slowness of recognizing the effects of 
different chemicals used now in a new combat theater. So I 
congratulate you for holding the hearing, and we hope that--and 
we are optimistic that good things will come for our veterans 
as a result of your hearings.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentlelady. At this time I would 
call on Mr. Snowbarger, who is a new member of the committee, 
and is also designated to be the vice chairman of this 
subcommittee, and it is wonderful to have you here.
    Mr. Snowbarger. Mr. Chairman, thank you, not only for the 
opportunity to serve on this committee, but to serve as your 
vice chairman.
    Briefly, I wanted to thank the panelists for their presence 
here today and I look forward to their remarks. I realize that 
the committee has done a lot of work on this issue before, so I 
am kind of coming in at the tail end of some of this. But the 
importance of the topic was brought home again as late as last 
Friday when one of my constituents came to me complaining that 
he was having problems with Gulf war syndrome and was anxious 
to hear what the committee's work was going to show on his 
behalf. I am happy to be part of the committee, Mr. Chairman, 
and thank you.
    Mr. Shays. I thank the gentlemen, and at this time, Mr. 
Horn, do you have a statement you would like to make?
    Mr. Horn. I don't have a statement.
    Mr. Shays. Great to have you here.
    Let me say we have three excellent panels, and we are very 
eager to hear from all of them. I think, as most of you know, 
when we scheduled this hearing we thought it would be a slow 
day in the Capitol and obviously it is a very important day 
with the debate on the ethics of the Speaker. And so this 
committee will attempt to adjourn at approximately 12 o'clock.
    Our intention is we will finish the first panel. We are not 
going to keep you here and have you come back. So our intention 
is to have the first panel conclude, and at the end of that 
probably adjourn. It could be as late as--excuse me, not 
adjourn but to recess. It could be as late as 1:30 or 2. But I 
do suspect that the first panel will take all of our time.
    So with that, let me just take care of some House business 
we need to take care of first.
    First, I will be swearing in the witnesses in a few 
minutes. I have been designated by the chairman of the 
committee since I am not officially the chairman of the 
subcommittee, and that is, pursuant to a letter of January 16, 
I have the authority to swear in witnesses, subject to the 
approval of Mr. Waxman as well, who has concurred. We will be 
doing that shortly.
    Before we swear in the witnesses, I ask unanimous consent 
that all members of the full committee be permitted to place 
any opening statements in the record, and that the record 
remain open for 3 days for that purpose. And without objection, 
so ordered.
    [The prepared statement of Hon. Mike Pappas follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.112
    
    Mr. Shays. I also ask unanimous consent that our witnesses 
be permitted to include their written statements in the record, 
and without objection so ordered.
    At this time, I would officially recognize and ask them to 
stand. Dr. Kenneth Kizer, Under Secretary for the Health 
Department of Veterans Affairs, it is wonderful to have you 
here; and Bernard Rostker, Special Assistant for Persian Gulf 
War Illnesses, Department of Defense; and also Dr. Donald 
Custis, also a retired Admiral.
    I understand that the acoustics here are not too good and 
if you have trouble picking up what we are saying, don't be 
reluctant to ask any of us to slow down.
    Dr. Custis as well, Admiral, U.S. Navy, retired, member, 
Presidential Advisory Committee on Persian Gulf War Veterans' 
Illnesses.
    So we have a wonderful panel, and also we will be swearing 
in Ms. Holly Gwin, who was involved in actually writing the 
final draft of the report as counsel in charge of the report as 
well.
    And Ms. Gwin, is it your intention to have a statement or 
will you be here to respond to questions?
    Ms. Gwin. Respond to questions.
    Mr. Shays. Therefore, we need to swear all of you in. 
Therefore, if you would stand--I would say we swear even 
Members of Congress when they come before the subcommittee.
    [Witnesses sworn.]
    Mr. Shays. For the record, all four witnesses have 
responded in the affirmative. We are going to go in the order 
in which I called you, from left to right.
    Dr. Kizer, it is wonderful to have you here, and I 
appreciate the good work you do for the Department of Veterans 
Affairs.

   STATEMENTS OF KENNETH W. KIZER, M.D., UNDER SECRETARY FOR 
HEALTH, DEPARTMENT OF VETERANS AFFAIRS, ACCOMPANIED BY FRANCES 
 MURPHY, VA CENTRAL OFFICE; BERNARD ROSTKER, SPECIAL ASSISTANT 
FOR PGW ILLNESSES, DEPARTMENT OF DEFENSE; DONALD CUSTIS, M.D., 
  ADMIRAL, U.S. NAVY (RETIRED), MEMBER, PRESIDENTIAL ADVISORY 
 COMMITTEE ON PGW VETERANS' ILLNESSES, ACCOMPANIED BY HOLLY L. 
               GWIN, DEPUTY DIRECTOR AND COUNSEL

    Dr. Kizer. Good morning, Mr. Chairman. Having provided 
rather lengthy written testimony, I will keep these comments 
relatively brief.
    I would like to make comments in five specific areas. 
First, I would like to note that we believe the VA has a good 
program to deal with the illnesses of our Persian Gulf 
veterans. It is a comprehensive program that includes providing 
medical care, conducting research, granting disability 
compensation, and conducting education and outreach efforts.
    Illustrative of the medical care provided are the following 
statistics that indicate over 63,000 registry exams have been 
performed to date; over 187,000 veterans have been seen in our 
ambulatory care clinics; over 19,000 veterans have been 
hospitalized; and more than 74,000 have been seen in our 
readjustment counseling vet centers.
    Notwithstanding the fact that we believe the VA has a very 
good program, we are continually looking for ways to improve it 
and make it better, and, therefore, we welcome this opportunity 
to engage in this ongoing dialog.
    The second area I would like to comment on has to do with 
the notion of a syndrome per se; perhaps I can put a few things 
in perspective here.
    We believe that Persian Gulf veterans have a diverse array 
of symptoms and conditions that cannot be neatly folded into 
one diagnosis or one syndrome. We also firmly believe that the 
veterans who seek care from the VA are suffering from genuine 
illnesses, and we are providing treatment for these veterans as 
illustrated by the numbers that I just cited. I would also 
note, perhaps contrary to one of the comments, I don't recall 
exactly who made it before, many veterans are benefiting from 
the treatment that is being provided.
    Again, I would like to illustrate with some numbers the 
fact that our Persian Gulf veterans' conditions do not cluster 
in any one system or disease category. Instead, they span a 
wide range of illnesses and diagnostic categories.
    To date, in our registry examination program, over 7 
percent of the diagnoses have been for infectious diseases; 
over 14 percent for respiratory disorders; 11 percent for 
gastrointestinal conditions; 7 percent--7.1 percent--for 
cardiovascular or circulatory problems; 3.4 percent for 
genitourinary conditions; 13\1/2\ percent for skin disorders; 
nearly 5 percent for injury for poisoning conditions; 15 
percent for psychiatric disorders; over 8 percent for 
neurologic conditions; and less than half of 1 percent for 
neoplasms.
    These numbers also help to put in perspective the notion of 
stress. While the VA does believe that some veterans are 
suffering from stress-related conditions, it would certainly be 
a gross mischaracterization of the record and the facts to 
indicate that VA believes that all of these veterans are 
suffering from stress-related conditions. Indeed, just to the 
contrary. While we believe some are, we feel that most are not 
suffering from stress, per se.
    The third area I would like to comment on briefly has to do 
with a question as to whether the VA listened to the Persian 
Gulf veterans. I think the facts are there, indeed, and an 
objective review of the record, will clearly show that VA has 
been attentive to the veterans' concerns about toxic exposures, 
including chemical warfare agent exposures.
    This data is illustrated by many things, including the 
questions and design of the uniform case assessment protocol 
that is used to evaluate Persian Gulf veterans, as well as the 
current registry examination protocol.
    Other examples are the research studies that have been 
funded, most of which were funded before information about the 
Khamisiyah incident was reported by DOD; by the establishment 
of the VA Environmental Hazard Centers in 1994; by our 
collaboration with Japanese scientists investigating the Tokyo 
subway terrorist incident involving sarin, beginning well over 
a year before the data about Khamisiyah was reported by DOD; 
and, by repeated public comments, some of which have been 
widely reported in the media. Indeed, I can recall being 
chastised at a hearing by somebody else for my comments that 
were reported in USA Today in early March----
    Mr. Shays. Just for the record, that was not a hearing 
before this committee.
    Dr. Kizer. That is correct. As I said, it was before 
another committee for comments----
    Mr. Shays. We may chastise you for other reasons.
    Dr. Kizer. I am sure you will.
    Just to finish that, I think the record clearly shows both 
in the public media as well as elsewhere that we have been wide 
open to this possibility from the beginning.
    The fourth area that I would comment on really has to do 
with the illnesses and conditions that our Persian Gulf 
veterans have, illustrating both some of the strengths and some 
of the shortcomings of modern medicine. Indeed, the practice of 
medicine today continues to be an art as well as a science. The 
fact that about three-fourths of our Persian Gulf veterans have 
had their conditions diagnosed as quickly as they have been and 
with the least amount of invasive testing as possible certainly 
would not have been possible 15 or 20 years ago.
    However, today's medical knowledge does not have all the 
answers, and despite the wonders of modern medicine and the 
illusion that is often created by television or the movies, 
many people have symptoms and conditions for which there is no 
clear diagnosis or understanding of the disease, and certainly 
no ``magic bullet'' of treatment.
    I can tell you from my firsthand experience as a professor 
at a university medical center where many complex patients came 
with uncertain diagnoses, uncertain conditions, that that was 
the norm, and many people left the university medical center 
likewise without having firm diagnoses established. Likewise, I 
can tell you as a medical toxicologist that medical science 
certainly does not hold answers or the science is not as 
refined in the area of toxicology as we would like.
    This is very clearly borne out by some of the issues and 
some of the questions that you have asked, Mr. Chairman, 
regarding assessing individuals for potential exposure to 
chemical warfare agents. There simply is no valid chemical test 
today to identify chemical warfare agent exposures that 
occurred years ago. You just cannot do that because the science 
does not exist. That is the sort of confirmatory testing that 
both of us would like to be able to do on our veterans does not 
exist. And as I think Mr. Sanders commented in his opening 
comments, that really is no different from the situation that 
exists with our agricultural workers or with industrial workers 
who have been exposed to many of the same neurotoxins in a 
variety of other settings in the course of their work as well 
as members of the public who may live near 
Superfund or who live near various other toxic waste sites and 
have developed various symptoms that they believe are related 
to chemical exposures, and in many cases multiple chemical 
exposures.
    We know that many conditions--just to finish this point--we 
know that many of the symptoms and conditions that people have 
today and have received a diagnosis, especially for those who 
have had nonspecific symptoms, may get alternative diagnoses if 
they see other practitioners. Indeed, I would hazard to say as 
I look at the panel it probably would not be a unique 
experience that you may have been to a physician once who told 
you he wasn't sure exactly what you were suffering from or 
likewise you may have seen more than one physician for the same 
condition and gotten more than one diagnosis or impression as 
to what was causing your symptoms. This is not at all unique to 
Persian Gulf veterans, by any means. Likewise, as medical 
science advances and more tests are performed on individuals, 
we certainly find that diagnoses are often refined.
    Just the last point in this regard, I would also note that 
the VA has recognized that forward-looking thinkers usually 
challenge traditional views. Often the forward-looking thinkers 
have views that are at variance with established or 
conventional thinking. We also recognize that such researchers 
have had difficulty getting their unconventional methods or 
diagnoses or treatments accepted by the scientific community.
    Recognizing this fact, the VA has kept an open mind and 
open door. We will certainly continue to listen to and 
encourage innovative ideas. The one thing we will require, 
though, is that investigative methods and techniques have to be 
consistent with sound science and ethical principles of 
experimentation. We simply do not believe that veterans can be 
the focus of experiments.
    Finally, Mr. Chairman, and recognizing that my time is 
rapidly disappearing here, let me comment----
    Mr. Shays. Dr. Kizer, we value your testimony and realize 
you won't always be coming before the committee so there is no 
time restraint on you.
    Dr. Kizer. I was watching the lights.
    Mr. Shays. It helps us get a gauge, so we will put the 
green on again.
    Dr. Kizer. Thank you, Mr. Chairman.
    The last area I want to comment on in this brief opening 
statement is the one that you asked me to comment upon and that 
is the studies by Dr. Haley and Dr. Schwartz that were 
published in last week's issue of the Journal of the American 
Medical Association.
    In brief, just to summarize those studies, the study by Dr. 
Schwartz and his colleagues was a population-based telephone 
survey of a sample of 2,000 Persian Gulf veterans and an equal 
number of Gulf-era veterans whose home of record was in Iowa. 
The participation rates were high in this study, which is good. 
About 76 percent of the eligible subjects participated.
    This study examines self-reported symptoms and their 
prevalence rates, and used validated algorithms to group 
symptoms into five categories of medical conditions. The study 
group was found to have a significantly higher self-reported 
prevalence of medical and psychiatric conditions, including 
asthma and bronchitis, post-traumatic stress disorder, 
depression, cognitive dysfunction, chronic fatigue, and 
fibromyalgia.
    Among these Persian Gulf veterans, these conditions were 
more often reported by those with self-identified exposures to 
pyridostigmine bromide, chemical warfare agents, pesticides, 
solvents, and smoke than those who did not report, or self-
report, such exposures.
    I would note that this higher rate of self-reported 
symptoms is very similar to the findings of a study that the VA 
requested CDC to conduct some time ago of Pennsylvania 
veterans. That was published in the June 1995 issue of 
Morbidity and Mortality Weekly Report.
    I would also, Mr. Chairman, if you would indulge me, take 
this opportunity to publicly thank Dr. Schwartz. As is typical 
of VA physicians, most VA physicians are members of university 
faculty, and certainly Dr. Schwartz fits that category. He is 
one of our staff physicians at the Iowa City VA Medical Center 
and a faculty member at the University of Iowa. I would 
certainly like to thank him for his work, not only on a day-to-
day basis with our patients at the medical center, but also for 
his work on this study.
    Likewise, Dr. Haley, who is one of the attending physicians 
at the VA Medical Center in Dallas. I would also like to 
acknowledge and thank him for his efforts on behalf of the 
patients at the VA Medical Center in Dallas where he works, as 
well as recognizing his position with the university there.
    Let me turn specifically to the studies of--several 
studies, three studies--that are reported by Dr. Haley and 
colleagues in the issue of JAMA that I cited. These studies 
focus on a single military unit of Gulf war veterans, the 24th 
Reserve Naval Construction Battalion and this to characterize 
the illness of this group of veterans. Dr. Haley administered a 
detailed questionnaire on symptoms and risk factors to 249 of 
the 606 members of this unit, 41 percent of the unit, and 
through a technique called factor analysis, the investigators 
found six patterns of symptom clusters, indeed six different 
syndromes in this relatively small group of persons.
    I actually, in the interest of time, will forego all of the 
details that were reported, particularly of the studies that 
focused on the 23 veterans that were most intensively studied 
with neuro-psychological and neurophysiologic testing. I would 
just note that when the findings were reported by the authors, 
and the findings of the studies were shown to and reviewed by a 
group of neurologists, no abnormality was found. Using some 
complicated statistical methodologies, Dr. Haley was able to 
identify, in the aggregate, the patients from the study group 
who had more symptoms or abnormalities than the others.
    I would also, in the interest of time, not go through some 
of the specific limitations. We would concur with Dr. Haley in 
his discussion of the report and what is published in the 
journal, that the studies do suffer from a number of 
shortcomings that make it difficult to extrapolate the 
findings, particularly the small sample size and the potential 
problem of selection bias.
    At this point, we are in the process of engaging in further 
discussion with Dr. Haley to find out some of the details that 
were not published. So, we will defer further discussion of 
these issues until a later time when we have had the 
opportunity to go over some of these details with him.
    I would note, though, that we don't believe that these 
studies provide the definitive answer. They certainly are 
important. We view them as very significant findings, but 
further research is necessary to answer questions both raised 
by these studies as well as by others and, likewise, we need to 
review the findings of these studies within the context of what 
else is known about what may precipitate those findings, 
accepting the findings themselves. There is literature that 
also needs to be reviewed as far as what may have caused those 
specific findings, and that is, of course, a process that will 
continue.
    Let me conclude these comments, Mr. Chairman, by again 
noting that we believe the VA has a good program for dealing 
with the illnesses of Persian Gulf veterans. No one is being 
turned away from care, and while it may take some time for 
research to provide answers to some of the problems that some 
of our veterans have, we will continue to provide the best care 
that we can while that research is being brought to conclusion.
    Likewise, I would just repeat--as I said at the outset--
that we welcome the scrutiny of our program. The scrutiny has 
been provided by the Presidential Advisory Commission, by the 
many veterans' service organizations that have been acutely 
interested in this subject, by the National Academy of Science 
and the Institute of Medicine that has an ongoing review of the 
program, by the Veterans Affairs Committees of both the House 
and the Senate, by this subcommittee, and all of the many other 
entities that already have commented upon and will comment in 
the future or that will review this effort.
    Thank you, Mr. Chairman. I would--if I might also just ask 
one procedural question, having not testified before you 
before. One of the things I have noticed in some other hearings 
is that sometimes words may be used differently by different 
people. You as an attorney may use a word somewhat differently 
than I as a physician might, and if that arises, I just wonder 
if you will allow us to make sure we are talking about the same 
thing when words like that come up.
    [The prepared statement of Dr. Kizer follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.113
    
    [GRAPHIC] [TIFF OMITTED] T8711.114
    
    [GRAPHIC] [TIFF OMITTED] T8711.115
    
    [GRAPHIC] [TIFF OMITTED] T8711.116
    
    [GRAPHIC] [TIFF OMITTED] T8711.117
    
    [GRAPHIC] [TIFF OMITTED] T8711.118
    
    [GRAPHIC] [TIFF OMITTED] T8711.119
    
    [GRAPHIC] [TIFF OMITTED] T8711.120
    
    [GRAPHIC] [TIFF OMITTED] T8711.121
    
    [GRAPHIC] [TIFF OMITTED] T8711.122
    
    [GRAPHIC] [TIFF OMITTED] T8711.123
    
    [GRAPHIC] [TIFF OMITTED] T8711.124
    
    [GRAPHIC] [TIFF OMITTED] T8711.125
    
    [GRAPHIC] [TIFF OMITTED] T8711.126
    
    [GRAPHIC] [TIFF OMITTED] T8711.127
    
    [GRAPHIC] [TIFF OMITTED] T8711.128
    
    [GRAPHIC] [TIFF OMITTED] T8711.129
    
    [GRAPHIC] [TIFF OMITTED] T8711.130
    
    [GRAPHIC] [TIFF OMITTED] T8711.131
    
    [GRAPHIC] [TIFF OMITTED] T8711.132
    
    [GRAPHIC] [TIFF OMITTED] T8711.133
    
    [GRAPHIC] [TIFF OMITTED] T8711.134
    
    [GRAPHIC] [TIFF OMITTED] T8711.135
    
    Mr. Shays. It is essential that we communicate well and I 
have no problem with you asking for clarification. And, 
frankly, I don't have any problem if you hear someone ask a 
question of someone else and step in if you think we are not 
communicating. I am not an attorney, and I am not offended.
    Dr. Kizer. I am sorry, I apologize.
    Mr. Shays. Dr. Rostker.
    Mr. Rostker. Thank you, Mr. Chairman----
    Mr. Shays. Excuse me. I am going to have you lower it down 
just a little bit. It is the one with the long stem that 
projects your voice. The other one is the TV camera.
    Mr. Rostker. Mr. Chairman, thank you very much for the 
opportunity to come before the committee today to explain to 
you and to the American people the very many changes we made in 
the Defense Department.
    Mr. Chairman, on 12 November 1996, the Deputy Secretary of 
Defense, Dr. John White, appointed me Special Assistant for 
Gulf War Illnesses. This action was part of a broader set of 
initiatives undertaken in September to assess the Department of 
Defense's Gulf war illness program in view of the recent events 
to include the report that soldiers may have been exposed to 
chemical agents during the destruction of storage sites at 
Khamisiyah.
    My mission as the Special Assistant for Gulf War Illnesses 
is to serve as the Department of Defense's coordinator for all 
issues relating to Gulf war illnesses. Two vital aspects of 
this mission are to ensure that we learn everything possible 
about the suspected chemical exposure events which occurred 
during and after the Persian Gulf conflict and to promote 
improved communications with Gulf war veterans on the relevant 
health issues.
    This mission is critical not only because we have a moral 
duty to our veterans but also because we must understand what 
is making our people sick so that we can initiate the vital 
changes required to protect our forces in the future. We must 
ensure that DOD puts in place all the required military 
doctrine, plus personnel and medical policies, procedures, and 
equipment so as to prevent future repetitions of the problem.
    To quote the President: ``I want to assure all of you that 
we will leave no stone unturned in our efforts to investigate 
Gulf war illnesses, and to provide our Gulf war veterans with 
the medical care they need. There are mysteries, still 
unanswered questions and we must do more.''
    Mr. Chairman, it is my business to leave no stone unturned. 
To carry out this mission, I have expanded by an order of 
magnitude the Department of Defense's investigations 
organization. The original team of 12 is now more than 110 
people strong, and they have completely revamped the way we do 
business. We have the investigators and analysts necessary to 
perform a full review of currently known incidents, and I have 
the authority to search out and pursue reports of any new 
incidences.
    My expanded efforts build on earlier work by refocusing and 
substantially increasing the level of commitment. Much of the 
increase is focused on incidents which occurred during the Gulf 
war, the hazardous exposures that may have resulted from these 
incidents, and the broader implications of such incidents. We 
are doing this with renewed dedication to communicate with all 
veterans who served and fought in Southwest Asia in 1991, 
including those veterans who are still on active duty, serving 
in the National Guard and Reserve, and those who have returned 
to full-time civilian life.
    I have expanded into new areas to initiate proactive risk 
communication strategies with a two-way communication between 
the DOD, the VA, and the Gulf war veterans as recommended by 
the Presidential Advisory Committee on Gulf War Illnesses, the 
PAC. Today, when a veteran calls our telephone hotline to offer 
information, the veteran receives a followup call and is 
interviewed by a trained investigator who ensures that 
information is incorporated into our case files.
    These call-backs not only provide an in-depth debrief, but 
for the future, a single point of contact between my office and 
the reporting Gulf war veteran. The process involves the 
veteran in the investigative process in a significant and 
meaningful way. Our call-back teams work on two shifts from 7 
a.m. to 11 p.m., Monday through Friday. Response from the 
veterans has been extremely positive.
    We also collaborate very closely with veterans' service 
organizations. For example, on December 11th, we hosted the 
VSOs at a demonstration of the chemical equipment used during 
the Gulf war, particularly the M8 alarm, 256 test kits and the 
FOX chemical reconnaissance vehicle. They appreciated the 
opportunity to become more familiar with the equipment that has 
often been written about in the press and was the subject of 
debate in Congress.
    We have initiated a formal structure for our incident 
investigations. We are preparing a series of narratives that 
summarize what we know about such incidents as Khamisiyah, the 
Marine breaching operation, operational logs, FOX alarms, for 
pyridostigmine bromide tablets, and every other issue under 
investigation. These narratives will be a status report to the 
American people of what we know, when we knew it, and what 
actions we plan to take. I expect that this will be the basis 
for us to more effectively address the concerns of Gulf war 
veterans and their families.
    We are building on the major health programs initiated by 
the Assistant Secretary of Defense for Health Affairs, Dr. 
Steve Joseph. Under his leadership, a comprehensive clinical 
evaluation program was established in which more than 38,000 
Gulf war veterans registered--and those Gulf war veterans who 
are in active duty and in the Reserve components today. The 
Department of Veterans Affairs has its own registry with 
63,000-plus veterans in their registry.
    In addition to forming my organization, the Deputy 
Secretary of Defense generated a number of other important 
initiatives. In the area of research, the DOD has committed to 
spending $12 million to study a wide range of medical issues 
relating to the Gulf war. Further, we are prepared to spend an 
additional $15 million to study the long-term effects of 
chemical and other hazardous exposures, including low-level 
chemical exposures.
    At this time, therefore, I am withdrawing the DOD staff 
paper published on the GulfLINK home page on the Internet which 
discounts low-level chemical exposures as the cause for Gulf 
war illnesses. In doing this, I note that the PAC concluded and 
current scientific evidence does not support a causal link 
between low-level chemical exposures and undiagnosed Gulf war 
illnesses. However, the PAC also recommended that additional 
research be warranted. We concur in this assessment and plan to 
fund the appropriate research. I approach this subject with a 
completely open mind, and our research agenda is clear evidence 
to this.
    Dr. White also initiated a review by the Institute of 
Medicine of the DOD clinical health examination protocols in 
light of the possibility of chemical exposures; a review by the 
Army Inspector General of the military operations at 
Khamisiyah; and a review by the Assistant to the Secretary of 
Defense for Intelligence Oversight of the circumstances 
surrounding the handling of intelligence data concerning 
Khamisiyah.
    Furthermore, Dr. White requested that the National Academy 
of Sciences provide a mechanism for oversight to meet the 
President's call for an independent, open, and comprehensive 
examination of health-related issues and assessment of the 
multiple issues relating to the protection of our forces. This 
is in addition to the PAC's oversight of the investigation into 
low-level chemical exposure events and monitoring of the 
governmentwide implementations of its recommendations.
    Mr. Chairman, I would like to take a moment to comment on 
issues raised by this committee on 10 December 1996, concerning 
its perception that field commanders in the Gulf dismissed what 
soldiers and Marines considered to be valid chemical 
detections. Marine Corps Gunnery Sergeant George Grass, Major 
Randy Hebert, and Army Major Michael Johnson are Americans 
whose service we honor and testimony we welcome. We applaud 
these men for coming forward to describe events about which we 
are all deeply concerned. The clarity and detail of their 
observations contributed significantly to our investigations, 
and we are examining each and every one of the incidents they 
report. Their close, personal observations, however, must be 
taken into the context of all of the information available to 
us as we go forward in our investigation.
    As you see from the illustration provided in the handout 
before you, I believe we can, indeed, corroborate one of the 
initial detections cited by Gunnery Sergeant Grass. However, it 
is important to note that the same log that records his initial 
chemical alert also records the action taken in response to 
that alert and the final determination that no chemical warfare 
agents were present.
    Let me be more specific. On 28 February 1991, there is an 
entry in the CENTCOM Chemical Log published on GulfLINK, and 
therefore available for all to review, that reads, and I quote: 
CWO James called: 1st Marine Division has come across an ammo 
bunker complex with suspected chemical munitions. The FOX has 
come up with indications of small concentrations of sulfur 
mustard after numerous tests.
    The next day, another log entry states, and I quote again: 
Chief Warrant Officer James calls back. The suspected bunker 
was checked out thoroughly. No chemical munitions was found. In 
fact, we have interviewed the members of the team that checked 
out that bunker and can confirm that from other sources.
    It is also important to note that the unit commanders did 
what was right and responded appropriately by directing their 
troops to don chemical protected gear, they cordoned off the 
area, and waited for properly trained troops to enter and 
investigate the bunker.
    While in this case the chemical logs help clear up the 
issue here of the ammo bunker reported to this committee, in 
other cases the same logs identified and confirmed issues we 
cannot explain. This includes the Czech records which United 
States equipment could not confirm, and I would note that the 
Czech detectors were more sensitive than United States 
equipment, which may help explain why we cannot confirm their 
initial reports.
    In conclusion, we are wholeheartedly committed to find out 
everything we can about Gulf war illness. This is necessary not 
only because it is right for our veterans but also because it 
is imperative for the future safety of our troops. I invite our 
veterans to assist by contributing their own observations to 
our investigation. They may do so by calling our toll-free 
number, and if I might, 1-800-472-6719. We want them to help us 
become part of our team.
    Mr. Chairman, thank you for allowing me to read this 
statement.
    [The prepared statement of Mr. Rostker follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.136
    
    [GRAPHIC] [TIFF OMITTED] T8711.137
    
    [GRAPHIC] [TIFF OMITTED] T8711.138
    
    [GRAPHIC] [TIFF OMITTED] T8711.139
    
    [GRAPHIC] [TIFF OMITTED] T8711.140
    
    [GRAPHIC] [TIFF OMITTED] T8711.141
    
    [GRAPHIC] [TIFF OMITTED] T8711.142
    
    [GRAPHIC] [TIFF OMITTED] T8711.143
    
    [GRAPHIC] [TIFF OMITTED] T8711.144
    
    [GRAPHIC] [TIFF OMITTED] T8711.145
    
    Mr. Shays. Thank you, Dr. Rostker.
    Dr. Custis, we will be happy to hear your testimony. Sir, I 
am going to ask you if you would line up that mike toward you. 
It is a little hard to read because it comes over your paper, 
but it helps us hear.
    Dr. Custis. Mr. Chairman, members of the committee, we 
thank you for this opportunity to appear before you today. We 
have submitted written testimony for the record. As you 
requested, I will now summarize this material.
    First, there should be no question that the Presidential 
Advisory Committee on Gulf War Veterans' Illnesses recognizes 
that many veterans are experiencing medical problems connected 
to their service in the Gulf war. In the near term, the 
government needs to fine tune some specific efforts in followup 
clinical care and risk communication. Overall, however, we were 
encouraged, for the most part, by the Government's response to 
the range of health-related problems experienced by Gulf war 
veterans.
    Regarding research, the committee found that the research 
currently under way places an appropriate emphasis on the 
epidemiologic studies and stress-related disorders. The broad 
array of ongoing research will improve our understanding of 
Gulf war veterans' illness.
    To close gaps in the current knowledge base, however, we 
recommended additional studies in three specific areas on long-
term health effects of low-level exposures to chemical warfare 
agents, on the synergistic effects of pyridostigmine bromide 
with other Gulf war risk factors, and on the body's physical 
response to stress.
    The committee also noted the importance of continuing to 
ensure that resources are devoted to mortality studies since 
some health effects, such as cancer, would not be expected to 
appear until a decade or more after the end of the Gulf war.
    While all the data are not yet in, the Advisory Committee 
was able to reach some conclusions about the nature of Gulf war 
veterans' illness. In this regard, we made three findings. 
First, as I noted, many veterans have illness likely to be 
connected to their service in the government.
    Second, current scientific evidence does not support a 
convincing causal link between the illness and the symptoms 
that veterans report today and exposure to any environmental 
risk factor of the commonly suspected Gulf war risk hazards 
that we assess. The committee conducted a comprehensive review 
based on results subjected to peer review of the health effects 
of pesticides, chemical warfare agents, biological warfare 
agents, vaccines, pyridostigmine bromide, infectious diseases, 
depleted uranium, oil well fire smoke, and petroleum products, 
and psychological and physiological stress; and finally, the 
fact that stress, which is known to affect the brain, immune 
system, cardiovascular system, and various hormonal responses, 
is likely to be an important contributing factor but that it is 
not and cannot be the whole story.
    As you know, the Advisory Committee had one significant 
caveat about the Government's response related to Gulf war 
veterans' health concerns. We took strong issue with the 
Department of Defense's efforts to assess possible exposures of 
United States troops to chemical warfare agents in the Gulf. An 
atmosphere of Government distrust now surrounds every aspect of 
Gulf war veterans' illnesses because of DOD's mishandling of 
this matter. This situation is regrettable, but it is also 
understandable.
    Our investigation of DOD's efforts in this area led us to 
conclude the Department's early efforts were superficial and 
lacked credibility. We found substantial evidence of site-
specific, low-level exposures to chemical warfare agents. 
Moreover, we found DOD's investigations had been superficial 
and were unlikely to provide credible answers to veterans' and 
the public's questions.
    The Advisory Committee also noted that DOD's failure to 
seriously investigate these issues until late last year also 
adversely affected decisions related to funding research into 
possible health effects of low-level exposures to chemical 
warfare agents.
    Before concluding my oral remarks, I do want to mention 
that during the course of the Advisory Committee's 
investigations, we judged that the government could do a better 
job in the future of avoiding post-conflict health concerns. 
Thus, we made several recommendations to address the need for 
better communication, better data, and better services.
    Ms. Gwin and I would be happy to discuss committee 
recommendations in greater detail should you have questions, 
but I especially want to note a strong need to improve data 
collection and handling. The government has a significant 
amount of ground to recover with Gulf war veterans and the 
American public, because they have come to question whether a 
lack of data, for example on possible exposures, on the pre- 
and post-development health care veterans, or on the location 
of troops in theatre, indicates a lack of commitment to 
veterans' health.
    In conclusion, Mr. Chairman and members of the committee, 
the Nation has begun to pay its debt to Gulf war veterans in 
many important ways. It is essential now to move swiftly toward 
resolving their principal remaining concerns: how many U.S. 
troops were exposed to chemical warfare agents? And to what 
degree?
    Thanks again for this opportunity to review our work with 
you. We would be happy to answer any questions. I thank you.
    [The prepared statement of Dr. Custis follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.146
    
    [GRAPHIC] [TIFF OMITTED] T8711.147
    
    [GRAPHIC] [TIFF OMITTED] T8711.148
    
    [GRAPHIC] [TIFF OMITTED] T8711.149
    
    [GRAPHIC] [TIFF OMITTED] T8711.150
    
    [GRAPHIC] [TIFF OMITTED] T8711.151
    
    Mr. Shays. Thank you, Dr. Custis.
    First let me ask a question of all of you. Do you have any 
disagreement with what the others have said on this panel or 
any clarification or response, anything you have heard so far?
    Dr. Kizer. I would say none that I can think of at the 
moment.
    Mr. Shays. Dr. Kizer, what mistakes has the VA made in the 
last 6 years with regard to the Gulf war issue and this whole 
issue of the syndrome? Where are the mistakes?
    Dr. Kizer. I don't know that I would characterize them as 
mistakes. I think as we have commented on a number of times 
before, and I have testified before, that we feel the research 
agenda, as far as the exposure side, was delayed because of 
information that was provided, I think there is an important 
point----
    Mr. Shays. Provided where?
    Dr. Kizer. Provided by the Department of Defense.
    I think an important point to be made there that has, I 
think, often been overlooked, is that while the exposure, per 
se, may not have been investigated, the effects that such 
exposure might have caused have been the focus of research for 
quite some time, indeed, antedating this whole discussion about 
the Khamisiyah incident.
    While I can't speak with any firsthand knowledge about the 
VA in the timeframe that you asked, since I have only been with 
the Department a little over 2 years, I would also note though 
that it would appear that early on, from second- or third-hand 
impression, that the communication, the risk communication 
side, could have been better than it is today as well.
    Mr. Shays. So in essence, the only thing you would 
describe, and you wouldn't even describe it as, a mistake, is 
that you relied on information from the DOD that said our 
troops weren't exposed to chemicals or there was not an 
emphasis on the part of the Department to focus in on chemical 
issues. Is that fair?
    Dr. Kizer. I don't think that quite characterizes what I 
said accurately, no.
    Mr. Shays. Well, I don't want to get into a chess game, but 
I want to understand, and we will be here maybe well past 12, 
just to tell the panel.
    I was hoping you might have answered my questions a little 
differently. You basically said you wouldn't characterize any 
of them as mistakes, and that is a pretty strong position to 
take. I mean, everybody makes mistakes. So why don't you say it 
again in shorter terms, and I will try to understand what you 
are saying.
    Dr. Kizer. We may be referring to two different things. 
Your last comment that I responded to had to do with chemicals 
in the aggregate, and what I think you were referring to was 
chemical warfare agents, per se.
    Many of the research studies have focused specifically on 
the toxicology of pyridostigmine and other chemicals that have 
been the subject of discussion in this whole incident. What I 
was responding to was, as I said, your comment about chemicals 
as opposed to chemical warfare agents, per se.
    Mr. Shays. Frankly, I don't care whether it was chemicals 
or chemical warfare agents. I think our troops were exposed to 
chemicals, whether defensive or offensive, and the issue I am 
trying to understand is whether you characterize any of what 
has happened with the VA as a mistake. And your first answer, I 
think, is fair, that you wouldn't characterize anything that 
the VA has done as a mistake. That is what you said. Is that 
correct?
    Dr. Kizer. That is correct. And the latter half, we were 
responding to two different things.
    Mr. Shays. All right, let's go from there. You also said 
you would characterize your reliance on the VA as what? The 
VA's reliance on the DOD as regards to chemical exposure, and 
that was offensive or defensive weapons. How would you 
characterize your reliance on the DOD on that issue?
    Dr. Kizer. I think the Coordinating Board and the various 
other entities that looked at this whole question of where in 
the research agenda, or what priority in the research agenda 
should be exposure to chemical warfare agents, rated that as a 
lower priority than, say, the potential toxicity of 
pyridostigmine or some of the insecticides or other chemicals 
that folks were exposed to. In assessing this and in fashioning 
the research agenda, the potential effects that these types of 
neurotoxins would have were addressed.
    The issue of exposure to chemical warfare agents, per se, 
and investigation into that arena, was delayed, and that 
investigative focus was given a lower priority because of the 
information that had been provided by DOD.
    Hopefully, that clarifies what I was saying.
    Mr. Shays. So the bottom line is, because the DOD denied 
that there was any exposure to defensive or offensive 
chemicals, the VA made a determination that therefore our 
troops were not exposed to defensive or offensive chemicals.
    Dr. Kizer. No, I don't think that at all characterizes what 
I said, Mr. Chairman.
    Mr. Shays. OK. We are going to get at it, and I will just 
keep going at it. I want to understand. I don't want to be in a 
chess game with you, I just want to understand. So, bottom 
line, say it over again then in a different way. Try to reach 
this ignorant mind that I have.
    Dr. Kizer. Let me try to rephrase it in a way that may make 
it more clear then, Mr. Chairman. The VA has been consistently, 
and certainly during my tenure, as evidenced by a variety of 
things, some of which I referenced during my opening 
statement--has been open to and has been concerned about the 
exposure of troops to chemical warfare agents.
    As far as the specific research protocols that were funded, 
the potential exposure was given lower priority than others----
    Mr. Shays. Because?
    Dr. Kizer. Because of the information that was provided by 
DOD, although if you look at the nature of the studies that 
were funded, the potential effects that those agents might have 
were the subject of investigation, although the exposure, per 
se, may not have been.
    Mr. Shays. OK. I find it a little disingenuous, after 
having six hearings, to have you suggest that the VA was 
focused in on exposure to offensive or defensive chemical 
weapons. You basically said it is a lower priority. A lower 
priority implies just what it says; it wasn't a higher 
priority, it was a lower priority, and that was the case 
because of information from the DOD.
    To say that you are open or concerned is a meaningless 
statement, to me. That just means you are open or concerned, it 
doesn't mean you took action. And to imply there were studies, 
we have had past witnesses come before us and say basically 
there were no studies done. There may have been people out in 
the field doing something, but did not look at this issue; is 
that right? Did the VA direct any of your people to look at 
offensive or defensive exposure to chemicals?
    Dr. Kizer. Again, to try to make this clear to you, Mr. 
Chairman, the issue where we're perhaps miscommunicating on are 
the effects of exposure and exposure, per se. As I said----
    Mr. Shays. I asked a question. I just want an answer to 
that question. Tell me the list of studies the VA directed to 
be done on offensive or defensive exposure to chemicals.
    Dr. Kizer. Again, the list of studies is provided----
    Mr. Shays. No; give me a list of studies related to 
offensive or defensive exposures to chemicals.
    Dr. Kizer. I guess I am having trouble communicating the 
difference between exposure and the effects of exposure. As I 
said, the effect that such exposure might produce in human 
beings has been the subject of investigations.
    Mr. Shays. What are those studies?
    Dr. Kizer. The potential exposure----
    Mr. Shays. What are those studies?
    Dr. Kizer. Again, if one were to look----
    Mr. Shays. Don't hold up a book. Again, studies dealing 
with offensive or defensive chemicals.
    Dr. Kizer. I am at a loss. We'll be happy----
    Mr. Shays. Don't be at a loss. You are being evasive.
    Dr. Kizer. No, no----
    Mr. Shays. Doctor, you are being evasive. I am asking a 
simple question. You want us to believe the VA is doing all 
these things, and I am saying just give me a list. We have had 
past witnesses come before us and say: because the DOD said 
there was no exposure, it did not get the attention from the 
VA. And now you are telling me that even though it was a low 
priority, we still were studying it.
    We know for a fact you didn't even ask the Registry to ask 
people coming before it if they were exposed until 1995. And we 
asked people who work for the VA, including Dr. Murphy, why, 
and she said because the VA and the DOD had said there was not 
this exposure, you did not do it. She is shaking her head. She 
will get a chance to come before us.
    The bottom line is, when did you start to ask the Registry 
to ask when our troops were exposed?
    Dr. Kizer. I will defer to Dr. Murphy for the exact date. I 
believe you are mischaracterizing what I have said.
    Mr. Shays. OK. It is all a matter of public record. But the 
bottom line is, when did the VA decide to ask in the Registry 
whether our troops were exposed to chemicals?
    Dr. Kizer. The Uniform Case Assessment Protocol, I believe, 
was established in 1993, and that was used throughout. As far 
as the revised Registry examination, that was formally put in 
place, I believe, in 1995; and we can get the specific date.
    Mr. Shays. Right. So you didn't even begin to ask our 
troops if they felt they were exposed to chemicals until 1995.
    Dr. Kizer. Again, I don't believe that is an accurate 
statement insofar as the Uniform Case Assessment did ask that, 
and, more importantly----
    Mr. Shays. Sir, excuse me a second.
    Dr. Kizer [continuing]. Asked about the effects of 
exposure.
    Mr. Shays. Are you saying before this committee that you 
asked before 1995 whether our troops were exposed to chemicals? 
Is that your testimony before this committee?
    Dr. Kizer. It is my understanding that the Uniform Case 
Assessment Protocol that existed prior to my joining the 
Department did explore those issues before----
    Mr. Shays. That is not what I asked. I asked specifically. 
``Explore'' is too general a word.
    Dr. Kizer. The specific revision of the Registry 
examination----
    Mr. Shays. Doctor, let me say this to you. There are a lot 
of things that you are going to be right on, but at least 
establish some basic point that we can have so we can 
communicate with each other. We have had witnesses who have 
come before you.
    This is now the seventh hearing, and it is an established 
fact that you were not asking this question early on because 
the DOD told you it wasn't a problem. That is an established 
fact. So if we cannot at least agree on a basis, we are just 
going to be dead in the water right now.
    Is there a comment you want to make?
    Dr. Kizer. I think it is a comment I've tried to say in 
several ways in our short dialog already. The protocol, the 
specific question you are referring to, was developed in 1994. 
It was formally implemented in 1995.
    Mr. Shays. Why did it take so long to get an answer out of 
a basic question? It was not formally asked until 1995; 
correct? I mean, it is not a big point.
    Dr. Kizer. I know, and I guess I am----
    Mr. Shays. You don't have to worry whether it is a big or 
little point, you just have to answer the fact, and we will see 
where it goes.
    1995 is the point at which you began to ask our troops if 
they were exposed to chemicals. Is that correct?
    Dr. Kizer. I don't believe that is correct, sir, because 
our physicians were asking the question before that. You asked 
whether a standard Registry examination, whether that was 
developed in 1995----
    Mr. Shays. I asked whether the Registry required you to ask 
that question, and my understanding is--and I am not going to 
yield this floor until I get this one point; we will be here in 
spite of what happens on the floor, because we are going to get 
to the bottom of this. The reason this is going to be so long 
is, you cannot even establish basic points.
    Now, the question I am asking you is, is it not true that 
the Registry did not ask this question until 1995?
    Dr. Kizer. As I think I have said on several occasions, our 
physicians were asking the question. As far as the----
    Mr. Shays. I am asking about the Registry----
    Dr. Kizer. That was developed in 1994 and implemented 
formally in 1995.
    Mr. Shays. So I will ask the question again. Is it a fact 
that the Registry did not require these questions until 1995?
    Dr. Kizer. Again, physicians performing the Registry 
examinations before that time asked those questions. Did 
everybody ask it? I can't say that they did, no, but it 
certainly was being asked and being explored, and, more 
importantly, the effects of what those agents would cause was 
being assessed.
    As far as the specific Registry protocol examination, as I 
have said already, that was developed in 1994 and formally 
implemented in 1995.
    Mr. Shays. So the Registry did not require those questions 
until 1995. Is that not correct?
    Dr. Kizer. It is not clear how what you are saying and what 
I am saying are different.
    Mr. Shays. You don't have to worry about it; you don't; all 
you have to do is answer a question that is quite simple.
    Dr. Kizer. I stand by my answer.
    Mr. Shays. So the answer is, the Registry did not have to 
do it until 1995. Is that correct?
    Dr. Kizer. Again, the Registry protocol we're talking about 
was developed in 1994 and implemented in 1995.
    I don't understand what the problem is.
    Mr. Shays. Why are you so reluctant to answer that 
question? Why is that such a big deal to you?
    Dr. Kizer. Because I am trying to answer as completely as 
possible.
    Mr. Shays. You are trying to be evasive.
    Dr. Kizer. I am not trying to be evasive, Mr. Chairman.
    Mr. Shays. You are playing a chess game and being evasive.
    Dr. Kizer. I beg to differ with you respectfully, sir.
    Mr. Sanders. With the chairman's kind indulgence, let me 
pick up on your general line of questioning.
    It is now recognized that some of our soldiers may have 
been exposed to chemical warfare agents. We agree on that, 
right?
    Dr. Kizer. Yes, it has been our position from the outset.
    Mr. Sanders. All right. In addition to that, it is 
generally recognized that our soldiers were exposed to heavy 
use of insecticides and repellents. They were exposed to leaded 
fuels used for heating and dust mitigation. They were exposed, 
some of them, to radioactivity from depleted uranium shells 
fired at Iraqi tanks. Many of them were exposed to very dense 
smoke from oil well fires when Saddam Hussein set the Kuwaiti 
oil wells on fire. They were exposed to parasites that cause a 
chronic infection, and they may have been exposed to the side 
effects of troop inoculations in combination with the taking of 
experimental antinerve gas drug, PB.
    Do you agree with that, all of that?
    Dr. Kizer. I agree there was variable exposure to the list 
of things that you mentioned. One of the difficulties 
throughout this thing is knowing exactly who was exposed----
    Mr. Sanders. I understand that. But you will not disagree, 
there was a chemical cesspool and more or less some of our 
soldiers were exposed to some or all of those agents. Is that 
fair?
    Dr. Kizer. Yes. I think, as reflected by our research 
agenda assessing all of the things that you mentioned, that 
that is a fact, that we have tried to assess that further, 
because we believe that those exposures were real.
    Mr. Sanders. OK. Mr. Chairman, I am reading from a 
document; it is called ``Treatment Protocol: A Biopsychosocial 
Therapeutic Approach for the Treatment of Multiple Chemical 
Sensitivity Syndrome in Veterans of Desert Storm,'' by Dr. Myra 
Shayevitz, physician at the Veterans Administration, dated May 
5, 1995.
    First paragraph: ``Experience at North Hampton Veterans 
Medical Center has led us to believe that the unexplained 
health problems of some Persian Gulf veterans may relate to the 
combination of chemical, physical, and psychological stresses 
unique to the Desert Storm operation. Veterans seen at our 
facility and elsewhere have complained repeatedly of 
multisymptom symptomatology, including overriding fatigue, 
memory loss, joint pains, loss of concentrating ability, 
depression, headache, rash, cough, and abdominal pain. This 
symptomatology is remarkably similar to the syndrome which has 
been labeled `multiple chemical sensitivity.' MCS is a 
condition in which multiple symptoms occur in multiple symptoms 
of organs of the body as a result of exposure to chemicals.''
    Now, according to Dr. Burton Shayevitz, who is Myra 
Shayevitz' husband and also a physician, I believe at the VA, 
this treatment protocol was presented to a House subcommittee 
in 1993, to the NIH Symposium on Persian Gulf Syndrome in 1994, 
cleared through a VA scientific advisory board in 1995, and 
subsequently derailed at the VA central office by the newly 
appointed chief medical director. Would that be you?
    Who is the chief medical director?
    Dr. Kizer. Well, that is the former title of my position, 
but I can tell you, if that is what the testimony was, that is 
incorrect.
    Mr. Sanders. You have here--this is not important. This is 
a protocol done by a physician in North Hampton, MA, employed 
by the Veterans Administration. Are you familiar with it at 
all?
    Dr. Kizer. I don't know that I've read that specific 
document.
    Mr. Sanders. Are you familiar with her work?
    Dr. Kizer. I've heard of her work, yes.
    Mr. Sanders. I don't want to see us in an adversarial 
position. I mean, let's be frank. I have enormous respect for 
Secretary Brown. He is one of the important and good government 
officials we have. I have no doubt everybody up there wants to 
see us get to the root of this problem. We are on the same 
side, so let's not be playing games and let's not get 
defensive. We are on the same side here, and I am appreciative 
of the changes we may be seeing in the Department of Defense as 
well.
    I have a simple question. Picking up from the chairman's 
line of questioning, given all of this exposure and given the 
presumption that some of it may have been synergistic--people 
are affected with more than one thing--can you tell us how many 
diagnoses you have made, the VA has made: OK, he is sick 
because of overexposure to a variety of chemicals? Do you have 
that diagnosis? Are there any patients who have been diagnosed 
in that regard?
    Dr. Kizer. I don't have the specific number you are 
referring to. As I stated in my testimony, somewhere around 
between 4 and 5 percent of patients have been diagnosed with 
conditions that were related to toxic exposure or injury. Many 
of the other conditions may well have been in part due to that.
    Mr. Sanders. Give me some examples of men and women who 
were exposed. How were they exposed? How did you diagnose them? 
Five percent is a big number. Give me a couple of examples.
    Dr. Kizer. I'm not sure I understand what you are asking.
    Mr. Sanders. OK. You said 5 percent of folks were diagnosed 
as being exposed as a result of toxic injury. Is that what you 
are saying?
    Dr. Kizer. That is if you look at the aggregate of the 
nearly 63,000 Registry examinations. If you look at the 
breakdown by diagnostic category, you see somewhere between 4 
and 5 percent.
    Mr. Sanders. OK. Give me some of the factors that led to 
toxic injury. What do you mean?
    Dr. Kizer. Again, I think that what we ought to do to make 
that more precise is go back, and I can give you that specific 
diagnosis by pulling direct records that would more completely 
answer your inquiry.
    Mr. Sanders. I am not sure what it means. You said you 
diagnosed several thousands. I am not being argumentative.
    Dr. Kizer. No; I am just saying perhaps Dr. Murphy would 
like to comment on some of the specific diagnoses that have 
been given. We can provide you more complete information. I 
don't have that information.
    Mr. Sanders. Have you diagnosed anybody who might have been 
made ill as a result of exposure to the bad air from the 
burning oil wells or the inoculations they may have received?
    Dr. Kizer. I am sorry, I missed part of your question.
    Mr. Sanders. Is there any soldier who has been diagnosed as 
being made ill as a result of exposure to the bad air from the 
oil wells or the inoculations they received?
    Dr. Kizer. If one is diagnosed with, say, bronchospasm, 
tightening of the airways, as what's seen in asthma that was 
due to the chemical-resistant paint, that is the sort of thing 
we are talking about, or an example of the sort of thing we are 
talking about for example, bronchitis due to oil well smoke, 
sinusitis from----
    Mr. Sanders. You have diagnosed people as having been made 
ill as a result of the smoke of the burning of the oil wells?
    Dr. Kizer. That is my understanding, yes, sir.
    Mr. Sanders. OK. My last question, Dr. Kizer, would be, if 
you have physicians who are already within the VA system who 
have treated people under the diagnosis of multiple chemical 
sensitivity--and my strong understanding of their therapeutic 
approach to the treatment is that it does not have side 
effects, it is good diet, trying to get people away from 
toxicity; it's not going to make you worse; it is not like 
using an experimental drug--why aren't you--you made a good 
point, you don't want to see veterans being guinea pigs, but if 
we have a treatment that is nontoxic, it doesn't make people 
sicker. You have some physicians who have treated tens of 
thousands of people that way with good results. We have names 
of people today who are successfully treating people who are 
over in the Persian Gulf. Why aren't we moving faster in that 
direction?
    Dr. Kizer. Well, I think the point you are addressing is 
whether--with regard to Dr. Shayevitz, whether her study was 
funded or whether as part of treatment these things are being 
done. And her study was not funded, as I think you know. We 
have hired a--what might be called a methodologist, someone to 
help her design a study that will provide the most reliable 
results to help her develop an investigative protocol----
    Mr. Sanders. She is no longer with the VA; I think she gave 
up on that.
    Dr. Kizer [continuing]. That could be funded.
    The issue of whether patients are being encouraged as far 
as changing their diet, stress reduction, or any number of 
other things, that is occurring in lots of places throughout 
the VA as part of treatment.
    Mr. Sanders. I guess what I am suggesting is, science is a 
funny thing; 30 or 40 years ago doctors were on television 
advertising the cigarettes they smoked; breast feeding was 
thought to be a terrible thing for mothers and babies; and many 
physicians out there are treating civilians who are overdosed 
by toxins in our air, food, and so forth and so on.
    It is a nondangerous form, the treatment. Maybe it is 
wrong, but it would seem to me, on behalf of thousands of Gulf 
war veterans who are suffering, not to allow them to take 
advantage of this nondangerous type of treatment is 
unfortunate. Can you give me some assurance that we will be 
looking at that approach?
    Dr. Kizer. As I said, those sorts of things are occurring 
to varying degrees. As far as investigative studies that would 
look at whether that should become a standard part of 
treatment, those studies need to be looked at as far as 
methodology that would give us a good answer.
    Mr. Sanders. See, one of the problems where serious 
physicians get discouraged; they bump into walls like that. You 
can defeat any proposal you want by saying it is not peer 
reviewed, and there are people who have a different approach, 
and I would hope, on behalf of thousands of people who are 
sick, we will overcome that resistance.
    Mr. Shays. Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman. I commend you 
and the ranking member for this series of hearings and I have 
found the exchange this morning very fascinating.
    Just to get this out, I am not going to pursue it, but I 
have a tendency to write down conclusions as I listen to 
testimony, and Dr. Kizer's testimony--tell me if I am right or 
wrong--with some exceptions, the VA was not as focused as it 
should have been based on the DOD history which it received. Is 
that a fair statement?
    Dr. Kizer. I think what you are alluding to is, the 
priority given to researching the exposure to chemical warfare 
agents was not given as high of a priority as it might have 
been given if different information would have been provided.
    Mr. Horn. It seemed to be a nonproblem coming out of the 
Pentagon during the early years after the war. Is that what you 
have concluded?
    Dr. Kizer. The answer is yes. They said this is not a 
problem. Indeed, referring back to comments I had made and 
others had made, when we questioned that, we were very strongly 
apprised that that was not the case, and I think as were a 
number of other groups that looked at this. And so the research 
specifically into the exposure side was given lesser priority, 
and I think that is what you are saying.
    Mr. Horn. As I listened to this testimony, I wanted to find 
out, what is the extent of the VA data base on its patient 
clientele? Is there a national data base where all the 
veterans' hospitals input data as to symptoms and the rest?
    Dr. Kizer. Yes, that's correct.
    Mr. Horn. There is a national data base.
    Dr. Kizer. There is. We also get the data from DOD as well.
    Mr. Horn. Now, as I look at the symptoms on page 3 of your 
testimony, those are pretty general symptoms. As you describe 
it in paragraph 2, a diverse array of symptoms including 
fatigue, skin rash, headache, muscle and joint pain, memory 
problems, shortness of breath, sleep disturbances, 
gastrointestinal symptoms, and chest pain. I think everybody 
feels they have had that going through college almost, one or 
the other, two or three or four, depending on how nervous they 
get before a test.
    Dr. Kizer. Certainly you get them before appearing before 
this committee.
    Mr. Horn. They are pretty general. Yes, the administration 
witnesses and sometimes Members on the other side of the table.
    Were any tests run on your data base as to symptoms of 
those that served in the Persian Gulf war, those that were in 
the affected area? Because we didn't know what the affected 
area was until more recently, and those in the military or 
those veterans of the Second World War, the Korean and Vietnam 
wars, where your data base showed these symptoms, one, two, 
three, four, or more, was there any analysis like that done? 
Could there have been any analysis like that done, which would 
focus in on where you were in the Persian Gulf war, if they 
knew where they were in a vast desert?
    Dr. Kizer. Well, you raise three questions, if I might 
address them. One, the listing that is given to you is a 
compilation of many specific diagnoses, and we've tried to lump 
them into categories.
    If you went back and looked at that 14.4 percent of this 
and 15.1 percent, whatever, you would find lots of specific 
diagnoses. So that is, I just want to make sure that you 
understand, as I suspect you do, that there is much greater 
specificity within those categories.
    The issue about whether these symptoms are the same as 
might have been experienced with Vietnam or the Korean Conflict 
or World War II veterans, the degree of data and rigor that is 
available from earlier times is not as good, and we have to 
rely on that historical base.
    But on comparing the grouping of diagnoses among Persian 
Gulf veterans compared to, say, Vietnam veterans, there are 
differences, and those have been noted, and things have 
previously been provided to this committee and other committees 
as well where there are some of those differences.
    For example, fatigue is much more commonly expressed among 
our Persian Gulf veterans than it was as a symptom in Vietnam 
veterans.
    The third point----
    Mr. Horn. OK. Go ahead.
    Dr. Kizer. The third point, and it really is a very 
important one that I've testified about on numerous occasions 
before other committees, is the potential of having the 
specific information you noted.
    If we note that veterans in the aggregate have specific 
symptoms, what we really need to know is--and it goes back to 
part of what Mr. Sanders was asking--where were they at a 
particular time? And then we can try to connect the exposure, 
oil well fire or depleted uranium, of any of those other 
things, with their specific symptomatology and do those sort of 
comparisons.
    Again, this is an area where we have to rely on the 
Department of Defense to provide us that data, and, to date, 
they have not been able to provide us with the geographic 
locator study pinpointing exactly where individual veterans and 
units were at a point in time so we can do that sort of symptom 
and site potential exposure assessment that ultimately does 
need to be done.
    Mr. Horn. Well, if you are using a national data base and 
you said, OK, let's search for data where one person has four 
of these nine symptoms or seven of these nine symptoms early on 
in this, how many people coming into a VA hospital would it 
take before it started triggering some real concern that we've 
got a certain group here that has four of these symptoms, seven 
of these symptoms, whatever, and then we work backward and know 
we've got a problem coming through the door? This is a client 
analysis, if you will. Was that done before 1995 in any way?
    Dr. Kizer. Yes, indeed, it was done. In fact, a Registry 
examination, designed as a health access vehicle, was designed 
in 1991 and implemented in early 1992, and that was the first--
I forgot the word that you used, but it was the first program 
put in place by the VA to help our veterans gain access to the 
system where those diagnoses could be made, treatment could be 
rendered, and that sort of analysis that would be a basis or a 
platform upon which more rigorous analysis could be done.
    Mr. Horn. What is the earliest the VA knew there was a 
problem here even if the Pentagon said there wasn't a problem? 
What is the earliest your data says we have got 100, we have 
got 500, we have got 1,000? Were there any numbers of that 
size? I am interested in something in the future, not making 
the same mistake.
    Dr. Kizer. Having not been with the Department at that 
point in time, I can't speak from firsthand experience. It was 
my understanding that shortly after the Registry started to be 
done, there was a recognition there was a problem, albeit ill-
defined at that time.
    Mr. Horn. I note that you noted in the committee's 
recommendations a computerized central data base is important. 
Now, are you referring to the VA or the Pentagon data base? And 
to what degree did your committee examine what the data base 
was in the Pentagon in terms of the medical services? And 
again, can that flow in from the various medical facilities of 
the relevant services?
    Dr. Custis. I will refer to Ms. Gwin, but to my knowledge 
there was no data base available to the committee prior to 1995 
when all parties started to become more concerned about having 
ignored the possibility of low-level exposure.
    Mr. Horn. Well, was the committee referring to the VA when 
it said a computerized central data base is important, or were 
they referring to the services?
    Ms. Gwin. What we hope to see eventually is a centralized 
data base that would enable a sort of transparent exchange of 
records between the military services and the VA, so that 
people's health records are available throughout their tenure 
in the Government health services systems.
    Dr. Custis. I am sorry, I misunderstood your question. The 
computerized data base is now under development and is not a 
finished product.
    Mr. Horn. In the Department of Defense.
    Dr. Custis. A data base that is common to both the 
Department of Defense and the VA, so that it is mutually 
interchangeable.
    Mr. Horn. OK. In the committee's deliberations, did they 
interview any of the doctors who were in the field, and how 
close were M.D.'s to the action that we know that Khamisiyah 
occurred?
    Dr. Custis. In addition to full committee meetings and 
panel meetings, there were also site visits to VA hospitals and 
military hospitals, and at the time of those site visits, there 
were numerous interviews with physicians involved in doing the 
examinations. It was the impression of those of us----
    Mr. Horn. Well, excuse me; examinations at what point? I 
mean, did anybody have these symptoms during the Persian Gulf 
war? Realizing it was 100 days and all that, when did they 
actually first know in terms of the medical staff of, let's 
say, the Army, and how close were they to people who might have 
been exposed to this situation while the aftermath of the war, 
the oil fumes and all the rest, were being cleaned up?
    Dr. Custis. I can only respond to your question in a 
general way. As to specifically how many were aware of symptoms 
during the Persian Gulf, others might be able to answer that. 
It's my impression that few, if any, were sick at that time. 
This is a delayed onset illness characterized as veterans' so-
called syndrome.
    Mr. Horn. So your committee did interview some of the 
medical personnel who were in the area.
    Dr. Custis. No; the medical personnel were conducting the 
examinations of veterans who were registering, who were being 
admitted to the Registry.
    Mr. Horn. See, I am talking about military medical 
personnel in field hospital.
    Dr. Custis. We also did that. I remember quite vividly Dr. 
Dunn's testimony, who was the physician who recognized----
    Mr. Horn. Something is wrong.
    Dr. Custis [continuing]. In the soldier who had been 
exposed to mustard gas.
    There were other physicians who had served in the Gulf who 
came before the committee and testified.
    Ms. Gwin. We did both take testimony from and conduct 
independent interviews with medical personnel who were in the 
field during the war.
    Mr. Horn. You mentioned in your testimony, Dr. Rostker, 
about the Czech masks being better than our masks in terms of 
detection and protection.
    Mr. Rostker. No; what I said----
    Mr. Horn. Did I hear you wrong? You said Czech detectors 
were more sensitive than United States equipment, which may 
explain why we could not confirm----
    Mr. Rostker. That is correct.
    Mr. Horn. And this is not masks, just other equipment in 
the field.
    Mr. Rostker. The Czechs were actually hired by the Saudi 
Arabis to provide detection. They had equipment that had been 
developed for use by the Warsaw Pact. I once called it 
sophisticated, and I was corrected. It is much more sensitive 
but not very sophisticated equipment. And they did make 
detections which we believe are valid detections. When we sent 
FOX vehicles out, the detection equipment would, and this would 
occur several hours later. The equipment we had was not as 
sensitive as the Czech detectors. So at the low levels, we may 
well have missed something that the Czech detectors had found.
    Mr. Horn. Has the Department of Defense remedied their 
inferior problem and bought Czech equipment?
    Mr. Rostker. Well, we haven't bought Czech equipment, but 
we have been looking at the equipment we use and improving 
their sensitivity.
    I think an open question which we are prepared to address 
is the issue of low-level chemical monitors on the battlefield, 
and, in that regard, I would point out that, as best we know, 
the Czech detectors went off over a limited number of days in 
January and then did not go off again. We're going to work with 
the Czechs to make sure that that statement is correct.
    But as a low-level chemical detector, the Czechs certainly 
had the most sensitive equipment on the battlefield, that's 
correct.
    Mr. Horn. I think Members of Congress tell their 
constituents and pride themselves that our Army is the best 
equipped in the world. Would you say this is a weakness in this 
area that needs to be remedied?
    Mr. Rostker. Yes, I would. The detectors that we had were 
sensitive to lethal doses. The famous M8 alarm was sensitive to 
lethal doses of sarin. The replacement alarm is sensitive to 
not only sarin but mustard gas.
    So we have a concerted effort which will be expanded 
through my efforts to make sure we learn the lessons and we put 
in place that equipment that is necessary to protect our troops 
in the future.
    I might add that in general the degree of environmental 
monitoring that, for example, is going on in Bosnia today is 
much superior to what went on in the Gulf, and yet we can make 
further improvements and we are learning lessons even from 
Bosnia.
    Mr. Horn. Mr. Chairman, if I could suggest the staff to 
followup with the Department of Defense and make sure the 
equipment is being ordered in the current fiscal year, not 
waiting for the next fiscal year, that we program the necessary 
funds to have the detectors should they be called on to be used 
somewhere around the world.
    Mr. Shays. Thank you.
    I now call on the ranking member, Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me begin by saying something I said in the last 
Congress, that we view this as a very important issue, and we 
are not going to go away, we are going to stay here, we are 
going to deal with it.
    I made the comment then that I would return and would 
continue to pursue this issue, and we are going to continue to 
pursue it. I would hope that we would recognize that this is a 
problem we all must work together to solve, which means that we 
must be open and honest with each other. We must share because 
there might be some things that we need to do on this side, and 
we want to do that to make certain we have the answers.
    Let me begin with you, Dr. Rostker. In your testimony you 
stated that the Department of Defense has expanded its task 
force from 12 to 110, which seems to be a lot. Why so many?
    No, that is not really my question. Can you tell me what 
these additional people would be doing?
    Mr. Rostker. Sure. Let me first say the team that was in 
existence, the 12, were completely overwhelmed by the reality 
of Khamisiyah. They were bogged down in the administrative 
details of writing testimony, of responding to congressional 
inquiries, and responding to the press. They were so bogged 
down, they were unable to examine anything about Khamisiyah, 
and even Khamisiyah not as robustly as they should have. I 
think that is a conclusion that the PAC will come to, and it is 
a conclusion we basically share.
    It was in September that Secretary White asked me to assess 
everything we were doing, because we had come to the 
uncomfortable realization that the efforts that were being put 
forth were clearly not appropriate, and it took a short while 
for me to come to him, in fact well before the PAC issued their 
interim report, and to say that the effort we've had was 
understaffed, poorly focused, and inadequate to the job.
    If you look at the organization which I've put together, it 
allows us to truly meet the President's promise of leaving no 
stone unturned. We have much expanded the investigative team. 
We've provided, as the PAC has so wisely suggested, for a risk 
communication program with outreach to our veterans, with 
outreach to veterans' service organizations. I make myself 
available to them and to the press as well as, of course, to 
the committee.
    It takes people to do that, and we're prepared, the Defense 
Department is prepared, to put in place those resources 
necessary to get to the bottom of what is causing our people to 
be sick.
    Mr. Towns. I am glad to hear you say that.
    I note that much of your testimony concerns efforts to 
expand communications with the active duty personnel about 
their Gulf war experiences. I am concerned that many veterans 
will not want to increase communication with the Department of 
Defense. Why would you think they would want to increase their 
communication with the Department of Defense? Let's be open. 
The perception is that you are the problem.
    Mr. Rostker. I understand that, and the only way I can work 
that perception is to work hard and tell the truth and open up 
the process, and that is what we have done.
    It was quite clear, for example, that when a veteran called 
in and we took a short statement from him or her, that that was 
inadequate. It was inadequate for our own purposes, but it was 
inadequate in terms of just a human response to somebody who 
was hurting.
    On December 13, we completely changed that procedure. So 
now we establish a one-to-one contact; we debrief the veteran 
and make sure that that information is incorporated into our 
inquiry. And I trust that as we work and demonstrate that type 
of commitment to individual veterans, to this committee, to the 
veterans' service organizations, we will be able to repair the 
unfortunate perceptions of not caring. We care, but we really 
did not understand the dimension of the problem and our 
response was totally inadequate.
    Mr. Towns. The chairman asked a question at the beginning: 
Did you disagree on anything that was said by anyone else? And 
I think it was Dr. Custis who said that DOD mishandled this 
problem. Do you agree?
    Mr. Rostker. Absolutely. We have said so. I had come to 
that conclusion and shared that conclusion with the Deputy 
Secretary before the PAC reported, and John White said to me, 
``Don't give me a recommendation, go fix it,'' and he gave me 
the resources to do just that.
    So frankly, the PAC got it right, and I am sorry that I 
have to say that, but that is reality, and we have to build 
from that to repair the damage that may have been done. It was 
not intentional, but it was not an adequate job. We understand 
that, and, as I said, we've put the resources to bear on this 
issue so that we can get to the bottom of it.
    It is very important we do this for today's veteran, but I 
want to stress how important it is that we learn from this 
experience so that we put in place those procedures and 
equipment and policies that will allow us to protect our forces 
in the future. We owe it to them, and we owe it to today's 
veterans.
    Mr. Towns. Thank you.
    There have been some reports in the press concerning 
missing operational logs. It would seem that you need these 
logs to reconstruct events and to compare them with accounts 
provided by the soldiers. What can you do or have you done to 
reconstruct these missing logs?
    Mr. Rostker. First of all, let me tell you that most people 
have an image of the logs being a series of printed forms that 
people wrote in and a book that would be certainly hard to 
explain why pages have been removed. But we know, in fact, that 
the logs were actually a computer form and a hard drive of a 
computer that was in Riyadh.
    We have tried through many channels to see if there are, in 
fact, pages that we may have lost. But I have also initiated an 
effort with two lawyers to trace the accountability of those 
computer hard drives and any floppy disks that were produced 
from Riyadh, all the way as far as we can do it. And I've done 
this not just with interviews but with verbatim testimony from 
the people who had access, so you and the PAC and others can 
see the exact questions we asked and the exact responses that 
we got.
    I am not at all certain that the pages that are not there 
were ever printed out, but I can't tell you that for sure, and 
we're trying to reconstruct the chain of accountability for 
whatever floppy disks existed and the hard drives as they came 
out of Riyadh and moved to Tampa and went forward.
    If I might, we focus on the missing pages, but the 36 pages 
which exist are extremely interesting, and part of what I 
quoted this morning were from those pages. We can find the 
major events, some of the major events like the Czech 
detection, like the Marine breaching operation; we can 
corroborate Lenny Grass's testimony; we can do all of that in 
the existing logs. So they are, in fact, very useful and 
corroborate other reports that we have.
    Mr. Towns. Thank you very much.
    Dr. Custis, what enforcement mechanisms are available to 
the committee in the event you found out that an agency is not 
being forthcoming?
    Dr. Custis. That sounds like a legal question, and I will 
defer to my lawyer.
    Mr. Towns. Sure.
    Ms. Gwin. We have found just the opportunity to bring the 
agencies forward on a regular basis in open meetings to be a 
fairly effective enforcement tool to make them answer questions 
about progress.
    Mr. Towns. If you feel they are stalling, what other action 
can you take as a committee? Eventually, if you find out that 
the agency is not forthcoming with information that you know 
exists and you are convinced it exists, what actions can you 
take? That is the question.
    Ms. Gwin. Well, we are an advisory committee. We don't have 
particular authority to sanction anybody, but, again, I will 
say, just raising the existence or presumed existence of 
information publicly has a strong enforcing effect to make that 
information become public.
    Mr. Rostker. I think it is only fair to say that the 
committee found DOD, VA, HHS, all very cooperative. The problem 
came in DOD themselves not recognizing the need to acquire 
certain data or pursue certain data. But as far as any lack of 
cooperation or attempt at hiding, I don't believe the committee 
experienced anything like that.
    Mr. Towns. Thank you. I am happy to hear that.
    Let me just say that, you know, I might as well say this 
openly. You know, DOD, I am happy to hear the comments coming 
forth at this particular time, because I think that many people 
feel that the reason we are in this mess, the reason we haven't 
been able to move a lot faster, is that DOD did not cooperate. 
And as I listen to some of the questions that were directed to 
Dr. Kizer, you know, I think that the reason some of those 
questions were directed at Dr. Kizer is because of the lack of 
participation on the part of DOD.
    So I think that inasmuch as I understood the questions and 
felt that they should be directed, but I think that some of 
them came about as a result of DOD not participating.
    So I just sort of want to share that, and I am hoping that 
from this point on, in terms of your comments, that you will be 
at the table and continue to participate, because there is a 
very serious problem out there. I am convinced, there is no 
doubt in my mind, that it is out there, and it is going to 
require all of us to come together to be able to solve the 
problem. People are suffering. They want to make certain we are 
working on it. That is what they want.
    So let me thank you, Mr. Chairman, for sticking with this, 
and I think you should, and I think we should go on and on and 
on until we get to the bottom. So some of these witnesses will 
need to come back as we seek additional insight into the issue.
    Mr. Shays. Thank you, Mr. Towns.
    Dr. Curtis, what would you say the major mistakes were made 
by the VA? And give me the top two, as relates to any Gulf war 
syndrome, both the DOD and VA. What mistakes do you think each 
of those Departments made in your extensive research?
    Mr. Rostker. I think probably the main problem that has 
complicated the whole process is the inadequacy of medical 
records. It is understandable that medical records have never 
been good in the environment of acute combat.
    Mr. Shays. Would that relate to the DOD or both the VA and 
DOD?
    Dr. Rostker. No; I am talking about military records, the 
records in the field. I think we were impressed with DOD's 
determination at the present time to correct that and to also 
pursue how, in the future, any future conflicts, there will be 
acquired a base line of information before troops are ever sent 
to a field, so that epidemiological studies can be facilitated 
by such base line data.
    I think probably there are other things in retrospect 
better pursued. For example, risk communication, making our 
troops aware of the risks that they were going to be exposed 
to, left quite a bit to be desired. The risk involvement and 
the lack of data in terms of----
    Mr. Shays. I never realized how long it was.
    Mr. Rostker. I think of a specific example, that the record 
is very poor regarding who exactly took pyridostigmine; the 
lack of site location of individuals and units.
    Mr. Shays. Before we get to site: if a soldier was told 
that taking the PB tablets would be harmful, if they felt the 
shots would be harmful, would they have a right not to take 
them? If they were told to go into a tent and, you know, use 
lindane to spray the troops all day long without ventilation, 
would they and should they be given the right to refuse to 
follow that order?
    Mr. Rostker. In my own career I would answer that question, 
they had no such right. They could well be guilty of an 
infraction that would cause a court-martial. I am at least 
confused at the present time. That seems to be the culture of 
our society seems to be to challenge that. So I frankly don't 
know how to answer your question as of today.
    As far as pyridostigmine is concerned, there was no real 
concern or evidence that anything harmful would result from 
taking that medication. It has been used in large doses for 
many years for individuals with myasthenia gravis, with no 
appreciable side effects. It has been known, however, in a 
very, very small percentage of patients that they are somewhat 
intolerant of pyridostigmine.
    I am mindful of recently, for example--it is not unrelated 
to your question--two individuals in the armed forces were 
court-martialed for refusing to have serum drawn for a serum 
bank that DOD is interested in. They were awarded disciplinary 
sentences, whereas it seemed to me that it could have been 
handled better. But it seems to me that our society seems to be 
changing their opinion about such things.
    Mr. Shays. The question responding to that, mistakes the 
DOD made, you have given me a few. Would you be able to focus 
in on mistakes you feel the VA made, or did you focus primarily 
on the DOD?
    Mr. Rostker. One thing that comes to mind as a result of 
some of our site visits to VA hospitals: There was some 
evidence that, whereas the education of how to handle the 
veterans reporting for the Registry and for examinations in the 
Registry was well done in terms of those who were dealing with 
those veterans, doctors who were not in direct contact and were 
in many cases ill-informed about how to proceed in the process, 
I suspect that early in the game the VA might have--I think 
early in the game--that is, early, right after the war, right 
after the Gulf conflict--there was something less than good 
communication between DOD and VA, and I would find VA somewhat 
at fault in not insisting that better communication be 
established with DOD. That, however, is more hearsay than 
anything else. I am not sure that that can be documented.
    Beyond that, I find no fault with what the VA has done in 
the way of performance. I think VA is to be complimented, along 
with Congress, for having established the legislation for 
compensation, even though some of these problems have not found 
their ultimate solution. That alone, I think, proved a 
remarkable advancement in what the soldiers and sailors have 
experienced in past conflicts.
    Mr. Shays. Dr. Kizer, you suggested that Dr. Murphy might 
be able to answer some questions, so I think it might be 
appropriate to just have her come up and be sworn in so we 
could assist you.
    Mr. Shays. If you would stand, Dr. Murphy.
    [Witness sworn.]
    Mr. Shays. I would like to say for the record as we start 
this year, it was my hope and aspiration that we would just get 
a certain level of understanding and from that point we could 
iron out our differences.
    This Government Reform Committee has 360-degree 
jurisdiction on waste, fraud, and abuse. This subcommittee does 
not have direct jurisdiction, Dr. Rostker, of the DOD, and we 
appreciate your being here. We do have jurisdiction, in the 
chairman and I think ranking member as well, that we will have 
the authority to invite to come before the committee, and I am 
sure you will agree.
    Mr. Rostker. Absolutely.
    Mr. Shays I thought I would be able to pursue some 
questions with you, and I am not even at that level yet. I just 
need to get to the level where I can even ask you a question.
    Dr. Murphy, we had two issues at your last hearing, one of 
them related to the whole issue of registry and when the field 
actually got the message of chemical exposure. And in my own 
simple mind, I felt that it was reasonable to make an 
assumption that the DOD wasn't providing you information of 
exposure. You would have no reason to think it other than to 
listen to some of your own troops and what they were saying.
    So I just want to ask you the two areas of questioning: one 
of which is the number of doctors in the VA that were exposed. 
I assume you have expertise in chemical exposure and so on. And 
the other issue was of the Registry, and how it related 
directly to Dr. Kizer's point that we just simply never 
communicated on.
    I wanted to know when we started to revise the 
questionnaire and the form. And you said the form was published 
in September 1995, and the instructions were changed in 1993 or 
1994. So when did the protocol begin in earnest? The original 
protocol began in 1992. That is what you said. It was revised 
in 1993, then again in 1995. Was the revision in 1993 a 
revision that was dealing with the chemical exposure, or was it 
another exposure?
    Dr. Murphy. In 1993, at the Washington, DC, VA, we 
developed the uniform case assessment protocol. The reason 
people are having so much difficulty telling you exactly when 
VA changed its message is that chemical weapons exposure was 
never taken off the table. And in the public statements by----
    Mr. Shays. It was put on the table?
    Dr. Murphy. In public statements by Secretary Brown and 
when Dr. Kizer joined us, it was always a consideration.
    Mr. Shays. Let me just say----
    Dr. Murphy. And, in fact from the beginning, our physicians 
were instructed to take complete occupational and military 
exposure histories.
    Mr. Shays. It is always on the table, we are always open, 
we are all concerned.
    I want you to show me. So I don't deny that you were always 
open, you were always concerned, and it was always on the 
table, but I am just trying to get at some basic facts. And the 
next time I won't inconvenience our other two witnesses and 
have them share in this process. I will just invite the two of 
you, which I have the authority to do.
    And, Dr. Murphy, I will say, you have been here all the 
time, and you have been a very willing witness in terms of 
being here.
    Dr. Kizer, I was hoping I wouldn't have to keep you before 
the committee; once, and that would be it. And you will be 
coming back quite often until we get to the bottom of it.
    I understand you are open and concerned, and it was always 
on the table. I just want some real facts. The fact is that in 
1993 you were not specifically in your Registry asking troops 
about chemical exposure. It was not part of the protocol.
    Dr. Murphy. The protocol included instructions to 
physicians to take a complete occupational and military 
exposure history. The information, the data fields that were 
coded at that point did not include a specific coding of a 
question that asked about chemical warfare nerve agents and 
mustard gas.
    Mr. Shays. I understand, and that is the fact. But in 1995 
it started to have that coding; is that correct?
    Dr. Murphy. That is correct.
    Mr. Shays. Pardon me?
    Dr. Murphy. That is correct, sir.
    Mr. Shays. You basically said 1995 is when you started 
focusing on chemical exposure and your response--by the way, 
this is the hearing dated December 11--was actually the focus 
began on chemical exposure much earlier than that. As we have 
just said, sir, the questionnaire was not published until then. 
The instructions to the field about how they should clinically 
evaluate these individuals actually began as soon as we had a 
number of veterans who came back to us.
    Then I said, how would those instructions be disseminated? 
You are saying it did not, in fact, happen in 1995, but years 
ago. I want to know what document made that known to your 
doctors in the field.
    Your answer: These were training programs, training 
videotapes, training audio conferences.
    My response: You can supply a video to this committee that 
will say that you expect an exposure, a chemical exposure, and 
therefore the doctors should proactively seek this out?
    Your response: In conjunction with a whole list of other 
exposures that we still believe are important to ask about.
    Then my point: I am not asking you about other things, I am 
just focusing on the chemical exposure. And you are before a 
committee of Congress who is simply trying to know the truth, 
and whatever the truth is is fine. I just suspect that what you 
are telling me is not really, frankly, a precise presentation 
to the committee. I want to know what document you sent to the 
field that let them know that you suspect the chemical weapons 
might have been used in the field, and therefore they should 
check for chemical weapons.
    Your response: We will provide you documentation.
    Have you done that yet?
    Dr. Murphy. I am not aware that we have.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.152
    
    [GRAPHIC] [TIFF OMITTED] T8711.153
    
    [GRAPHIC] [TIFF OMITTED] T8711.154
    
    [GRAPHIC] [TIFF OMITTED] T8711.155
    
    Mr. Shays. For the record, we don't have any documentation.
    Let me just get to another question. I asked you the number 
of doctors who had chemical expertise. Correct me if I am 
wrong, it is my understanding that we don't really have the 
ability to detect chemical exposure, and we don't really have 
the ability to treat chemical exposure. This is not a medical 
science that is particularly advanced. Is that accurate, or 
would you want to elaborate?
    Dr. Kizer. At risk of appearing to be less than responsive, 
let me just ask the question when you say ``chemical,'' are you 
referring to a particular type of chemical? Because there are 
lots of chemicals that we have very good antidotes and very 
good treatment for.
    Mr. Shays. That is fair. Sarin, the nerve gas agents.
    Dr. Kizer. And again, the--if one is exposed to this 
category of chemicals, organophosphates, carbamates, these 
types of chemicals, and there is acute symptomatology, there is 
a very good antidote, atropine, that is used when exposure of 
this occurs in other places, with agricultural workers, et 
cetera.
    As far as the delayed or long-term effects or effects that 
might be caused when there is no clinical manifestation, that 
is what we have said here and elsewhere, that there is no 
diagnostic test for that particular type of exposure.
    Mr. Shays. Or treatment?
    Dr. Kizer. Or treatment, since one doesn't know that the 
exposure caused the symptoms.
    And let me, again, try to be as complete and responsive as 
possible, that for neurologic injury in general, depending on 
the degree of insult, there may or may not be any treatment for 
it. When one has a stroke because of a blood clot that causes 
damage to the brain, there is no recovery of that part of the 
brain that has been killed. So that is a general phenomenon 
that occurs to the central nervous system regardless of the 
inciting insult.
    Mr. Shays. What are the types of skills or specialties that 
you have in the VA to deal with chemical exposure? Do you have 
a Ph.D. in toxicology?
    Dr. Kizer. No, I do not. I think you may be confusing 
toxicologists with medical toxicologists.
    Mr. Shays. Elaborate for me. I am confused.
    Dr. Kizer. Most toxicologists oversee the care of rats and 
mice. That is what Ph.D. toxicologists do. Medical 
toxicologists, of which there are 210 board certified medical 
toxicologists in the United States, some of whom don't practice 
in the United States but in other countries, are often viewed 
or often characterized as the consultants' consultant. They are 
a very, very small specialty, most of whom are associated with 
poison centers or are doing investigations.
    The bulk of toxicology care and--of course, hundreds of 
thousands of people each year are poisoned from either 
overdoses or industrial settings in lots of situations all the 
time, and that care is provided by internists, by occupational 
medicine physicians, by family physicians, by neurologists, by 
pulmonologists, by a host of other specialists.
    Medical toxicologists, which is what I believe you are 
referring to, by and large don't do that much hands-on care. 
And, of course, with only 210 in the entire country, you can 
see why they wouldn't, but most of those serve as consultants 
to other physicians who are actually taking care of those 
patients.
    Mr. Shays. How many doctors do we have in the VA system?
    Dr. Kizer. To clarify, full-time physicians or----
    Mr. Shays. Yes, let's take full-time then part-time.
    Dr. Kizer. Full-time and part-time, it is around 15,000.
    Mr. Shays. And of the 15,000--and break down full-time 
equivalent--if you do it that way, so maybe it is not 15,000 
full-time equivalents, is it 15,000 or 10,000? When you teach 
at a university or you work for the government at the State 
level, you would have a full-time equivalent. If two people 
work part time, we call them one full-time.
    Dr. Kizer. I am sorry, I was looking for the exact number, 
which I have somewhere in here, and I missed part of your 
question.
    Mr. Shays. I understand. You approximately had 15,000, give 
or take, and that is acceptable. Some of them are not full-time 
physicians for the VA.
    Dr. Kizer. Probably half of them are not.
    Mr. Shays. How many of those would have expertise in 
dealing with poisons and chemical exposures?
    Dr. Kizer. Again, if I can find the sheet, I can tell you. 
Internists, which are the largest single group of physicians 
that we have, receive as part of their training exposure or 
education in dealing with overdoses and other chemical 
exposures. And those are, of course, the type of physician that 
provides the bulk of this care in the country.
    The occupational physicians, which, by the way, I do not 
feel the VA has as many as they should have, and we are taking 
steps----
    Mr. Shays. How many do you have of those?
    Mr. Kizer. Of occupational medical physicians? Again, I 
don't have that number at the tip of my tongue, but we 
certainly can get that for you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.156
    
    [GRAPHIC] [TIFF OMITTED] T8711.157
    
    [GRAPHIC] [TIFF OMITTED] T8711.158
    
    [GRAPHIC] [TIFF OMITTED] T8711.159
    
    [GRAPHIC] [TIFF OMITTED] T8711.160
    
    [GRAPHIC] [TIFF OMITTED] T8711.161
    
    [GRAPHIC] [TIFF OMITTED] T8711.162
    
    [GRAPHIC] [TIFF OMITTED] T8711.163
    
    [GRAPHIC] [TIFF OMITTED] T8711.164
    
    [GRAPHIC] [TIFF OMITTED] T8711.165
    
    [GRAPHIC] [TIFF OMITTED] T8711.166
    
    [GRAPHIC] [TIFF OMITTED] T8711.167
    
    [GRAPHIC] [TIFF OMITTED] T8711.168
    
    [GRAPHIC] [TIFF OMITTED] T8711.169
    
    [GRAPHIC] [TIFF OMITTED] T8711.170
    
    Mr. Shays. I am not going to hold my breath, and I sound a 
little sarcastic because that is the same question we asked of 
Dr. Murphy last time. I asked her the question, I think it is 
telling that you cannot name one person in the whole Department 
the only name she gave me was Dr. Spencer, and that was a 
neurotoxicologist, so some of them can be by definition. But I 
fully expected I would get a response from Dr. Murphy to 
straighten me out. She said, we can, of course, provide that 
for the record if you are interested. We wanted to know the 
people involved, and I said I would definitely like it for the 
record. And, Dr. Murphy, have you provided me that information? 
I am asking the question, have you provided that information 
yet?
    Dr. Murphy. We went back and searched our VA data base----
    Mr. Shays. No, that is not the question I asked. I am 
allowed to ask honest questions and get honest answers to the 
question. Have you yet provided me that information? I am 
sorry?
    Dr. Murphy. No, sir, we did not.
    Mr. Shays. Do you have that information now?
    Dr. Murphy. In searching our data bases, the VA personnel 
files, we found that the research Ph.D.'s that we have in VA 
were not broken down according to those categories. They are 
called research chemists, research health science specialists, 
physiologists, microbiologists. And I have those numbers here 
today. We will need to go out and actually query each of our 
medical centers for----
    Mr. Shays. When do you think you can provide that 
information?
    Dr. Murphy. We can do that.
    Mr. Shays. When will we get that information?
    Dr. Murphy. It will take several weeks.
    Mr. Shays. Dr. Kizer.
    Dr. Kizer. I apologize for the delay here, but the numbers 
I was looking for a moment ago in response to your question, 
the VA has at least, according to the numbers I was given at 
the end--for the end of December 31, 1996, we had 7,932 full-
time physicians and 7,745 part-time physicians.
    Mr. Shays. Thank you.
    Dr. Kizer, when I went to the West Haven facility, they 
were specifically asking questions about chemical exposure, and 
the reason was that they had physicians from Yale University 
who had expertise in environmental exposures. And so they had 
the expertise to think to put it in their questions. They did 
it early on.
    We have a big disagreement on this issue. My view is that 
the soldiers were basically crying in the wilderness, and the 
one mistake I think the VA made was to listen to the DOD and 
not our soldiers. That is my view of the six hearings I have 
had.
    We have tried to document at every hearing by bringing in 
veterans who will testify to the fact that they feel they were 
voices in the wilderness. And one of my theories if, in fact, 
that ultimately is found to be true--because we will find the 
truth to it, because whether it is true or not, we will know 
one way or the other eventually--was that they basically felt 
that the doctors that were treating them had no background or 
expertise in chemical exposures, whether they were everyday 
chemicals or chemicals of war. And the theory is, and it is one 
that I think is plausible, is that they basically were 
constantly being discounted because we didn't have doctors who 
had that expertise.
    I would like to ask, Dr. Custis, if you think that is a 
possibility, if that ever showed up in your radar screen, or, 
Ms. Gwin, if that ever showed up in your radar screen. And that 
was the issue: Does the VA have people trained in chemical 
exposure? Then I will ask you to respond, Dr. Kizer.
    Dr. Custis. Not beyond the internist who has the ability to 
address problems regarding different chemical exposures. You 
talk about speciality, you are talking about a physician who 
goes beyond that point and goes into great depth on 
specifically exposure to chemicals. For example, 
ophthalmologists have different categories of specialization. 
There are general ophthalmologists who are perfectly capable of 
handling cataracts, for example. There are also a subspecialty 
of ophthalmologists who do nothing but cataract surgery.
    I think, to answer your question, I am not aware of the VA 
having any physician who is beyond the 200 and some who can--as 
referred to, any one of those being in the VA. I can't imagine 
the VA having any need for that level of subspecialty 
expertise.
    Mr. Shays. Let me just say to you in response to that--then 
I'm going to call on Mr. Sanders, and, Mr. Rostker, believe it 
or not I do have a question for you. And I am happy, Mr. 
Rostker, to have you comment on anything you have heard as long 
as you want--I find your answer really surprising because we 
have had doctors from the private sector come and testify that 
the VA basically wasn't listening to our area because they 
don't really respect it. That is their view. It may not be 
true. We have soldiers who were continually saying, I was 
describing symptoms that didn't seem to be anything that they 
could relate to.
    And it would strike me that we know that after World War I, 
the DOD said, that no one had acute symptoms on the spot; 
therefore, chemical exposure was not a problem. We still have 
General Schwarzkopf saying that, and others saying if they 
didn't die on the spot, basically chemical exposure wasn't a 
serious issue.
    It strikes me that we knew after World War I that some 
soldiers came home after the war with no acute symptoms, later 
developed symptoms and died. We knew after the radiation that 
we are exposed to it. We know after Agent Orange; it was years 
later. And it would seem to me that somebody's radar screen 
would say, we need people with expertise in these areas. This 
is war, and they use chemicals. It does strike me as kind of 
amazing that we wouldn't have people with that expertise in the 
VA, but you basically don't seem to be surprised by that.
    Dr. Custis. At the time that active duty personnel were 
exposed to radiation, there was a general ignorance of what 
long-term exposure would amount to. We know better today.
    Mr. Shays. I wonder if we know better. I wonder if we do.
    Dr. Custis. Medical science is much more informed about the 
dosage that will cause a disease in terms of radiation exposure 
than they were at the time when so many active duty people were 
exposed in the South Pacific.
    That same thing will be true, I predict--I think all of us 
feel that the problem of low exposure to Sarin and chemical 
warfare agents tomorrow will be much better understood, and 
there will be much more expert knowledge.
    I think you have touched upon a very real reason why DOD 
was so slow in appreciating that this was a problem, namely 
that the literature at that time would indicate that unless 
there were an acute manifestation of chemical warfare agent 
exposure, that there was no knowledge of any long-term ill 
effects.
    DOD took that information from researching the literature 
at face value and didn't get particularly excited about it 
until there was more and more concern about are we wrong? Is 
there such a thing as a long-term effective low exposure?
    I think it is a matter of how soon science and information 
catches up with the medical profession.
    To go back to your challenge regarding whether or not the 
VA should have chemical experts, I think the need for chemical 
experts can be satisfied through consultation, as Ken Kizer has 
just described.
    Mr. Shays. Let me call on Mr. Sanders. Dr. Kizer, you will 
have a chance to respond to that question.
    Mr. Sanders. Mr. Chairman, I appreciate your line of 
questioning, and I think this is what the problem may be: I 
think we have people up there who are extremely well-
intentioned. I do not have the slightest doubt that they are 
working night and day trying to resolve this problem.
    I think the thrust of your questioning is whether they, in 
fact, have the background and understanding and the training, 
in all due respect, to approach a new type of problem dealing 
with chemical sensitivity. I think your line of questioning is, 
how many physicians do you have; and maybe that you don't have 
the proper resources.
    Let me give you an example, picking up on the chairman's 
questioning. There is a medical association called--I believe I 
have it right--the American Academy of Environmental Medicine. 
To the best of my knowledge, they have treated mostly 
civilians, some 25,000 people, over the last 20 years who have 
been made ill not by swallowing a toxic--that is where the 
problem is. We are talking toxicology versus environmental 
medicine. What is the difference? They have wonderful 
physicians who, if you overdose on something, you swallow 
something, they know how to treat it. And I am absolutely 
confident they could diagnosis and treat it well.
    Where, I believe, they do not have the background is the 
overall area of what we call environmental medicine, the 
combination of factors that make people sick. That is not a 
criticism. That is a contentious and debatable diagnosis in 
modern medicine today.
    I would suggest to you--and this is what gets me a little 
concerned. And no one is here criticizing. We know you are 
trying your best. But instead of saying, gee, we don't have the 
background here, let's go to those people who may have the 
background.
    If I were to tell you--if, as a common-sense observer out 
there saying, gee, we have folks treating 25,000 cases of 
people, treated, treated, why aren't we running to those people 
and bringing them in? I could list you names. Have you just--
let me do this, picking up on the chairman's line of 
questioning--have you over the years been in formal contact and 
asked for the advice of the American Academy of Environmental 
Medicine, have you done that, who have treated 25,000 people 
who have been made ill by chemical exposure?
    Dr. Murphy. We actually have two MCS specialists on our VA 
Persian Gulf expert committee, which is a federally chartered 
advisory committee that would give us advice on a routine 
basis.
    Mr. Sanders. But you didn't answer my question, Doctor. 
Have you brought those people--have you implemented any of the 
treatments that they are working on? There is treatment out 
there. Have you? Yes or no.
    Dr. Kizer. I will defer in part to Dr. Murphy, but I would 
underscore part of what you said or alluded to is that much of 
the treatment that is advanced is highly controversial as to 
both its efficacy and in some cases its safety.
    Mr. Sanders. I beg to differ with you. Give me any evidence 
that there is any safety element in this treatment. There has 
never been any evidence of that. This is a low-tech type of 
treatment.
    Dr. Kizer. You are referring to part of the treatment that 
has been advanced by some of the members of that group. There 
are others who have advanced other types of treatment that 
belong to that group that does have safety implications, 
whether it is using things like ads, which is concentrated 
bacteria, chelation therapy. There are coffee enemas, a variety 
of other things. I think what you are referring to is a portion 
of it, so I think you have to make that distinction. In the 
aggregate there are concerns both about safety and efficacy.
    As far as the dietary treatment and things like that, that 
is something that again we would remain open to. I think part 
of the questioning there is that if we are going to fund the 
treatments, pay for treatments that are not proven or that 
haven't been shown to be efficacious, then that means that 
somebody else may not be treated because of limited funds. We 
have----
    Mr. Sanders. That is exactly what the problem is here. You 
are talking about different approaches to science. I think you 
don't know, in all due respect. I think there is an area of 
work--let me give you one example, if I can, Mr. Chairman, and 
I will explain how I got involved in this. Be patient with me 
here.
    As Members of Congress, we get a lot of strange calls. I 
got a call from a woman in Montpelier, VT. She said to me, 
``Mr. Congressman, I installed a new carpet in my house. You 
are not going to believe this, but I became very ill, and my 
kids became very ill.'' And you know what I said? I said, 
lady--I didn't say this, but this woman is crazy. I never heard 
of such a thing, getting a carpet in your house and getting 
ill. What kind of nutty stuff is this?
    We did a little research. You know what we found out? 
Twenty-six attorneys general throughout the United States of 
America were pressuring the EPA and the Safety Products 
Committee here in Washington to do something about it. This was 
a problem.
    Well, we got into it, and the late Mike Synar of this 
committee did a wonderful job, did a big hearing on it. We had 
the EPA up here. The EPA said, yes, we know there is a problem. 
The EPA itself, you might remember, Mr. Chairman, removed 
carpet from their own building, you remember that, and they 
said, yes, we know there is a problem, but we don't fully 
understand the problem.
    It turns out there are physicians all over the country who 
treat for this and who wrote to us. We got all kinds of letters 
that say we are treating kids, adults made sick by chemicals in 
carpets. We had the EPA up in a hearing similar to this. Their 
line of reasoning, not dissimilar to yours is yes, we know 
there is a problem, but we don't know how to treat it and think 
there may be a problem. I asked them, have you talked to one 
physician who treated one patient made ill by a carpet? I never 
forgot their answer: No, we haven't.
    Essentially you are saying the same thing. You are saying 
there are people out there, there are physicians out there, and 
while you may be right that there may be some experimental and 
potentially dangerous types of treatment, there are other 
treatments, as you well know, that do not have dangers. It is 
amazing to me that you are not begging to bring in those people 
who are providing low-tech, nondangerous treatments and see if 
they are efficacious or not.
    Dr. Kizer. I think we would welcome that, if I understand 
your question, and I want to come back also to respond to a 
comment that the chairman made. If those individuals are 
willing to look at this, and it doesn't have to be a long, 
drawn out study, but to look at the efficacy of that treatment 
under accepted protocols or techniques that will give us a 
reliable answer, we are very willing to look at that.
    Let me put an offer on the table, because I think that in 
some ways there is a good parallel example in the issue of 
silicone breast implants, and the decision that was made by the 
judge in Oregon in this case that--and because this also is an 
area of some contention--that if you want to name some experts 
that have nothing to do with Persian Gulf, and we will name 
some experts and we will put them together to agree on what the 
methodology, what the criteria should be for accepting the 
data, then we can do that.
    And I think that is what was done in the case in Oregon; 
that because of the proponents of different schools and 
different rationales as far as whether the silicone breast 
implants were causing the alleged array of diseases, so the 
judge took noninterested individuals, who said these are the 
criteria that the evidence the data should meet, and we have no 
vested interest in this whatsoever because this it not our 
area, but that is what sound science, sound methodology, sound 
investigative principles would suggest----
    Mr. Sanders. Let me ask you a question. I mentioned to you 
before that you had a physician. Your own physician in 
Northampton, MA was treating people with some success. Have you 
contacted those patients? One of the things common sense would 
dictate if somebody is treating somebody, is that you might 
want to ask, hey, Sergeant, was that treatment successful? How 
did you feel before you went in? How did you feel after you 
went out? If you had 50 people saying, you know what, I don't 
know why, but this treatment seemed to have worked, if I were 
you, I would be on the first plane to talk to that person and 
find out what is going on.
    Dr. Kizer. We even did more than that. What I suggested in 
that case was that we hire a methodologist at VA expense to 
help the doctor put together the study that would show if, 
indeed, there was. And I think, as you well know, in some cases 
people feel better despite of or because of the treatment they 
receive. And I think what we need is, again, the agreement on 
what are the principles, how the data should be viewed, and we 
certainly have made offers and made the services of 
methodologists available to them.
    Mr. Sanders. One thing to be in a committee, but in the 
real world the end result was you had somebody who was before 
the House subcommittee in 1993, went through all of the hoops, 
did a lot of work. I think this was in addition to a normal 
service as a VA physician. She did this on her own. And it took 
years before this thing was dealt with, she apparently felt, 
for whatever reason. You are saying one thing, but the end 
result was she felt, hey, they are not interested.
    And I guess I would hope that we have broad enough egos to 
understand that none of us know everything, and I hope that we 
are open to various forms of treatments. Frankly, I don't think 
you have been, and I hope that you will be. I think it is a 
very important issue.
    Dr. Kizer. I can't comment on 1993, since I wasn't 
associated with the Department.
    Let me respond to something that the chairman proposed. 
Forgive me, I don't remember the exact question, but the point 
that I wanted to make was that I, as someone who has been a 
consultant in the area of toxicology and worked with it, I 
think my index of suspicion and concern for chemical causation 
may be higher than some others. And indeed, coming into the VA, 
my observations in this regard is that the VA community is no 
different than the regular medical community or the rest of the 
medical community in having perhaps some lesser sensitivity at 
times than they may have. At least they are exploring the 
potentiality, not necessarily that there is a cause-and-effect 
relationship.
    That is one of the reasons why we are establishing a number 
of new fellowships in the VA; this summer 12 new fellowships in 
medical toxicology will be supported, as well as funding 
additional physicians in occupational and environmental 
medicine. We will have 25 new physicians this summer and 
hopefully double that the coming year.
    One of the concerns that I might just mention, though, in 
the area of medical toxicology is that the training programs 
have had a shortage of individuals applying for those positions 
since it is not something that there is necessarily a demand 
for in the private sector.
    Mr. Shays. I appreciate your response to that. I do think 
that that will be very helpful.
    Dr. Rostker, I don't know if I am going to be waking you up 
or----
    Mr. Rostker. Here to respond to your questions, sir.
    Mr. Shays. I was feeling a little uneasy that we invited 
you, and you are just having to sit and listen to this dialog, 
but somehow maybe there is some good to come from it.
    I have been concerned that the DOD, basically given the 
history after World War I, given the history basically with 
radiation and Agent Orange, that the DOD would have an attitude 
different than, ``if we don't see acute symptoms, we don't 
think there is a problem.'' That is one concern I have, and I 
would like you to respond to that.
    The other concern I have is that--and obviously since I am 
not a physician, I could just be totally off base, but someone 
in Connecticut served in Persian Gulf. His job was to spray the 
troops with lindane. He was in a confined area. I am told by 
occupational environmentalists here that there are certain 
chemicals that you would simply make sure if they were using, 
there would be ventilation and so on. This individual ended up 
dying with pancreas cancer, and I remember one doctor saying 
there can't be any connection between lindane and pancreas 
cancer.
    But the bottom line is we know how chemicals are stored on 
bases. We also know that we are not shutting down some bases 
because there are such chemical challenges in some of them, 
because if we did, the cleanup would be immense. I think you 
get my drift.
    What are you doing to look at the practices of the 
Department as it relates to the use of chemicals, not just 
defensive and offensive, but chemicals in general?
    Mr. Rostker. First, let me just state for the record I am 
not a physician, I am an economist, and after hearing this 
discussion, I thank my lucky stars that I went to graduate 
school in economics and not medicine.
    Mr. Shays. Because that is such a pure science, right?
    Mr. Rostker. Absolutely.
    As you know, or may know, the Department of Defense did 
fund in the 1970's some research on low-level chemical 
exposure. The subjects were workers at chemical weapons plants 
who were inadvertently exposed to chemical--low-level chemical 
exposures. And that research, unfortunately, was not pursued as 
far as it could have gone. You are absolutely right that we had 
the presumption that all we had to worry about was acute 
poisoning from chemical weapons.
    I don't think it is fair to characterize General 
Schwarzkopf or the other leaders as waiting for people to drop 
dead before we had a concern for chemicals. That there is----
    Mr. Shays. It isn't fair, so let me clarify, since they saw 
no acute symptoms, and there was some reference to nobody 
dying.
    Mr. Rostker. If I might, the Gulf war is probably the 
major, the most significant concern for chemicals that we have 
had since World War I because we did know that Saddam Hussein 
used chemicals both on his own people and on the Iranians. So 
the extraordinary precautions that were taken almost bordered 
on the hysterical.
    The out borders are replete with references to protecting 
the troops, to training, to making sure that we had the best 
chemical gear that we could have at the time. And, in fact, as 
you know, when we went into the offensive part of the war, the 
troops were not in their normal utilities, but were in their 
MOP suits. And the examples----
    Mr. Shays. That is the protective gear?
    Mr. Rostker. The protective gear, exactly.
    And invariably where we have even the slightest indication 
that chemicals may have been present, there is also a recording 
in the records that are available to you and to the public, the 
comment that the troops----
    Mr. Shays. According to?
    Mr. Rostker. According to the logs and accounting of 
operations.
    Mr. Shays. My understanding is that more than 50 percent of 
those logs are not available.
    Mr. Rostker. The ones that we do have are replete with the 
troops moving into MOP 4 and further action being taken.
    Mr. Shays. I don't know what you mean by ``further action 
being taken.''
    Mr. Rostker. A test, confirmational test, doing a 256 kit 
test.
    So I think the record will sustain the fact that, as one of 
the out borders said, the safety of the troops were paramount.
    But it is true that we did not appreciate the possibility 
of effects from low level that might persist over time, might 
manifest itself not immediately, but years later. We are 
prepared to undertake that research necessary to fill that 
knowledge gap so in the future we can be more responsive.
    Mr. Shays. Do we have any record of Iranian civilians 
having health problems as a result, potentially, of chemicals?
    Mr. Rostker. In the timeframe of the war?
    Mr. Shays. And since then, and--Iraqi, not Iranian. Let me 
restate the question over again. I misstated.
    Does the DOD have any knowledge, do you have any knowledge, 
does the DOD have any knowledge that we would be able to see of 
health care challenges that Iraqi civilians have as a result of 
the war?
    Mr. Rostker. There were some accounts near Basra, as the 
Republican Guard was retreating, of some possible exposures, 
but that is the extent that I know of. I believe we have asked 
the question of the Kuwaitis, and they have indicated that they 
have none. But that is the extent of my knowledge.
    Mr. Shays. Your testimony is you have no knowledge of Iraqi 
civilians not being exposed, but having serious symptoms? You 
have no knowledge of symptoms similar to the U.S. soldiers and 
the allies?
    Mr. Rostker. Not that I have.
    Mr. Shays. Could I ask you to check your records?
    Mr. Rostker. Of course.
    Mr. Shays. Since I need to be very definitive here, we have 
two requests on the table, Doctor. One of them will be the 
request you are going to show me from 1993 to 1995 specific 
studies that you asked for dealing with chemical exposure, 
someone else asked for, because you were telling me there were 
studies. I wouldn't need it for the committee today since I 
wouldn't know what to do with them, but I will give a few weeks 
if you would get back to us with that, in addition to the two 
previous questions that we asked Dr. Murphy.
    And, Dr. Rostker, if you would check the records to see if 
there is any evidence or concern on the part of the U.S. 
Government that Iraqi civilians may have some of the same 
symptoms that our allies have.
    Mr. Rostker. We will do that in toto, but let me be clear 
that there were reports of civilians possibly exposed to 
chemical weapons near Basra at the end of the war as the 
Republican Guards were retreating and as they were--as action 
in that city with the Shiites.
    Mr. Shays. One of the interests that I have is that the CIA 
did projections of what would happen to the plumes when we blew 
up some of the depos and some of the chemical plants, and in 
every instance they would not come toward our troops. If they 
would not come toward our troops, there we have some question 
mark because they went somewhere.
    One of the ironies would be if we could learn basically 
from our previous enemy that they are encountering some of 
these problems, that we may have a common interest in 
exchanging information.
    Mr. Rostker. Absolutely.
    Let me, if I might--we are in the process of distributing 
almost 22,000 questionnaires to servicemen who were near the 
Khamisiyah, within 50 kilometers of the Khamisiyah, and we will 
have a much better understanding of any anomalies that they saw 
or any possible health effects that they suffered around that 
explosion. And I hope that that analysis will be available in 
the month of February.
    Mr. Shays. I just have basically three more questions here. 
I would like to know first off if--from you, Dr. Kizer--if the 
VA is sharing its health registry data with the DOD 
investigative teams.
    Dr. Kizer. The DOD shares its data with VA. VA shares data 
in the aggregate with DOD. We have not provided individually--
or data that would be linked to an individual largely pursuant 
to the feelings that have been expressed by individual veterans 
as far as providing that information back to DOD. But we 
certainly----
    Mr. Shays. As a privacy issue, that you are not providing 
the registry information to the investigative teams; is that 
right?
    Dr. Kizer. The aggregate data, the data that is not linked 
to individuals, has not been provided to DOD largely in 
response to the requests or the feelings that they expressed by 
the veterans.
    Mr. Shays. How do we know how they request it? Did they say 
they don't want it provided? Is there a question in the 
protocol that asks that?
    Dr. Murphy. No. Our physicians talk to veterans every day. 
They call into our offices on the phone, and there is a feeling 
among veterans that--whether it is true or not--that if the 
registry health information was provided to DOD, it might have 
an impact on their career as a reservist or active duty member. 
So, yes, there are concerns. It doesn't impact our ability to 
deal with aggregate data. Because DOD sends the data as 
provided to the VA, we can do the analysis. It really is not an 
issue. We do provide aggregate data back to DOD with no 
personal identifiers attached. You can ask the veterans here 
today if they would like their personal data sent to DOD.
    Mr. Shays. It might be wise to have that as part of the 
protocol, to ask if you are able to share that information for 
their own basic health.
    Mr. Rostker. I would like to make it perfectly clear that 
we are not interested in the name or Social Security number of 
anybody who is registered, but if we are going to do the 
appropriate cluster analysis, it would be extremely helpful to 
have the individual records at a unit level.
    We believe we can safeguard the privacy of the individuals. 
We don't need health identifiers. We don't need rank. We don't 
need the name or Social Security number. I think we will be 
trying to work with the VA to resolve this issue.
    Mr. Shays. Is that something that, Dr. Kizer, could be 
resolved based on that kind of request?
    Dr. Kizer. I think we need to look at it and see exactly 
what that means. We are certainly open to it, and I would say 
two things: One, to date, Dr. Rostker recently has assumed his 
position and raised this issue very recently. Prior to that, 
Dr. Joseph and the folks from the Health Affairs were satisfied 
with not getting the individually linked data. I think first 
and foremost, though, we want to get some feeling from our 
Veteran patients as to whether this would be a problem for 
them.
    Mr. Shays. How long ago was that request made?
    Mr. Rostker. We had this discussion over the last month or 
so.
    I would say that in terms of doing epidemiological studies, 
Dr. Joseph had, in fact, reached an accommodation with the 
Veterans Administration.
    However, in terms of the kind of analysis that we would 
find most helpful to at least screen the possibilities of 
exposure, it would expedite our research and inquiries if the 
information were available with no personal identifiers.
    Dr. Murphy. I can guarantee you that VA will cooperate in 
all of those efforts as long as we can maintain the 
confidentiality of veterans.
    Mr. Shays. It would seem to me there would be a way to 
maintain confidentiality. It seems to me a no-brainer.
    Dr. Kizer. I am not sure it is an issue really.
    Mr. Shays. That would be nice.
    Dr. Rostker, is there any comment?
    Ms. Gwin, you have been very patient here, and, Dr. Custis, 
do you have any closing comment you would like to make before 
this committee? I appreciate your patience and participation.
    Dr. Custis. No, I think not, Mr. Chairman. I think you have 
covered it very well.
    Mr. Shays. I don't know how much we covered. You are 
gracious, but I am disappointed, frankly.
    Dr. Rostker.
    Mr. Rostker. Mr. Chairman, I would like to hear from those 
who served with us and those who continue to serve with us in 
active duty in our reserve components. As I have said in my 
statement, it is imperative that we get to the bottom of why so 
many people are ill. We owe it to them, but most importantly we 
owe it to the future soldiers, sailors and Marines and airmen 
who will be, I am sure, placed in harm's way in service to 
their country. We owe them no less.
    Mr. Shays. I think we probably all agree on that.
    Dr. Kizer, before I ask if you have any closing comment, 
and maybe Dr. Murphy, can you tell me what the analysis of VA 
registry of Khamisiyah tells us about the health effects of 
exposure to low levels of chemicals? Have we learned anything 
from the VA registry in regards to Khamisiyah?
    Dr. Murphy. We have had long discussions on the usefulness 
of VA registry in the past, and I would like to preface my 
statements with all of the caveats that we have previously put 
on it. The registry is health surveillance data and does not 
give definitive answers, is clearly still true. I think it can 
be used as a tool to get a snapshot on a particular issue, and 
that is what we have done in searching the registry data base 
with the names of the 21,000 individuals that DOD tells us were 
within 50 kilometers.
    In looking at the comparison between registry participants 
overall and Khamisiyah veterans, really there aren't dramatic 
differences between the two except in two areas. No. 1, the--
both the individuals within 50 kilometers and those who were 
identified as part of the demolition team, are on your charts 
as being onsite, have--virtually all have symptoms, and that is 
different from the other 52,000 individuals that we looked at 
in the registry, 12 percent of whom have no symptoms.
    The other difference is that those members of the 
demolition team have a higher percentage of musculoskeletal 
symptoms. It is 16 percent versus 28 percent. There doesn't 
appear to be a difference between the 50-kilometer group and 
the other group. The reasons for those differences are not 
entirely clear at this point but could be addressed by the 
epidemiologic research studies that are currently being 
requested. Protocols are being requested through an 
announcement that was released by DOD in December and are due 
in on February 19th.
    Mr. Shays. Dr. Kizer, you said today that the Persian Gulf 
Registry was never intended to or designed to be a scientific 
research study. I infer from that that it is basically a 
helpful document, but it shouldn't prove or disprove any 
conclusions. Would you conclude with that?
    Dr. Kizer. I think that is what the statement says, sir, 
that the Registry is first and foremost a health access 
program. Insofar as it provides, or can be hypothesis-
generating, it may be useful in that regard, but in and of 
itself it is not a----
    Mr. Shays. Do you have any closing comment you'd like to 
make?
    Dr. Kizer. I would perhaps just reaffirm two points that I 
made before. One is that while we think the VA approach and 
program is a good one and a comprehensive one, we are 
continually looking for ways to improve it, and we certainly 
welcome the oversight and the scrutiny that this group and many 
other groups have provided in an effort to improve the program.
    Second, I would just say that I would--I think at times in 
an effort to be precise in our statements and to ensure that we 
are communicating it, it may create an incorrect illusion that 
there is an attempt not to be responsive, and I certainly hope 
that is not the case. And through continued dialog it will be 
clear that we want to be as responsive as possible, but we feel 
the need to also be as precise in our responses as well.
    Mr. Shays. Dr. Kizer, I will respond to that point. I think 
it is very important, especially your field, that we are being 
very precise. I just have to say to you that the difficulty I 
had in getting a dialog as to what the Registry was at one 
point was something that I did not expect we would have that 
challenge in communicating. It tells me that rather than having 
Dr. Murphy before us, I think probably you should be conferring 
so we can iron out those differences.
    I thank all of you for coming, and I thank all of you for 
your patience. We are going to recess, as there is a vote on 
the floor. Since it may be over in 15 minutes, but since I 
can't be certain, I am going to recess until 2 o'clock.
    [Whereupon, the subcommittee recessed at 1 p.m., to be 
reconvened at 2 p.m. this same day.]
    Mr. Shays. I will call this hearing to order and I 
apologize to our witnesses. This has been a momentous day in 
the history of Congress. Some of you have to be at 3:00--Dr. 
Haley, where do you have to be?
    Dr. Haley. Over in the Senate building, Russell Senate 
Building.
    Mr. Shays. You have to be at the Pentagon at 3:00?
    Dr. Haley. I have to be there at 3:30.
    Dr. Duffy. I have to be at the Pentagon at 3.
    Mr. Shays. Can you change it to 3:30? I will tell you what 
we will do. We will meet with you first. Since there is only 
one person asking questions, you may be able to answer them. 
We'll let you leave before the other panel starts up. I need to 
swear all of you in. Dr. Schwartz, I assume you do not have a 
timeframe.
    Dr. Schwartz. No.
    Mr. Shays. All right. Thank you.
    [Witnesses sworn.]
    Mr. Shays. For the record, all three witnesses have 
responded in the affirmative. Our second panel is Dr. Robert 
Haley from the University of Texas Southwestern Medical Center; 
Dr. David Schwartz, University of Iowa Medical School; and Dr. 
Frank Duffy, Harvard Medical School: three distinguished 
practitioners and academicians. We are very grateful you are 
here. Dr. Duffy, since you have a 3:00 appointment, we'll let 
you go first and we'll get you out of here, and Dr. Schwartz, 
and we will get you out of here, by 15 of. Do you have a fast 
car?
    Dr. Duffy. Taxi.
    Mr. Shays. OK. Maybe somebody can get a cab and have it 
waiting for him. So, Dr. Duffy, why don't you go first.

    STATEMENTS OF FRANK DUFFY, M.D., ASSOCIATE PROFESSOR OF 
NEUROLOGY, HARVARD MEDICAL SCHOOL; ROBERT HALEY, M.D., DIRECTOR 
   OF EPIDEMIOLOGY, UNIVERSITY OF TEXAS SOUTHWESTERN MEDICAL 
  CENTER; AND DAVID SCHWARTZ, M.D., PROFESSOR OF INTERNAL AND 
   PREVENTATIVE MEDICINE, UNIVERSITY OF IOWA MEDICAL COLLEGE

    Dr. Duffy. Thank you, Mr. Chairman. This presentation will 
review evidence that's actually been around a while, that low 
levels of exposure to the nerve agent Sarin can produce long-
lasting effects. In fact, this began in the 1970's when the 
post surgeon at Rocky Mountain Arsenal noticed a symptom 
complex amongst workers there. Rocky Mountain Arsenal, as you 
know, is the Army facility charged with maintenance of nerve 
gas munitions. What he noticed is they were forgetful, there 
were problems with concentration, they were irritable and, in 
particular, they had problems in sleeping, but with the 
peculiar twist that there was excessive dreaming. Also there 
was complaints of decreased libido, diminished sexual 
performance and, putting all that together, the main complaint, 
the presenting complaint was trouble with relationships and 
trouble keeping their jobs.
    As you might imagine, workers who were demilling nerve gas, 
this was not prime employment so there was an 
overrepresentation of minority and immigrant workers. And Dr. 
Gaon initially thought that this was just a problem that one 
would associate with lower socioeconomic classes, but then he 
recognized that what was really going on was that these were 
the people he had actually seen with histories of exposure, on-
the-job industrial exposure. So he took it to the Department of 
the Army, and it was at that point I became involved.
    I was what was called an obligatory volunteer back at that 
time, and I was involved with the planning and implementation 
of the two-part project. The idea was it does seem kind of 
farfetched that people would have symptoms a year or so beyond 
exposure to organophosphates, so let's really nail this one, 
let's do it on primates, on monkeys.
    So we had a project with rhesus monkeys at Edgewood 
Arsenal, and the idea was we would expose them to a range of 
Sarin, from an exposure that would require treatment to survive 
and a very low level where the animals didn't turn a hair, and 
look at them a year later, and not just look at their behavior 
but to do it objectively. So we put together a team of people 
to record brain electrical activity, EEG, and analyze it by 
computer, which was pretty good back then, a good approach. We 
still do this.
    The results of the study were there were differences in the 
temporal lobes of the monkeys and they were not seen in the 
monkeys who were not exposed. That surprised everybody, but it 
was sufficient evidence to go ahead and look at the workers at 
Rocky Mountain Arsenal who had this history. There were some 77 
of them. And we matched them with workers on the post who had 
never had an exposure and who their blood checks showed they 
had never had an incidental exposure. The workers--this will 
come to be important for a moment--had a documented exposure; 
there was an accident. They were working with the compound, 
they had physical findings, and a 25 percent reduction in their 
own baseline cholinesterase levels. So they had exposure.
    We took as an outcome point 1 year after their last 
exposure. Some had only one exposure, a few had as many as six 
or seven, but we looked a year after their last exposure, and 
we found by computer analysis of EEG the very same findings we 
found in the monkeys. We took it a step further and I--on a 
double blind basis, I visually analyzed the EEGs and found out 
that their overall EEGs showed a pattern we would now call 
encephalopathy, that's out alpha was reduced and slowing was 
increased by visual inspection. So another thing we found.
    But one of the more interesting things was their all-night 
sleep study showed an excess of the phase of sleep now known as 
REM, or dreaming sleep. We have a phase of sleep where we just 
lie kind of quietly and a phase where, usually occurring toward 
the morning, where the eyes move. And that's what you can see, 
and when you awaken someone in that period, they are dreaming.
    Now, this population had an increase in dreaming sleep, 
which fit very well with their complaint of excessive dreaming, 
but there are very few compounds that actually increase REM 
sleep. Most compounds diminish it. Sleeping medications knock 
it out. The compounds that can do it is LSD, mescaline, some of 
the psychostimulants, but also the organophosphate 
anticholinesterase agents like Sarin will do this acutely.
    So there we were with a monkey study and a human study 
indicating that 1 year after exposure there were differences 
that could be objectively measured on a double blind basis by 
computer and it seemed inescapable that the human brain 
responds adversely to exposures to organophosphate 
anticholinesterase, and in this case it's Sarin. One of the key 
issues--I might add that 6 months or so ago, or more, when I 
was aware of what might have been happening in the Gulf war, a 
couple of my companions----
    Mr. Shays. Just so I have a sense of the timeframe, when 
did you begin the study on the monkeys?
    Dr. Duffy. This study was published--the dates are on the 
back of the handout, but I think the late 1970's, early 1980's. 
So this has been in the possession of the Department of 
Defense, paid for and managed by them and accepted by them 
completely. And what I wondered is why, when this all came up, 
and one of my buddies who is in the reserve said, Frank, they 
are going to call you up and why I never heard anything until 
the New York Times called me last December. So I was curious 
about that.
    The other thing I wanted to sort of offer was my impression 
of how things worked back then when this incident came up. We 
were a group of physicians under the Army Chemicals Corps, the 
only physicians in the Army that didn't report to the Army 
Surgeon General. So when this came up and I went out to Rocky 
Mountain and looked into this and read the literature, it was 
perfectly clear that not only were people after Sarin exposure 
showing long-term effects, but it was widely accepted in the 
pesticide industry that exposure to related compounds like 
malathion and parrathion or the chlorinated hydrocarbon 
insecticides led to long-term consequences, widely known but 
not really played up.
    Mr. Shays. I am just going to interrupt you, and this will 
help. Not widely made well-known because the industry didn't 
want to alert OSHA and the others----
    Dr. Duffy. It was not to their economic advantage to have 
it known. And I might add, there is extensive anecdotal 
literature on long-term exposure to malathion and parrathion, 
which are well known in the crop dusting industry and 
California has done some studies on this. But I brought it up 
to the Army and said, hey, this is bigger than us. There is a 
big public health issue of exposure to these compounds and 
their long-term effects. Don't you think that should be taken 
up to at least the Public Health Service Surgeon General's 
level and we should investigate not just our population, which 
was very nicely controlled, but we should include the pesticide 
facilities that were near? And the response was not only will 
we not take it up to the Public Health Service, it would not 
move out of the Department of Army and not even get up to the 
Army Surgeon General until we had our ducks in a row. This Army 
Chemical Corps was going to take care of themselves.
    Then over the years I have always asked myself the question 
why was I in charge of this program. I was right out of 
neurology residency and they pulled me out of the dream of 
draftees going over to Vietnam. Surely there must have been 
somebody in the Army better qualified than me to run this study 
and how did they know I could do it.
    So unless things have changed a lot, my impression of the 
way the government, and at least what I know the Department of 
Army used to word is they take care of things themselves. And 
that may be one of the system problems that could be changed, 
where--I've heard today that now there is a joint commission 
between the Veterans' Administration, the Public Health Service 
and the DOD, but what happens if the expertise doesn't happen 
to lie there. There should be the ability to move out into the 
public sector and find expertise at universities and 
incorporate this and solve problems this way, without having 
someone lose face or someone being terribly worried that if 
they spend a little extra money they are going to be 
disadvantaged in promotion.
    So that's a strong recollection I have. I mean, they pulled 
me kind of by accident rather than search the country for the 
most qualified person to do this. They solved this problem 
internally rather than call on the resources that they probably 
should have because it is a bigger issue than just 
organophosphates.
    My final comment is that I agree with Bernie Sanders' 
comments that we have really got to get together and do 
something. I do think, however, that medical treatment is best 
targeted to disease that we understand, so that there is not 
only a treatment component, but there is an investigative 
component leading to more appropriate treatment. And why, if, 
say, EEG was so apparently useful in determining the population 
at Rocky Mountain Arsenal was exposed, has there not been an 
EEG project looking to see whether the same findings or similar 
findings are present and perhaps targeting those who might 
respond versus those who might not.
    At Rocky, for example, complicating the issue, we 
discovered that only about two-thirds of the people who had 
significant exposure showed the EEG effects and about a third 
did not. So there is an idiosyncratic nature to this, just as 
you know in multiple chemical sensitivity issues, you put the 
rug in the office and 2 out of 12 people will come down with 
it, but 10 didn't. So it's complicated because it's 
idiosyncratic, so you need to target and you need to look for 
mechanisms, and I know we don't have time today, but the 
suspicion is there might be EEG findings in this syndrome akin 
to some work we've done in chronic fatigue syndrome which has 
surprised us in terms of its direction it's pointed us toward 
therapy. So there is a lot that can be done here, as well as I 
think, in a global sense, looking at how the government 
responds to these--the freedom the government has to respond to 
these kinds of crises.
    Thank you.
    [The prepared statement of Dr. Duffy follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.171
    
    [GRAPHIC] [TIFF OMITTED] T8711.172
    
    [GRAPHIC] [TIFF OMITTED] T8711.173
    
    [GRAPHIC] [TIFF OMITTED] T8711.174
    
    Mr. Shays. Dr. Duffy, I am going to get you out at 20 
minutes of, regardless, but I am going to suggest to Dr. Haley 
and Dr. Schwartz if you would like to comment or even ask Dr. 
Duffy a question; that would be instructive to us. So I am 
going to ask you to make a comment and have Mr. Sanders go, and 
then I will go. If you would just make a comment.
    Dr. Haley. Yes, we are very familiar with Dr. Duffy's 
studies, and we strongly agree that this is very important 
information that should be on the subject here. It raises the 
whole issue of how do you measure subtle neurological damage, 
subtle brain damage. As I am going to talk about in a moment, 
we found that a physician, in looking and doing all the tests a 
physician can do, a history, a physical exam, lab work, a 
physician cannot make the diagnosis of this in traditional 
medicine, and that's the reason you have so many people putting 
in a rug and you go to the doctor and the doctor says there is 
nothing wrong with you, I can't find a thing wrong. You do an 
objective test like this that's subtle, sensitive, and compare 
it to a control, normal people. In a control study you can say 
this group is abnormal compared to the normal, and that's right 
now sort of the state-of-the-art. So I think this is very 
important information that should be in the record and be the 
central part of discussion of this problem.
    Mr. Shays. Dr. Schwartz, do you want to make a comment?
    Dr. Schwartz. Yes, comment first as a clinician and then as 
an investigator. My area of specialty is occupational and 
environmental medicine in terms of the clinical practice of 
that, so I see--in practicing medicine in Iowa, I see a fair 
amount of patients who have been exposed chronically to 
pesticides. These problems that individuals have that Dr. Duffy 
is describing is not uncommon in individuals chronically 
exposed to organophosphates, and they provide an incredible 
challenge and a lot of difficulty to physicians who have not 
seen this type of disease present itself in their normal 
practice of medicine.
    So applying some of these very objective tests to begin to 
understand why some individuals have chronic complaints 
following exposures and other individuals might not have 
chronic complaints following the same exposures is very 
important.
    I think, as Dr. Duffy had said, it's also important to look 
at the issues of why some individuals are susceptible to that 
problem and other individuals appear to be resistant to it. It 
doesn't mean that they shouldn't prevent those exposures. It's 
just scientifically a very, very important question to answer 
because it helps us understand the pathogenesis.
    In terms of my response as an investigator, I think that 
some of the very preliminary epidemiology has been done in this 
field in terms of the Persian Gulf activities and health 
consequences, and some of that I am going to be able to 
present. Some of it is still ongoing and it will come out over 
the next couple of years, but I think that the next obvious 
step, the next very important step in terms of understanding 
this disease process is to do very detailed examinations and 
very detailed laboratory tests, including tests like EEG tests, 
to understand this not as a syndrome or as a group of diseases 
that we have never seen before, but to try to understand 
whether this, these processes, these complaints, fall into 
disease categories that we can treat.
    Mr. Shays. Let me interrupt you a second because I want Mr. 
Sanders to----
    Dr. Schwartz. Sure.
    Mr. Shays. If you could try to finish up.
    Dr. Schwartz. Those are my complete comments.
    Mr. Shays. You are going to be here a little later?
    Dr. Schwartz. Yes.
    Mr. Sanders. I apologize for missing the opening part of 
your testimony. I am interested in two areas. First, a general 
question, we understand that everybody is trying to do their 
best to get at the root of this problem. Do you think that from 
what you heard today from the DOD and the VA and those people 
that they have the expertise to look at it--if you like in 
environmental medicine, that they have the background to make 
the diagnoses that some other people have been making?
    Dr. Duffy. Since my career doesn't depend on the answer, my 
answer I guess would be no. You graduate from medical school, 
most people don't think of the VA service or the Department of 
Defense as the top two choices of occupation, but they might go 
there if there were medical conditions they were very 
interested in that were looked into in either the VA, like 
rehab medicine, or the Department of Defense in certain areas. 
But this is universally true. And what I think is missing is 
the ability of the VA to candidly recognize, we don't have 
experts, they are out there, let's facilitate the ability to 
bring them in and take a look.
    Mr. Sanders. Let me ask you--we always have a problem 
because we're not physicians, but am I correct in understanding 
the whole concept, and Dr. Schwartz mentioned environmental 
medicine, is kind of a different ball game historically than 
the VA has been playing, which is not a criticism. They do 
excellent work in various areas, but is it fair to say that 
analyzing, diagnosing and treating people who may have been 
exposed to a wide variety of chemicals is not what they have 
historically been expert in.
    Dr. Duffy. Or even at every major university medical center 
will have a department or someone of interest you can think of, 
places in the country. So when you have such a problem, I 
wouldn't suggest setting up a branch--unless this becomes a 
major issue and we keep fighting in these areas, but I would 
think there should be some liaison rather than duplication, and 
the freedom to move out rather than causing someone to lose 
face.
    Mr. Sanders. OK. You used the word ``freedom'' a couple of 
times. What do you mean?
    Dr. Duffy. It's cheaper to use in-house physicians than to 
contract. Second, it's almost an admission of you can't do it, 
therefore you had to ask for help. And that's unfortunate. It 
doesn't need to be that way, and really shouldn't be that way.
    I might make one final comment. The work was partly made to 
sound--our work that I presented--made to sound irrelevant 
because it might seem as you read it that the workers had more 
significant exposures than were relevant to the Gulf war.
    In fact, what happens is if you are working with this stuff 
and you know it's a lethal agent and an accident happens, the 
first thing that crosses your mind, I have 2 seconds of 
consciousness and 5 minutes of life, and you panic and do 
everything you can and run to be protected as soon as you 
possibly can. Whether you are exposed or not, you walk in 
hyperventilating and in panic.
    My impression from actually going over all the records and 
as a medical officer at Edgewood looking at patients who had 
been in these types of accidents, you can have a biologically 
significant exposure and only maybe it sort of feels like you 
had a little too much chili for lunch or you had a fight with 
your wife or stayed up too late. That's the kind of feeling, 
but that may last. I would put on as--as well, if you've taken 
a protective agent, you might not experience that. And finally, 
if it's over 100 degrees, you've got on your full military 
garb, you're worrying about the missiles overhead and you're 
wishing you were back in the United States, the little extra 
burden of a whiff of organophosphates you could easily miss and 
it still could be significant.
    Mr. Shays. I would like to understand, when you did this 
study with the monkeys, you were first surprised, and I guess I 
am missing why you were surprised. What was the new revelation 
that made you surprised? It seems very logical to me.
    Dr. Duffy. In retrospect it seems logical. The fact that we 
did the study means we thought there was a reasonable 
probability that the monkeys would show something. But they 
said you are not going to be able to look at those people 
unless the monkeys show something. And a year later, you are 
not going to be able to show it. But they did.
    Mr. Shays. Now, the second part is given that's quite a 
significant finding and has implications to workers, what is 
your statement as to what happened in the study?
    Dr. Duffy. It was accepted with open arms by the Army at 
the time. It keeps surfacing every time the spruce forests of 
Vermont are oversprayed by malathion and parrathion and people 
come out and go through the literature and see the report and I 
end up talking on Vermont public radio or something like that. 
But----
    Mr. Shays. That's it, Raiders of the Lost Ark, and in the 
end it's put in a box and they have this warehouse with 
billions of those boxes and they are saying we're taking care 
of it. Is that the sense that I should have of what happened to 
this study?
    Dr. Duffy. What I think happened--this is third and fourth 
hand. The Army knew about the study. It was picked up by people 
not in a position to--not in--of a rank to make a statement for 
the Army. It was--a committee was formed to look into this. It 
was maybe or maybe not given to the committee, I am not sure. 
The committee, which was composed of civilians, came back with 
the recommendation there's not much to this, and the Army said 
OK, and everyone said OK, and the VA said OK, and that was it. 
That's what happened. Then someone really looked at the data 
more seriously.
    Mr. Shays. It makes you wonder if there aren't other pieces 
of data like this and other studies that you are not aware of 
that have been done by someone else. It's kind of scary to me. 
The implication is you've determined that some workers were at 
risk from this kind of experience and it has long-term 
implications for a whole host of areas, but even just for that 
plant it has tremendous implications.
    Dr. Duffy. Well, for Denver and their water supply and I 
don't know what happened to all those munitions out there. It 
used to be next to Stapleton International Airport. They moved.
    Mr. Shays. I am going to keep my word to you. You've been a 
wonderful witness. Thank you for coming.
    Dr. Duffy. My pleasure.
    Mr. Shays. Dr. Duffy, thank you very much.
    Mr. Sanders. Thank you very much, Dr. Duffy.
    Mr. Shays. Dr. Haley, you are next in line. You have to go 
over to the Senate, correct?
    Dr. Haley. Right.
    Mr. Shays. And you have to be there at 3:30, and that's a 
15-minute walk, so I think we're doing fine. Why don't you make 
your statement?
    Dr. Haley. OK, we published three articles in last week's 
issue in the Journal of the American Medical Association, and 
what I would like to do is list several main conclusions that 
came from this study. Basically we studied one group of 
Seabees, a battalion of Seabees. So what we're going to say 
pertains to this group. To the extent we can generalize we 
don't know yet, although they seem to have the same type of 
symptoms that many other groups have. But what we're going to 
say deals with this group.
    We started this back in early 1994, and our first activity 
was to attend the National Institutes of Health Consensus 
Conference in April 1994, and when you are trying to 
reconstruct what's done badly and what's done well in this 
scenario over the last several years, you really need to look 
at that conference. Had that conference not occurred and the VA 
central office was primarily involved in establishing that 
conference; that conference all at one time summarized 
everything known, summarized all the information from the VA 
registries, DOD information, everything about risk factors, 
everything about symptoms, and that sped us up by at least a 
year.
    Mr. Shays. What was that conference?
    Dr. Haley. That was at the National Institutes of Health in 
April 1994. And all in 2 days we caught up 3 years' worth of 
information and we went from that conference and in the 
following week we designed a series of three studies that have 
now been peer reviewed and published. But it was due to that. 
And I think that was a signal event in all of this and really 
needs to be high on your priority as you reconstruct what's 
happened.
    Mr. Shays. In other words, it's very important and your 
point is that the bottom line is the VA did something 
extraordinarily helpful.
    Dr. Haley. Absolutely. See, this is the way science works. 
A series of small steps, even missteps, information is 
collected and then at some point you summarize it and present 
it to whoever is there, and there were veterans groups there 
and scientists, different interest groups, and right there 
sitting in the audience I had some insights about how to design 
a study, and my collaborator, Dr. Tom Kurt, toxicologist, said 
I think I know what this is, I think this is the syndrome of 
OPIDP. And we went off and started looking into chemical 
combinations and doing epidemiologic studies. And that's how 
science works, and this process was well carried off. It was a 
great hour, a great 2 days for the country. So I wanted to 
start off. Here's what was designed then as a result of that 
process.
    Mr. Shays. Let me understand one thing. If you want to 
interrupt at any time, because we're going to get you out of 
here, but I don't understand the 3-year reference.
    Dr. Haley. That was 3 years from the end of the war. And in 
that 3 years, a lot of work was done looking at risk factors, 
things that happened in the Gulf war, collecting registries of 
patients' symptoms. So we were presented in that 2 days with a 
complete inventory of all the things that were possible.
    Mr. Shays. So you didn't say you had 3 years, it just took 
the 3 years of collected data and presented it to you, you 
didn't have to hunt for it, it was just right there.
    Dr. Haley. Yes. It would have taken us a year to find it, 
but it put us ahead a year. Now, we designed a study where we 
did something different. Instead of studying the sick people 
who were stepping forward. We went out and looked for a 
battalion of people who went to the Gulf war to try to study 
them all, a free-living population and try to study the sick 
ones and compare them to the well ones. Because if you look 
back at Legionnaires' disease, toxic shock syndrome, AIDS, 
hantavirus, that's how you discover the cause of the disease. 
You get the sick ones and the well ones and compare the two and 
see how they differ. So we decided to do that.
    In this unit, we measured the symptoms in an interview 
survey, all 249 of them, studied their symptoms and then did a 
mathematical analysis to see how the symptoms--if this is a 
syndrome, that means there's a group of guys that will all have 
the same symptoms. And there's another group of guys that have 
another group of symptoms. That's what a syndrome is, and if 
that's true, we should be able to find those groups and that is 
a mathematical process. So we applied a mathematical process 
called factor analysis, but that's immaterial, and we found 
three major clusters and three sort of minor clusters, but the 
three major clusters looked like three syndromes.
    Now, there was a real ringer here which is important to 
understand why we have not--why the country has not come up 
with an answer until now. This was very complex because when 
you looked at each of the individual symptoms, for example, 
chronic fatigue, common symptom in this problem, that symptom 
is ambiguous. It means one thing to one group of veterans and 
it means another thing to another group of veterans, and unless 
you disentangle these meanings you get mushy things like post-
traumatic stress disorder, chronic fatigue syndrome, you get 
diagnoses that are imprecise like this.
    We found, for example, with chronic fatigue, one group of 
soldiers meant by that that all day I am sleepy, excessively 
sleepy and want to go to sleep all day and I go to sleep while 
I am driving and so forth. Another group says I am not sleepy 
at all, but my muscles feel rung out after I exercise a little 
while, but I've not sleepy. So these are two different 
symptoms, but they both go under the name chronic fatigue, and 
so unless you differentiate these, you're going to come out 
with these mushy things like chronic fatigue syndrome, PTSD, 
and that's the language we've been using, and until studies 
start disentangling these we're going to come up with these 
mushy diagnoses that lump some sick guys with some well guys 
and that's why it all washes out. So if I don't get across but 
one thing----
    Mr. Shays. What do you mean, it all washes out?
    Dr. Haley. Well, if you include some people with bona fide 
medical illness along with a larger number who don't have 
illness but are complaining of different types of symptoms, 
then do you some tests, the group doesn't seem sick because the 
well ones wash out the sick ones.
    Mr. Shays. OK. You used the word ``wash out'' different 
than I think.
    Dr. Haley. Yes. It obscures the real effects because it 
gets lost in this group of well people you're using. So that 
was our first big breakthrough. Then, in order to prove this is 
real illness, whether these clusters are real syndromes or 
whether it's just statistical, we then took a sample, 23, and 
that sounds like a small number, but this was 23 selected from 
already sifted out syndromes. We took 23, brought 20 controls, 
10 of whom had gone over to the Gulf in this unit but remained 
well, and 10 who didn't go over but remained well, and matched 
them for age, sex, and so forth, and brought them to Dallas and 
the doctors in Dallas didn't know who was in what group. Was a 
blind study. We didn't do EEG because we think there's some new 
technology that's more substantive and more reproducible, and 
that is we did tests measuring the velocity of nerve 
conduction. How fast the nerve impulse goes up the spinal cord, 
measuring reflexes that are mediated by the brain stem. You 
have a lower part of the brain where you can stimulate the ear 
and the eyes move and so forth, and you can measure the speed 
of these reflexes. It's something the subject cannot, so it's 
totally reproducible. And all humans are supposed to have 
values in a very narrow range. And also one side is supposed to 
be exactly the same as the other side, so we can compare sides 
and so forth.
    In this we found that the ones with the syndromes, the 
statistical syndromes, this group were very abnormal and the 
controls were normal, but you see, the doctors didn't know 
which was which, so we couldn't have influenced this. Once it 
was over we broke the code and found this group was very 
abnormal, and that shows this was due to brain damage, just the 
way Dr. Duffy's studies showed back in the 1970's.
    Mr. Sanders. Let me jump in one more time. So you are 
saying you were able to objectively, scientifically demonstrate 
brain damage on people who were complaining of symptoms.
    Dr. Haley. That's correct.
    Mr. Sanders. To your knowledge, has that been replicated 
within the VA, DOD?
    Dr. Haley. No.
    Mr. Sanders. So this is very significant, is it not?
    Dr. Haley. We believe so. Now, I believe there are studies 
ongoing, but I don't know details and perhaps people from VA 
can talk about that. I think this is certainly a major area of 
interest. I think some at the Portland VA are doing some 
studies now, but we're going to see a movement in this 
direction soon.
    Now, the next thing we did, in our survey we asked them 
standardized questions about the risk factors they were exposed 
to in the war. There are no objective records about where 
people were and whether they were in chemical attacks, but we 
developed a series of objective questions to ask them. The 
problem is when you ask people about their exposure at the same 
time you ask their symptoms, there's a possibility that recall 
bias will creep in, that the people who are sick will have more 
of a selective memory, be more concerned about it and more 
likely to put it, or people might frankly cheat. I am sick so I 
am going to say I was exposed to these things.
    The ringer here is we asked not only the questions about 
chemical exposures and combinations which we hypothesized from 
that NIH conference to be the most likely cause, we also asked 
questions about depleted uranium, oil well smoke, multiple 
immunizations, and so forth. You see, if recall bias was the 
explanation for the association, you would expect all of those 
to be about equally associated, because back when they did the 
survey in late 1994, all of these were being talked about in 
the press. So you would expect all of them to be equally 
associated with the syndromes.
    In fact, when we did the analysis, the six chemical 
exposures were highly associated with these three syndromes, 
and I mean highly. There was not a relative risk of 1.2 or 2.1; 
relative risks of 4 to 8. Now, this is in a realm that is 
extremely high association, and generally the higher the 
relative risk the more likely it is to causes not due to bias.
    Mr. Sanders. Please repeat the risk factors that were 
associated.
    Dr. Haley. OK. First of all, there were risk factors having 
to do with the perception that they were involved in a chemical 
weapons exposure, that is were they in an area where the 
chemical weapon alarms went off and they were concerned about 
being exposed. Second, we found that a group who was in a 
certain place on a certain day had the highest, very high risk. 
That was not Khamisiyah because none of our soldiers were 
anywhere near Khamisiyah. This is the town of Khafji, which is 
just south of the Kuwaiti border on the coast, it's where the 
incursion was in early February, just on the border, and it 
happened that the soldiers who were there in Khafji, in the 
Khafji area on January 19 and 20, were the ones who had the 
highest risk. Now, the 19th and 20th were the same date that 
the Czechoslovakian chemical weapons detected Sarin and a 
mustard agent just west of that spot, on that same day. And it 
was the same day that in Jim Tuite's report for the Banking 
Committee, he obtained eyewitness testimony done way before our 
study was even designed and we didn't know about this until 
after we had done the analysis, he found eyewitness testimony 
that there was actually chemical weapons alarm, Marines yelling 
this is not an alert, people getting into their MOP suit and 
then symptoms for 24 hours following that.
    Mr. Sanders. You are saying people who were there----
    Dr. Haley. On that day.
    Mr. Sanders. Experienced that, had this objective physical 
evidence.
    Dr. Haley. That's right, that's some of our most severe 
symptoms. In addition, people who were hyperreactive to 
pyridostigmine, the more side effects they reported to 
pyridostigmine, the more likely they were to have our 
syndromes.
    Mr. Sanders. Now, go through----
    Dr. Haley. The more likely they were to have serious, 
systemic side effects after taking pyridostigmine.
    Mr. Sanders. They said we took this and we got sick.
    Dr. Haley. We asked them which side effects they had. The 
more side effects, the more advanced side effects, the more 
likely they were to have one of our syndromes. OK?
    Now, third, those who wore flea collars--now, this was not, 
as you know, this was not sanctioned by the military command, 
but those who wore flea collars to protect themselves from 
insects, those had about a sixfold relative risk over others of 
having the syndrome.
    Mr. Shays. Were these animal----
    Dr. Haley. Yes, these are pet flea and tick collars that 
you buy at the hardware store and most of them contain the 
common pesticide chlorpyrifos, or Dursban, which has been shown 
in one very important report of six families that were poisoned 
by pyridostigmine by straying in their houses and developed 
symptoms just like that.
    Mr. Shays. Definitely not authorized by the military.
    Dr. Haley. No, these were civilian studies.
    Mr. Shays. No, these soldiers were wearing, literally had 
these collars on.
    Dr. Haley. Yes, they were wearing them around their----
    Mr. Shays. But that was not authorized by the military.
    Dr. Haley. No. But they were wearing them to protect 
themselves from the insects, which was a valid concern.
    Mr. Shays. But this was their solution?
    Dr. Haley. Yes, they brought them from home and wore them. 
Now, the fourth factor was the highest rates of these syndromes 
was in soldiers who used the most insect repellent. So the more 
insect repellent they used, the greater the risk. Now, it 
wasn't all insect repellents, because we asked them which types 
they used in the war. Those who used Off, the commercial brand, 
there was no excess risk. Those who used Avon Skin-So-Soft, 
which contains no DEET, the active ingredient, they had no 
excess risk. But those who said they used government-issued 
insect repellent, which contains 75 percent DEET, an excessive 
concentration, those, the risk of our syndrome 3 increased in a 
step-wise manner with the amount of the insect repellent they 
said they used. And there are reports in the literature showing 
that using compounds of insect repellent with high 
concentrations of DEET, 75 to 100 percent DEET, this causes 
brain damage and seizures in children and it's been banned in 
New York State, although that ban is undergoing appellate 
review after appeal by the chemical companies. But we believe 
DEET is a toxic agent.
    Now, these were the findings, that these four chemical 
types appear to be related. Now, we found in further testing 
the epidemiologic findings that those who were exposed to two 
of these chemicals in combination, they had much higher risk, 
like fivefold risk, over those that had exposure to one of 
them. So there appears to be an important synergistic effect 
between different chemicals.
    Mr. Sanders. I just want to say I am very impressed by what 
you are saying, and what you just said, the synergistic effect, 
it's one thing to say exposure to one chemical; mix them all 
up, inoculate people, God knows what is happening. Is that what 
you are saying?
    Dr. Haley. Yes. We have epidemiologic evidence, numerical 
evidence with P values, statistical testing, that shows that 
combinations have synergistic, much more higher effect, more 
higher risk of the syndromes. Once we had indication this was 
true, we then undertook a series of animal studies to try to 
show the biological plausibility of what we found, because this 
might have been only a statistical finding. It might not be 
biologically true. So we contracted with a laboratory at Duke, 
Dr. Abidania, whose studies I believe you reviewed before, we 
contracted with him to carry out some studies that we designed 
to take these same chemicals that we found to be synergistic in 
the troops, to test these in hens. And he found, as he's 
testified before, that if you give any one of these agents to 
hens, which is the preferred animal model, you won't have a 
problem. But if you give two of them you get mild nerve and 
brain damage, and if you give three of them, you get severe 
brain and nerve damage and the type of brain damage is 
important. It's a type of brain damage called OPIDP. Now, this 
acronym is very important and has not been introduced into this 
discussion in a serious way before. It stands for 
organophosphate induced delayed polyneuropathy. OPIDP. Now, 
that's what we found in the hens. So we believe the compounds 
acting synergistically, and pyridostigmine of course is one of 
these, in combination produce OPIDP, and which is mild 
generalized brain stem, spinal cord and peripheral nerve 
damage.
    Now, let me make several other points which I think are 
important for explaining a lot of confusion that's been going 
on over the last several years. First of all, after we have----
    Mr. Shays. Could I interrupt you for a second? We have been 
joined by Michael Pappas who is a new Member from New Jersey, 
and it's wonderful to have you. We're not following the regular 
order, we're just stepping in sometimes due to the fact that 
Dr. Haley will be leaving in 10 or 15 minutes at the most. And 
I want to ask you, Dr. Haley, are you in a particular field 
that is considered kind of orphan in the sense that there 
aren't many who are involved in this, that it's not a main 
field of study for practitioners?
    Dr. Haley. No, I don't think that's the case. I am an 
epidemiologist and an internist, and I have working on my team 
a toxicologist, like Dr. Kizer, very similar credentials, and a 
neuropsychologist, because we think it's a multidisciplinary 
problem. And we think our insights, we obtained the insights 
that were the source of this paper while sitting in that NIH 
conference.
    Mr. Shays. I know you give credit to the VA, and I 
appreciate that, because that's important.
    Dr. Haley. There was a whole set of data----
    Mr. Shays. But I am wondering who is listening to you.
    Dr. Haley. Well, our papers were just published last week, 
and we expect there will be conclusion for the next month or 2 
months and then there will be understanding, and these are very 
complex issues.
    Mr. Shays. Now, in your study, you had 249 people in your 
study. One of the areas you've been criticized that you didn't 
have a large enough population.
    Dr. Haley. Right, if you look back at the studies that have 
solved the great disease mysteries of the last 25 years, 
Legionnaires' disease, toxic shock syndrome, AIDS, hantavirus, 
all of the studies that have solved these are taken a smaller 
group of people and compared the sick and the well, and that's 
you solve this----
    Mr. Shays. We haven't solved any of those problems, so what 
do you mean solved?
    Dr. Haley. No, all of those have been solved. The cause has 
been determined and----
    Mr. Shays. So solve in the sense of----
    Dr. Haley. Understand the nature and the cause, what the 
disease is and what the causes are so you can then take control 
measures. All of those----
    Mr. Shays. Right, you haven't solved in terms of the 
control measures----
    Mr. Sanders. Let me jump in and pick up on the point the 
chairman made. I think that the testimony you are offering is 
of enormous consequence, and maybe just paraphrasing the 
chairman here, I hope it doesn't get lost in the intellect. 
Now, would it be--I would expect that you would be sitting down 
with the VA and the DOD to figure out how we build on the work 
that you've done. I presume you want to continue this very 
important line of research. Has that process begun?
    Dr. Haley. Yes. I have an appointment February 4th with the 
VA Scientific Advisory Committee with a fairly large chunk of 
time to go over this and in the meantime they will have had a 
chance to read and study this.
    Mr. Shays. Is that process open to the public?
    Dr. Haley. Is it?
    Mr. Shays. Yes. I would just like someone from our 
committee to sit in and witness that. I think that would be 
instructive.
    Mr. Sanders. So you think you are getting a good hearing.
    Dr. Haley. Oh, yes. I think the scientific process has been 
muddling around and it seems like cover-ups and so forth. This 
is the way science works when we're dealing with an enormously 
complex problem. But it builds on itself one step at a time, 
and the NIH conference, our work, the work from Iowa, all of 
this builds and there will be another round of studies and 
pretty soon I think we will have a general consensus of what 
this is and what to do about it. I am very confident of that. 
If I could, let me make a couple of points----
    Mr. Shays. I am going to let you make them, but I just want 
to make sure you touch the role of stress.
    Dr. Haley. That was my next point. We did very thorough 
psychological testing on the 249, and then we brought the cases 
and controls and we did even more psychological testing. We 
found no evidence that the veterans had post-traumatic stress 
disorder, none, zero. We found no evidence that combat stress, 
the ones that had high levels of combat stress had the same 
risk of the syndrome as those with low levels of stress. So we 
don't believe stress is a cause of this unless in a different 
sense. Stress at the moments of chemical weapons attack might 
have opened up the blood-brain barrier, as an Israeli study has 
recently suggested might be true. However, we have already been 
following that line and we don't think it's as simple as that 
study pointed out. We have evidence we don't think the blood-
brain barrier opened, we think something else happened.
    But in addition, we brought in a group of physicians, 
neurologists, Dr. Kizer alluded to that this morning. After we 
already got all this evidence and we knew what was going on, I 
brought some neurologists in to look at these veterans one at a 
time, all 43 of the ones we had done the cases and controls, 
and they didn't know who was who and they didn't know the 
information, except they had all the clinical and laboratory 
information on each veteran. They looked at them one at a time. 
They were absolutely unable to make a diagnosis. Even when they 
had all that neurologic physiological data, the clinical data, 
everything, but after they went over each one and were unable 
to make a diagnosis of anything in these people, we then broke 
the code and I showed them the group data and they said yes, 
this group has neurotoxicity compared to the controls.
    Mr. Shays. Were they inclined to diagnose stress from that?
    Dr. Haley. No. They said the guys have what look like 
nonspecific problems, maybe there's something going on but we 
can't make a medical diagnosis. That is an enormously complex 
issue. I don't think the interpretation was quite right. That 
doesn't show that the neurological tests were invalid. What it 
shows is there was a limitation with normal medical diagnosis. 
You cannot diagnose these neurotoxic problems that are subtle 
like this with a history, physical, routine lab work. Even with 
complicated neuro-physiological tests, when you look at 
veterans one at a time, and that's why I think the CCEP looked 
at 38,000 veterans and couldn't make a diagnosis, because they 
looked at 38,000 veterans one at a time and they had no control 
group.
    You see, that doesn't mean that what they were doing was 
wrong and not smart, it's just, it was a different way of 
looking at it. They went to that road which often solves 
problems, but it just didn't. This is a much more complex 
problem and it gives us great problem right now in what are we 
going to do. Now that we know there's a problem, how do we 
screen for them. And that's what we're going to in our next 
study is try to look, and others are looking at this, how to 
screen so that you can tell an individual veteran has it.
    Mr. Sanders. Let me ask you this question. How do you treat 
it? If what you are saying is right, how do you treat it?
    Dr. Haley. Right, if this is brain damage and we are 
convinced at least in this unit that this is brain damage from 
these chemical exposures, you can't fix brain damage. Brain 
damage is permanent. Nerves do not regenerate. It will get 
better over a short period of time, but once it's stable it's 
there forever. However, we can't cure diabetes, we can't cure 
coronary heart disease, really. What we can do, we can look at 
each of these symptoms, develop medications, rehab strategies, 
counseling, whatever, and address each of the symptoms.
    Now, let me say, this is a tough ball game and for every 
valid researcher, this is trying to come up with a treatment 
that will work and test it scientifically, there are five 
charlatans out there who are putting people in sweatboxes and 
doing all kind of bizarre things, I mean bizarre things, with 
no hint of an idea or desire to prove any of this works. They 
are just making money. And I've seen terrible things done to 
some of the veterans we've studied for $10,000. They were 
offered a treatment and all it turns out to be is diet pills, 
and it's very disturbing to see the charlatanism going on out 
there, and you as the committee, respectfully, let me say, must 
be careful not to contribute to the charlatanism out there.
    Mr. Sanders. Let me ask you, something, Doctor. Is this--in 
your judgment is multiple chemical sensitivity a reasonable 
diagnosis?
    Dr. Haley. Absolutely not. Let me say, people with multiple 
chemical sensitivities, many of them have similar neurological, 
neurotoxicologic syndromes, and they are--as I see it, there 
are sort of two groups out there with MCS, working in the MCS 
area. There are charlatans, which are most of them, and there's 
a small group of neurologists who are treating these people and 
finding some valid neurological things that they are 
approaching scientifically, but this is a small group and not 
most of them.
    Mr. Sanders. Give me some evidence about----
    Dr. Haley. I could define a perpetrating--a treatment that 
has no scientific rationale and then refusing to do a 
scientific--double blind study to prove whether it works or not 
and even avoiding doing that. And what is that? Are we that 
against the veterans?
    Mr. Sanders. There are some people who disagree with your 
statement.
    Dr. Haley. The deciding factor is, are they doing a trial 
as a clinical trial? When the VA offers a chemical 
methodological expert to help them design a clinical trial, do 
they go off and change the subject? That is what is happening.
    Mr. Shays. Let me ask Dr. Schwartz.
    Dr. Schwartz, we are going to have you give your testimony 
afterwards, but I would like your response to what Dr. Haley 
said. Dr. Haley, you had another point you wanted to make.
    Dr. Haley. One more point.
    Mr. Shays. I want you to sit here while Dr. Schwartz 
responds.
    Dr. Haley. Right. The question is, can it leave low-level 
brain damage when they don't produce immediate symptoms? The 
answer is, definitely yes, and there is information. It is very 
clear, but a lot of it has not been introduced.
    Mr. Shays. What is the question again?
    Dr. Haley. Can it leave low-level brain damage in the 
absence? Yes. But the answer is very complex. We had unraveled 
this in a paper that I would encourage you to read. We have 
reference here that is the way it works. It is a trick, it is a 
conundrum, that has not been understood yet.
    There are two enzymes in the brain and nervous tissue that 
are destroyed by chemicals or nerve gas and pesticides and so 
forth. One of them is cholinesterase in the system. Another one 
is called neurotoxicesterase, abbreviated NTE. It is another 
enzyme. Cholinesterase on the battlefield or pesticide in a 
field, it binds to your cholinesterase. You are paralyzed, and 
you can even have seizures. You can recover; then you might 
have brain damage because of the seizures.
    So this can lead to brain damage, but only after you are 
overcome and have severe brain seizures and damage as a result. 
That is what the military has been talking about. Since there 
were no seizures, no people overcome, we couldn't have brain 
damage by the cholinesterase system.
    However, nobody has talked about NTE. There is a--there are 
hundreds of articles of toxicologic literature about NTE since 
a big epidemic in the 1930's, then in the 1970's. This was 
understood, and there is a huge body of literature on it. When 
these chemicals get into your nervous system, this can also 
bind to NTE. That causes no symptoms immediately, but over the 
succeeding weeks or months, the union or the complex between 
the organophosphate and the NTE will disintegrate, will 
decompose into a toxic by-product which, 6 weeks later, will 
diffuse into the nerves and damage the axon. That then causes 
mild, creeping evidence of brain damage which can continue to 
get worse for months. That is what happened here.
    Dr. Duffy pointed out that this type of thing can happen 
with low-level chemical nerve agents without acute symptoms.
    And let me point out two articles by Hussein, a researcher 
in India who in 1993 and 1995 did experiments with mice first, 
then hens, in which you treated them daily for 10 days with 
low-level doses of Sarin which would not produce acute effects. 
And he found that on the 14th day they started developing a 
progressive neurological injury. And when they sacrificed 
animals, looked at the brains, they had OPID. They noticed NTE 
induced, long term, no acute symptoms.
    Mr. Shays. Would you define ``NTE'' again.
    Dr. Haley. Neuropathy Target Esterase. Neuropathy Target 
Esterase. We reference these in the third--I have copies of the 
paper, and it is referenced in numerous articles too.
    Mr. Shays. Do you have the ability--why can't you cure 
nerve damage or brain damage? Can you slow the deterioration? 
And if you discover it soon enough, can you literally prevent 
it from getting worse?
    Dr. Haley. No. Once it happens, progresses for a number of 
weeks or months, then it levels off. But then as people age, we 
normally--we who are over 50, we lose neurons normally.
    As you lose neurons, you unmask damage, you have less 
reserve capacity, so as you age, we expect the symptoms to 
become exaggerated, and we found in our study the older 
veterans were more likely to receive severe damage than the 
younger brain reserve capacity.
    Let me make one other point here.
    Mr. Shays. Then I am going to ask Dr. Schwartz to comment 
while you are still here.
    Dr. Haley. The NTE system that is acute leads this subtle, 
creeping brain damage over months, and these are separate; 
either one can occur without the other.
    Now, pyridostigmine is a class of drugs that is protected 
from both cholinesterase damage--and NTE mediated before the 
exposure because it latches, protects them; the bad chemical 
can't get on it.
    December 1990, a month before the war actually broke out, a 
researcher, Kerry Pope and Stephanie Padilla, presented a paper 
at a national meeting. Protective agents, after the exposure to 
it, may make the brain damage worse. Through the NTE system--
not cholinesterase, the NTE system it can make that worse.
    What you have got is, if soldiers continue to take it after 
exposure, this model would suggest it might convert a minimal--
it might take an exposure to a nerve agent that was too low to 
produce brain damage by NTE and would amplify into something 
that would produce brain damage.
    It appears to be through these mechanisms that the 
pyridostigmine would protect you, if given first, from dying on 
the battlefield. But if you continue taking it by amplifying 
the effects through NTE and cause brain damage, unravels all of 
these riddles about, can low levels cause it without causing 
acute symptoms?
    Why does pyridostigmine protect you, and how can the Haley 
Study say it causes damage? It acted synergistically because 
you can't understand it unless you understand the two different 
systems. Then this becomes all clear, and that is what we 
found.
    Mr. Shays. Dr. Schwartz, why don't you make a comment on 
what you found? I appreciate your patience.
    Dr. Schwartz. I have a few comments.
    First, I would like to congratulate Dr. Haley. I think Dr. 
Haley's contribution to the group is substantial in advancing 
the field. However, I don't share the degree of definitiveness 
that Dr. Haley has regarding these particular findings.
    I think you are going to have to bear in mind that this 
represents a highly selected population; 41 percent of the 
individuals within these Guard groups participated in this 
study, and a very small percentage of the individuals had these 
syndromes within those who were symptomatic.
    Another very important item to keep in mind--limitation to 
keep in mind, is that the exposures are all self-reported. So 
in looking at the relationship between these exposures and the 
syndromes, even though the differences were somewhat different 
from one exposure to the next and they lead to a very nice 
hypothesis, I think that hypothesis and that series of 
observations would be worth testing in another population to be 
more certain of the findings.
    Another, I think, very important observation in Dr. Haley's 
study is, if I read it correctly, 63 out of 100 or so, there 
were 21----
    Dr. Haley. 249.
    Dr. Schwartz [continuing]. 249 individuals came in for 
exams; 179 of them were symptomatic. Of the 179 that were 
symptomatic, 63 were found to have syndromes. So the majority 
of the individuals who were symptomatic turned out not to have 
a syndrome.
    It is important to recognize that those problems that 
individuals--that the Persian Gulf veterans have may be related 
to their serving in the Persian Gulf; it may be related to 
certain exposures but don't fit into one of the syndromes.
    Mr. Shays. Is that basically the concept of not everybody 
is going to be bothered by the rug?
    Dr. Schwartz. No. Some people may be bothered, but they may 
be bothered in ways that are recognized as other diseases. Some 
people may be bothered by the rug by developing symptoms of 
neurotoxicity. So I think that there are different 
manifestations potentially of the same exposure.
    I guess the third limitation that I just want to address 
is, the potential issue of other exposures, other occupational 
exposures, after the war and other social exposures, like 
alcohol, were not taken into account that I actually saw in the 
study. So those are other issues, other confounders, other 
exposures, that may result in some neurotoxicity that I think 
need to be addressed in a more definitive study.
    Mr. Shays. In just a moment, Dr. Haley, we are going to 
have someone walk you through the tunnel.
    Dr. Haley. There is a lot of confusion about this. Some of 
these points are excellent, some--let me respond. The 
selectiveness--I heard this from a number of groups--that 41 
percent of the battalion showed up to participate. However, we 
didn't stop there. In many studies, that is a problem.
    We then did a background survey on the nonrespondents, the 
nonparticipants, and we found that in fact the participants and 
nonparticipants were identical on age, sex, race, job title--in 
the Gulf war--rank, and so forth. The only thing they differed 
on was that the participants were about twice as likely to say 
that they had been seriously ill since the war, but only twice 
as likely. It wasn't all the guys who showed up were sick and 
all the others weren't. We believe this shows that the 
selectivity is a minor issue.
    Second, on selectivity, if one were to posit that 
selectivity were the cause of these associations with the 
chemical exposures and the neurological brain damage, 
selectivity with relative risks of 4 to 78, there can't be 
enough selectivity to produce that. I have gotten that 
comparability in the cases of control. So that doesn't explain 
our findings.
    Third, there are self-reported risk factors--a very 
important consideration. Originally we asked them--all the 
exposures that were being equally pointed out in the press--and 
only chemical ones were highly associated; the others were not 
associated. We published all of those findings so people could 
look to see the chemical exposure. Selective recall and recall 
doesn't work that way. So we don't believe that is an 
explanation. We believe we need to test these findings.
    Mr. Shays. I get really the gist. I think the point that 
Dr. Schwartz was trying to say is, he saw me get so excited and 
he wanted----
    Dr. Haley. Sure it is another scientific----
    Mr. Shays. I love definitive statements, I love confidence, 
I love your energy, and I love the fact that you were here.
    Dr. Haley. Thank you.
    [The prepared statement of Dr. Haley follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.175
    
    [GRAPHIC] [TIFF OMITTED] T8711.176
    
    [GRAPHIC] [TIFF OMITTED] T8711.177
    
    [GRAPHIC] [TIFF OMITTED] T8711.178
    
    [GRAPHIC] [TIFF OMITTED] T8711.179
    
    [GRAPHIC] [TIFF OMITTED] T8711.180
    
    [GRAPHIC] [TIFF OMITTED] T8711.181
    
    [GRAPHIC] [TIFF OMITTED] T8711.182
    
    Mr. Shays. Dr. Schwartz, it has been wonderful to get you 
here. We are all done now. We appreciate your accommodating 
your other two colleagues.
    Dr. Schwartz. Our study was held at the Iowa Public Health 
and Centers for Disease Control. The study was primarily 
focused on individuals who listed Iowa as their home of record. 
It involved initially about 29,000 individuals. We selected our 
population from that 29,000 individuals. In the end, 3,700 
individuals of the selected individuals in the study 
participated in the study. This was a classic epidemiologic 
study.
    The purpose of this epidemiological study was first to try 
to identify the playing field. In other words, what are the 
diseases in the Persian Gulf veterans? What are the Persian 
Gulf veterans complaining of in relation to the symptoms that 
non-Persian Gulf veterans are complaining of? Is there a 
difference, and do those differences fit into categories of 
disease?
    The second item we wanted to address, the objective we 
wanted to address in this study, is that we were interested in 
trying to see within the Persian Gulf population where those in 
the regular military had a different expression of disease than 
those in the National Guard and Reserve, because initially 
individuals in the National Guard and Reserve were coming 
forward with increased rates of disease or complaints, and 
there was some concern that the National Guard and Reserve had 
a higher rate of disease for an unknown reason. So we were very 
interested in that comparison as well.
    There are several aspects of our study which clearly 
distinguish the previous studies and lead to the importance of 
the findings. First, this was a population-based study. It 
involved all four branches of the military in the Persian Gulf. 
These individuals were selected in such a way that they 
represented the 29,000 individuals in the larger population, 
and so we could extrapolate back to that group of veterans.
    We also had a control population. Our control population 
was identical to our--similar to the exposed population in 
terms of background demographics--age, rank, gender, type of 
military service, and whether they were enlisted or an officer.
    The third very important point is that our study instrument 
was developed over a 6 month period of time by 30 different 
investigators. The reason that we took a great deal of effort 
in developing this study instrument is that we wanted to make 
sure that the questions that we asked and the disease 
categories that we put individuals into were valid disease 
categories.
    So what we did is, we went out and used portions of 
validated questionnaires and incorporated that into our 
questionnaire. So it wasn't simply, ``Are you forgetful?'' but 
it was a series of 10 or 15 questions about memory that had 
been tried and refined by other investigators and found to be 
associated with pathologic evidence of cognitive dysfunction. 
Those are the types of disease categories that we have 
developed. We developed complex algorithms based on other 
investigators' findings.
    The fourth important point of our study is, we used a 
telephone interview. A telephone interview is actually a very 
accurate way of getting a large number of people to 
participate. In fact, of the individuals that we contacted by 
telephone, 91 percent of the individuals participated in this 
study.
    It was hard getting the phone numbers of individuals, so 
overall, we had a 76 percent participation rate. But even a 76 
percent participation rate is very good and assures you that 
the study population is representative of all eligible for the 
study.
    Mr. Shays. 76 of the 3,700?
    Dr. Schwartz. We selected approximately 4,600 eligible 
study subjects for this investigation, and 3,700 ended up 
participating in the telephone survey.
    So our results are really very different than what you have 
heard before. We focused on major disease categories like 
cognitive dysfunction, depression, respiratory diseases. We did 
that on the basis of literature that had been presented at the 
NIH consensus conference and also had developed since the NIH 
consensus conference.
    Our major findings, when you compare the Persian Gulf 
veterans to the non-Persian Gulf veterans: 11 percent increase; 
6 percent increase in depression; 3 percent increase in anxiety 
disorder; 2 percent increase in alcohol abuse, bronchitis and 
asthma; and 1 percent increase in posttraumatic stress disorder 
and chronic fatigue.
    The reason we decided to express this in terms of this 
particular disease is--so, in other words, in the population of 
Persian Gulf veterans, if chronic fatigue occurs in a 
background population, a base line population of about 1 
percent, then an excess 1 percent of Persian Gulf veterans 
would have chronic fatigue, it tells you that approximately 
7,000 individuals would have chronic fatigue of those that went 
over to the Persian Gulf.
    If you expressed it in terms of risk ratio, for instance, 
it could give very different results for chronic fatigue. We 
said there was a 1 percent increase in chronic fatigue, but if 
you express it in terms of 4.3-fold excess risk of developing 
chronic fatigue, that is a major increase even though it is a 
small percentage.
    Another very important finding from our study is that there 
were several things we found not associated with going over to 
the Persian Gulf and things that were particularly publicized 
as being related, which addresses this issue, this potential 
issue of recall bias. Skin lesions, aplastic injuries, were not 
related to having been over in the Persian Gulf.
    If we look at the five major disease categories, 64 percent 
of the Persian Gulf population was entirely asymptomatic, 
without any one of those five diseases; 21 percent only had one 
of those--symptoms of one of those diseases, and 15 percent had 
symptoms of two or more of those diseases.
    The reason that I bring those up, of those that are 
symptomatic, most of those fall in one disease category 
classification.
    The second important finding from our study was that 
service in the Gulf. We looked at measures of functional 
health: How do people function at home and at work? We found 
that service in the Gulf and having one of those diseases that 
I mentioned--the symptoms of one of those diseases, resulted in 
decreased self-reported functioning at home and at work.
    So not only were these individuals symptomatic but they 
didn't think they were functioning well at home or at work, 
which I think gets into a major concern of the veterans, how 
well they are doing in terms of their daily activities.
    A third important finding is that we didn't find very many 
differences----
    Mr. Shays. Would that also be a factor in how they might 
have an inability to articulate their case?
    Dr. Schwartz. Absolutely. I think the cognitive dysfunction 
would be another problem in terms of them effectively 
articulating their case. It does involve that as well as 
memory.
    A third important finding is that, different than previous 
studies, we found very little differences between the regular 
military and the National Guard and Reserves, suggesting that 
the type of military service didn't really affect the 
development of these symptoms.
    So why are our findings important? Our findings, I think, 
are important because in a very controlled study we clearly 
document that Persian Gulf veterans are reporting more medical 
and more psychiatric conditions than an appropriate control 
population.
    We also have identified some very well defined medical and 
psychiatric conditions that are being reported more frequently 
in this population. I think an important take-home message for 
physicians caring for these individuals is that many of these 
individuals will present with diseases that other patients 
present with that didn't go to the Persian Gulf that we have 
treatment for, like depression, asthma, bronchitis, 
fibromyalgia.
    I think that is an important take-home message, that not 
all individuals who are Persian Gulf veterans who have medical 
problems need necessarily to be referred to specialty centers. 
Many of the people are being cared for by their local VA 
hospital or local physician.
    A second important finding was that the medical and 
psychiatric conditions, as I said, appear to have a measurable 
impact in terms of their daily functioning. And the third 
finding was that National Guard and Reserve didn't differ from 
the regular military in terms of the manifestation of 
symptomatology.
    I think that this study is important because it takes a 
first fundamental step in establishing what are the medical and 
psychiatric concerns among the Persian Gulf veterans. What it 
does is, it provides a road map for us to begin to look more 
carefully at these particular medical and psychiatric 
conditions with more objective tests, both clinical tests as 
well as laboratory tests, directed at these specific 
conditions.
    A shortcoming of our study is this issue that we relied 
solely on self-report. I think self-report is important in 
identifying what the problems are, what the potential problems 
are, but the next step has to be objectifying those problems.
    Another shortcoming of our study and shortcoming of all the 
Persian Gulf studies that we have seen so far, and something 
that you might have influence in, is that minority populations 
and women have not been studied specifically to see if those 
individuals have different risks than white males who went to 
the Persian Gulf. I think this is a very important area of 
investigation that needs to be pursued.
    If I had to make one other suggestion in terms of future 
followup studies, a longitudinal study to look to see what 
happens to those individuals over time is critical, because all 
we have done is, we have taken a snapshot of the population. We 
know what is going on with them 5 years after the Gulf war. We 
don't know how that is going to change over a period of time 
and how that is going to impact on their lives.
    Thank you for your attention.
    [The prepared statement of Dr. Schwartz follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.183
    
    [GRAPHIC] [TIFF OMITTED] T8711.184
    
    [GRAPHIC] [TIFF OMITTED] T8711.185
    
    [GRAPHIC] [TIFF OMITTED] T8711.186
    
    [GRAPHIC] [TIFF OMITTED] T8711.187
    
    [GRAPHIC] [TIFF OMITTED] T8711.188
    
    Mr. Shays. Thank you, Doctor.
    What is your reaction when you heard of studies that have 
been in the news that have said there is really no difference 
between those who served in the Gulf and those who didn't serve 
in the Gulf?
    Tell me first off, when did you, again, conduct this study? 
What timeframe to what timeframe?
    Dr. Schwartz. We started the study in December 1994. The 
questionnaire was administered from September 1995 to May 1995. 
So fairly recently.
    Mr. Shays. So you are not using pre-1993 data basically?
    Dr. Schwartz. I am sorry, September 1995 to May 1996. I 
apologize.
    Mr. Shays. This was basically all telephone conversation 
interviews?
    Dr. Schwartz. This is all telephone conversation interviews 
in terms of whether they are currently having a problem. So we 
didn't ask them whether they had a problem immediately after 
the war or whether the problem developed and went away. We were 
interested to find out whether they currently had the problem.
    Mr. Shays. Now the critics would say you didn't see these 
individuals so you don't know whether they are well or not 
well.
    Dr. Schwartz. Yes, that is absolutely a valid criticism of 
the study, that we have self-reported information.
    I think a rebut to that criticism is that what we found was 
that there wasn't, as Dr. Haley said, an across-the-board 
similar percent increase. That percentage actually differed 
quite a bit from one disease to the next. So for cognitive 
dysfunction there was an 11 percent increase, for asthma and 
bronchitis there was a 2 percent increase, and for injuries and 
skin lesions there was no increase at all.
    Mr. Shays. That is interesting. The 11 percent increase, 
that is on a population of those who may have come home from 
the Persian Gulf feeling totally--and maybe not being exposed 
to any.
    But let me back up a second. Your study basically 
determines--I am going to ask it differently. I retract that.
    Tell me why 11 percent is significant, just in your own 
words. Is 30 percent significant? Is a 2 percent increase? What 
other physicians looking at that would say 11 percent is 
significant? Why?
    Dr. Schwartz. Eleven percent is significant because--I am 
just pulling out the table here--in the population that didn't 
go to the Persian Gulf, the prevalence or the frequency of 
cognitive dysfunction was about 9 percent. In the population 
that went to the Gulf, the frequency of cognitive dysfunction 
was 20 percent.
    Mr. Shays. So it is double.
    Dr. Schwartz. It is double. And it is significant because 
11 percent of the Persian Gulf veterans are affected by 
cognitive dysfunction that shouldn't have been affected by 
cognitive dysfunction if they hadn't gone to the Persian Gulf.
    Mr. Shays. Eleven percent more?
    Dr. Schwartz. Eleven percent total of the Persian Gulf 
veterans.
    Mr. Shays. Compared to the population that didn't go to the 
Persian Gulf?
    Dr. Schwartz. Correct.
    Mr. Shays. To my mind, that is double. You add 9, then went 
to 20.
    Dr. Schwartz. That is right. The reason that we expressed 
it as a percentage was that approximately 700,000 individuals 
went to the Gulf, so if we say 11 percent of them develop 
cognitive dysfunction in excess from going to the Gulf, that is 
77,000 individuals.
    Mr. Shays. And your determination as to the cause is not 
part of the study?
    Dr. Schwartz. No. We did look at the relationship between 
self-reported exposures and the relevance of specific outcomes, 
and we found that many of the exposures were related to many of 
the outcomes. And I think that one important point related----
    Mr. Shays. Back up to make sure I understand. In those that 
were feeling symptoms, their position was that they had been 
exposed?
    Dr. Schwartz. Yes, yes. And they had been exposed to a 
variety of agents. So for depression they had--they said that 
they were exposed to more smoke from oil fires, more radiation 
from nonionizing and ionizing forms of radiation, a variety of 
different exposures that may be related to the outcome, but 
given the fact that many of these exposures were related to the 
outcome, it makes the exposure response relationship less 
believable.
    But an important point regarding this exposure information 
is that we collected it in 1995 to 1996, and we are asking 
people to recall exposures that took place between 1990 and 
1991. That is much less reliable than asking them to recall 
health information about the last month. So I believe the 
health information much more than I do the exposures, and 
looking at the exposure response relationship, I think it is 
difficult.
    And one of the points that was made in a recent conference 
that I was at was that it may be very difficult for us to 
identify specifically what is causing this problem in the 
veterans, or these series of problems. I think even if we can't 
identify what is causing the problems, we need to take the next 
step and define what the problems are much more objectively and 
try to figure out how to treat these individuals, as Mr. 
Sanders was saying before.
    Mr. Shays. How much did stress play into this issue? I 
asked Dr. Haley the same thing. You can't diagnose that, can 
you?
    Dr. Schwartz. We asked questions about stress related to 
their experience in the Persian Gulf, and we derived measures 
of stress from whether they were in combat, whether they had 
hand-to-hand combat, whether they were exposed to gunfire, 
whether they were exposed to Scud missile attacks. So we based 
our index of stress on those items. We found that stress was 
related to a number of the outcomes.
    Interestingly, we found that stress was not related to 
depression. I don't know to what extent stress is playing a 
role here.
    Mr. Shays. Fair enough. Mr. Pappas would like to ask some 
questions, and we would be honored to have you ask questions.
    Mr. Pappas. Thank you, Mr. Chairman. I apologize for 
arriving late.
    Mr. Shays. You don't need to apologize. It is great to have 
you here. Thank you.
    Mr. Pappas. Doctor, maybe this is beyond the scope of your 
study, but just last week I had read an article where there was 
a gentleman who recently committed suicide that, at least 
according to this article, comments from members of his family 
were prompted by some of the symptoms that I have heard spoken 
about here today.
    Have you encountered--in your study dealing with these 
servicemen and women, have you encountered that in other 
instances that you might think would be the higher percentage 
than average population?
    Dr. Schwartz. Yes. In terms of suicide risk, we looked at 
major depression, and we used a very rigorous approach to 
looking at major depression, and I believe that we found that 
the Persian Gulf veterans had a 4 percent higher prevalence of 
major depression than non-Persian Gulf veterans. I would concur 
with that.
    I would also say that that underscores the importance of 
therapeutic intervention by physicians that are capable of 
taking care of individuals who are depressed.
    Mr. Pappas. Have you dealt with any other veteran 
populations that may not necessarily have been engaged in this 
conflict but in other conflicts, or have you read of any other 
records that would, in order to compare this particular 
population with others and their suicidal rate----
    Dr. Schwartz. Yes.
    Mr. Pappas [continuing]. Or just their ability to cope with 
the symptoms that they may have a reaction to either chemical 
agents that they may have encountered or just the experience?
    Dr. Schwartz. Not in terms of suicide rate. However, Dr. 
Hyams, who may have testified before this committee, wrote an 
excellent article that was published about 6 months ago looking 
at symptoms after a number of different wars--the Civil War, 
World War I, II, Vietnam war, Korean war--and looked at 
similarity of symptoms among the veterans from those wars. And 
the conclusion from that article was that stress played a major 
role in terms of the development of those similar series of 
symptoms.
    Mr. Pappas. Thank you.
    Mr. Shays. Doctor, we are going to go to the next panel, 
but if you would like to make some closing comment, we would 
love to hear from you.
    Dr. Schwartz. I think the--I would just say that there are 
two areas that I want to comment on. First, the lion's share of 
the veterans that have symptoms or medical problems related to 
the Persian Gulf war have very clear, well-defined medical and 
psychiatric conditions that are no mystery to any good 
clinician. And clinicians need to be encouraged to take care of 
those individuals and treat them as they would any other 
patient.
    Another very important next step is not only to look at new 
therapies but to begin to very carefully understand how these 
symptoms translate into objective evidence of disease, both 
laboratory and clinical evidence of disease. And we really 
haven't taken that next step yet.
    Mr. Shays. I appreciate your entire testimony; again, your 
willingness to be third on the list and to listen to the others 
testify. I am grateful that you came.
    I will also say, and then I will yield to my colleague, Mr. 
Sanders, for some of us who have heard veterans for years tell 
us that they are ill and no one is listening, it has been very 
discouraging to have official reports come out saying that 
there is no documentation that our veterans are sicker than 
anyone else. Then we find out that the studies have serious 
flaws in terms of data and conclusions and so on. Then to at 
least have someone like yourself say, hey, wait a second; we 
are coming from a different direction, and we do see that our 
veterans haven't been lying to us, has been very important.
    Mr. Sanders. I just want to concur in your findings. Thank 
you very much.
    Mr. Shays. We are going to end this hearing, and we usually 
have our veterans come first, so I would appreciate our 
veterans coming last to accommodate the others who testified.
    We have Chris Kornkven a Gulf war veteran who lives in 
Watertown, WI; we have James Brown, a Gulf war veteran from 
Hannibal, MO; and James Green, a Gulf war veteran from 
Fishertown, PA.
    Welcome, all of you. If you would remain standing, I will 
swear you in.
    We have James Green to my far right; James Brown in the 
middle; and, Chris Kornkven, you are on my left.
    [Witnesses sworn.]
    Mr. Shays. For the record, all three of our veterans have 
answered in the affirmative.
    We will begin, I think, with Mr. Kornkven. We will go from 
my left to my right, and say that you can testify in any way 
that you want. I will be happy to have you respond to what you 
heard earlier, and just let you know that you have time to say 
what you need to say.

    STATEMENTS OF CHRIS KORNKVEN, PERSIAN GULF WAR VETERAN, 
WATERTOWN, WI; JAMES BROWN, PERSIAN GULF WAR VETERAN, HANNIBAL, 
          MO; AND JAMES GREEN, VETERAN, FISHERTOWN, PA

    Mr. Kornkven. Thank you, sir. On behalf of my family, Gulf 
war veterans, and the National Gulf War Resource Center, I 
would like to thank the chairman and the members of this 
committee for inviting me to provide this testimony today.
    My name is Chris Kornkven. I was a Reservist who was 
activated and served in the Persian Gulf from 8 February 1991, 
until 5 August 1991, with the 304th Combat Support Company, an 
Echelon Above Corps unit. My duty, officially, was as a field 
radio inspector. Unofficially, I was a combat lifesaver in 
charge of my unit's medical requirements. While still in the 
Gulf, I began experiencing symptoms that continue to this day. 
After hearing of many fellow veterans suffering from the same 
symptoms, I began trying to recall when I first noticed these 
problems, and believe they started in March or April 1991.
    In keeping a diary while in the Gulf, I remembered I had 
difficulty in remembering significant events that happened 2 
and 3 days prior. I remembered my knees and shoulders being 
especially painful after the slightest exertion, and that 
fatigue stayed with me constantly. I believed these were a 
result of the conditions I was in and they would improve with 
rest.
    I began seeking treatment from the Oklahoma City VAMC in 
1992 when the symptoms continued and worsened and when I heard 
many other Gulf war veterans were having the same problems. I 
was having intestinal problems; the fatigue was getting much 
worse, as was my memory. I still believed the pain in my joints 
was from something else and the headaches would eventually go 
away. After some initial consultations, I was referred to the 
mental health clinic, although I was not told why. Eventually I 
was told I may have posttraumatic stress disorder and I would 
be tested and possibly be followed with counseling. Several 
weeks passed with no other medical testing or treatment. I 
began asking questions in the mental health clinic when any 
appointment would take place and was told they were too booked 
up to get me in any time soon. It was suggested I go to the Vet 
Center for any counseling. At this point, much of the medical 
testing or treatment had stopped, with emphasis placed on PTSD 
and possible treatment in the mental health clinic.
    In May 1994, I became upset with no physical testing or 
treatment taking place. I waited in the emergency clinic over 6 
hours and finally got to see a nurse. It appeared she would 
exhibit the same attitude of indifference and dismissal, so I 
told her I wouldn't leave until each of the medical problems 
were documented. At one point she left the room, saying she had 
to consult with the Persian Gulf veterans doctor. This was the 
first I had heard there was one. When she returned, she said 
they were referring me to the Houston VA Gulf War Veterans 
Referral Center because they could not figure out what was 
wrong with me.
    During this period and after, the testing or treatment 
improved somewhat, with the following items having been 
discovered or reported to the VA: I have reported blinding 
headaches for more than a year, with only offers of aspirin. 
Eventually an MRI was reluctantly performed in which a nasal 
mass was discovered. There has been absolutely no treatment to 
date; I have reported memory loss since returning from the 
Gulf. This has been dismissed as a result of stress, with no 
other attempts at finding the cause or other treatment. Many 
times I have been told it is from PTSD, but when I try to 
explain how bad the problem is, it is dismissed. Tests for 
memory loss usually consist of being told a few words, then 
being asked to repeat them after a few minutes; I have reported 
skin problems since returning. After a sample was taken of the 
many brown spots that have been appearing, I was told, ``It's 
not skin cancer yet,'' and I could ``come back as needed.'' A 
single examination has been performed of the rashes on my legs 
so long ago, I cannot remember the date. There has been no 
further treatment to date; I have reported problems breathing 
and have had instances of pneumonia and of bronchitis since 
returning. I have been questioned by VA doctors about whether I 
have ever had surgery on my chest, with no explanation. Other 
than antibiotics for the pneumonia or bronchitis, the only 
other attempts at treatment have been frequent chest x-rays; I 
have reported intestinal problems, to include diarrhea, for 
more than a year before a strange type of bacteria was found. I 
was given a 2-week course of antibiotics in which the symptoms 
receded somewhat.
    When the symptoms returned worse than before, I reported 
this to the VA for more than another year. During this time, I 
also reported having rectal bleeding. I was eventually given an 
appointment, in which the bleeding was dismissed as 
hemorrhoids, after no examination. When the doctor found no 
evidence of hemorrhoids in my medical records, he continued to 
dismiss the problem until I insisted something be done. By the 
time I left Oklahoma months later, a followup still had not 
been performed. This bleeding continues; I have reported joint 
pain for many months and had been given a followup to see a 
rheumatologist in 1994. To date, I have yet to see a 
rheumatologist, even after a congressional request, and the 
joint pain has been dismissed as being fibromyalgia. No 
treatment other than Motrin has been given.
    I have reported my wife and I having a miscarriage in which 
the fetus had to be surgically removed and my semen burning 
her. There have been no attempts at finding the cause, other 
than mysterious questions about sexual diseases asked by some 
doctor from the Houston VAMC. At this time I would like to show 
a picture of my wife and son.
    My wife was always very awake and lively when she woke in 
the morning. Now she has as much trouble as I do with fatigue. 
She also has been diagnosed by a private physician as having 
fibromyalgia. My son, who is 2 years old, has not slept a 
complete night through since being born. He appears to have 
intestinal problems, his stools are very acidic, he is very 
light sensitive, and has the exact same rashes on his legs as I 
do. Other blood and urine samples have shown glaring 
abnormalities, with no attempts to discover the problem. I have 
been told of these abnormalities months after the same was 
taken.
    I requested over several months that a urine test for 
depleted uranium be performed. After many excuses and attempts 
to ignore this, I finally was successful, after requesting 
congressional help.
    After waiting the period needed for the results, I began 
inquiring about them from the chief of staff. Three months went 
by during which I was told they had called the Baltimore 
facility performing the test, left messages, but Baltimore 
would not return their phone calls. I called the Baltimore 
facility, spoke with the doctor overseeing the testing, and had 
him fax me the results.
    During the conversation, I was told I ``had a higher DU 
count than those carrying around fragments in them.'' I was 
also told it was nothing for me to worry about and that I 
probably got it from the drinking water where I live. I believe 
the Environmental Protection Agency would be interested in 
hearing that one.
    I understand DU contamination may cause kidney problems. I 
have been questioning for many months as to whether this may be 
the cause of urine abnormalities, but they have been 
unanswered. I also question if this may cause liver problems, 
and the only response I have ever received is a question of 
whether I have ever had an ultrasound of my stomach since it 
has been painful to the touch since I have returned.
    I have reported chest pains since returning and instances 
of my heart racing as high as 160 beats per minute with no 
activity. After going through tests, with results varying from 
``no problem'' to not being able to start a test due to 
abnormalities shown, I was given an appointment with a 
cardiologist.
    After the initial examination in which problems were 
discovered, I was given a followup. Unfortunately, this 
followup was scheduled for a year after the initial visit. 
Several attempts to correct this were ignored, until once again 
I requested the help of my Congressman. When the appointment 
was held, after a couple of failed attempts, I was told the 
heart problem I was having was due to an abnormal heart valve. 
After many physicals and no heart problems prior to the Gulf, I 
was surprised to hear this. I was also told this type of 
problem was hereditary, nicely avoiding the VA's rating 
guidelines.
    Many types of treatment at this facility consisted of 
providing a quick prescription for whatever the reported 
problem may be. The number of prescriptions that I had been 
given totaled 27 at one point. I began wondering the 
interaction of all of these medications and requested over 
several months, through the chief of staff, an appointment with 
a pharmacist.
    During this appointment, I was told two of the medications 
I was given interacted, causing heart arrythmias and, ``Some 
people have died from it.'' I would like to note that the FDA 
is currently considering removing from the market one of these 
medications.
    To date, my insurance has been billed more than $42,000 for 
these appointments, ranging from a few minutes to half an hour. 
Most were with medical students. I have little wonder why 
claims are denied once a veteran reports having medical 
insurance.
    Due to problems in obtaining treatment, I have contacted 
the Persian Gulf veterans doctor, the patient advocate, the 
assistant chief of staff of ambulatory care, the chief of 
staff, the congressional liaison, and finally the director, all 
of the Oklahoma City VAMC.
    Since problems continued in obtaining treatment or 
appointments, I have contacted six different Members of 
Congress, to include three congressional committees. The 
problems continued with obtaining proper and timely medical 
testing or treatment. During this time, I was given very good 
care in the mental health clinic.
    I then contacted the VA Inspector General's Office, which 
opened an investigation. This resulted in the Inspector 
General's Office requesting a response from the director of the 
Oklahoma City VA. The director provided excuses for each of the 
problems I had identified. After 2 months of waiting for 
results, I called the Inspector General's Office and was told 
they were satisfied with the director's response and refused to 
investigate further.
    I have thought of filing an SF-95 claim for damages with 
the VA but have given up, secure in the knowledge that it would 
end up in months of red tape.
    Throughout this ordeal, an emphasis has been placed on 
posttraumatic stress disorder, with the physical aspect of my 
medical conditions seeming to be ignored, even when clearly 
indicated otherwise. I was very surprised, after submitting a 
claim for service connection for posttraumatic stress disorder, 
that it was denied by the VA. It has since been considered 20 
percent disabling even though all of the other conditions have 
been described as related to PTSD. I will admit freely that 
stress from my service in the Gulf is a part of my condition, 
and possibly many other veterans'. I believe the VA has done a 
very good job in treating PTSD in Gulf war veterans. I also 
believe many veterans are subjected to much more stress by 
trying to navigate the bureaucracy of the Department of 
Veterans Affairs and with worrying how to cope with medical 
conditions that are ignored, all while being unable to work and 
wondering how to feed or house a family.
    All of the conditions I mentioned earlier, with the 
exception of fatigue and PTSD, have been denied service 
connection by the VA. After 45 days of trying to contact Dr. 
Frances Murphy of the VA central office, I finally was able to 
speak with her. I also left messages to speak with Dr. Susan 
Mather, and my calls have never been returned. I wonder if 
heads of other veterans organizations have the same problem.
    During these conversations, I was told the registry would 
be updated with any new diagnoses or findings. I sent a FOIA 
request to the VA for my information and received it. When I 
received it recently, I was horrified to see it only contained 
medical documentation from a single examination from 1993. If I 
would have had my registry examination information to support 
my claim, it may have been allowed previously. Since I and many 
other Gulf war veterans have found the DOD and VA have been 
much less than helpful in outreach to veterans, I have been 
active in forming and working with Gulf war veterans 
organizations in an attempt to help others through this 
bureaucracy and to ensure they receive information that is 
vital to their medical treatment.
    Presently I serve as the president of the National Gulf War 
Resource Center. In my capacity as the president of the 
National Gulf War Resource Center, I have encountered many Gulf 
war veterans whose claims have also been denied. Most have 
fallen outside the 2-year limit that has been imposed by the 
VA.
    I think after 5 years that Gulf war veterans have suffered 
enough. Immediate action is needed to provide proper medical 
testing and treatment of this Nation's veterans.
    I would like to make this next point very clear and 
understandable to the committee. The complete testimony I just 
gave is from me personally, but it could have come from any 
Gulf war veteran in America.
    With that, I offer the following recommendations: The VA 
and DOD should be much more open and willing to communicate 
with established Gulf war veterans organizations.
    An immediate extension of the arbitrary 2-year limit would 
help many thousands of veterans.
    Instructing the Department of Veterans Affairs to follow 
the intentions of Congress in Public Law 103-446, and others, 
would help greatly.
    Instructing the Department of Veterans Affairs to properly 
administer and update the Persian Gulf War Veterans Registry 
will ensure this becomes a truly useful data base for 
researchers and patient care, as was previously reported in the 
Presidential Advisory Committee's final report to the 
President.
    Instructing the Department of Veterans Affairs to improve 
communications with medical care personnel throughout their 
facilities on issues relating to Gulf war veterans.
    An independent oversight commission to oversee the review 
of the 12,000 previously denied claims would ensure the process 
is fair to veterans. The current practice of adjudicating these 
claims at area processing offices removes the veteran, their 
service officer, and possibly their Congressman from the claims 
process. A 96 percent rejection rate is unacceptable.
    Encourage the Department of Defense to seek out and 
interview medical care professionals who were in the Gulf in 
order to receive their insight on what medical conditions they 
witnessed during their service in the Gulf.
    Request a plan of action and oversight from the DOD on 
ensuring medical boards are conducted properly and by 
regulation.
    Request the DOD immediately communicate down to unit 
commanders that veterans will not be retaliated against in any 
way for seeking health care related to service in the Gulf.
    [The prepared statement of Mr. Kornkven follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.189
    
    [GRAPHIC] [TIFF OMITTED] T8711.190
    
    [GRAPHIC] [TIFF OMITTED] T8711.191
    
    [GRAPHIC] [TIFF OMITTED] T8711.192
    
    [GRAPHIC] [TIFF OMITTED] T8711.193
    
    [GRAPHIC] [TIFF OMITTED] T8711.194
    
    [GRAPHIC] [TIFF OMITTED] T8711.195
    
    Mr. Shays. Mr. Kornkven, that is powerful testimony. Thank 
you.
    James Brown. Mr. Brown, I am going to ask you--basically I 
let Mr. Kornkven go about 10 minutes, a little beyond. That is 
the outer limit.
    Mr. Brown. No problem.
    First I wish to give a statement of appreciation to the 
members of this committee for having this hearing and for 
inviting me to testify today. It is through events like this 
that the truth can be told and changes can be made. Due to 
recent statements and news releases made by the Department of 
Defense, Central Intelligence Agency, and Veterans Affairs, 
finally some actions may be forthcoming that will help to save 
lives, which is the highest calling of them all.
    In my testimony I will refer to many events, some recent, 
some historical, but all having a bearing on the state of mind 
of the institutions I have just mentioned. This mentality is 
one of denial, ignorance, and abuse of power given not as a 
right but as a gift.
    The need to defend one's home and family is a basic one. 
However, when the responsibility of that defense is given over 
to another, there is a basic trust passed on which, once 
broken, may never mend. This broken trust is the real, basic 
reason we are here today.
    My name is Jim Brown, and I am 32 years old. I was a U.S. 
Army soldier, rank of specialist E-4, assigned to the 514th 
Maintenance Company, 548th S&S Battalion, 10th Mountain 
Division, Fort Drum, NY, from 9 June 1989 to 10 April 1991. I 
served proudly. My primary job was to fix generators and to run 
the computer system for the shop office and the first sergeant. 
As such, I had an appropriate clearance for sensitive materials 
as well as training.
    The health hazards and exposures that I was--the health 
hazards that I was exposed to are the shots that I received 
before leaving the United States, which were the immune gamma 
globulin, IGG; meningococcal, MGC; typhoid II; botulinum 
toxoid; and anthrax, prior to deployment in the United States 
at the same time.
    The environmental exposures in Saudi Arabia were leaded 
diesel, in vehicles and poured on roads to reduce dust; 
microscopic dust; lack of acclimation from cold to hot extreme; 
drinking highly chlorinated water from a local source; drinking 
chlorinated water from a local source; pesticide-laden living 
environment/compound, cement city; infrequent showers, with 
oil-contaminated local water; sand fleas; sand flies; basic 
unsanitary conditions; leaded fuels used in improperly vented 
interior heaters for tents; work environment, vehicles, parts, 
saturating clothing with oil, et cetera; lack of bottled water 
to remain hydrated; rodents; smoke from waste disposal 
descending over camp; smoke from first oil well fires, started 
12 February 1991.
    Other hazards were fallout from bombed chemical storage/
production facilities; fallout from bombed biological storage/
production facilities; Scud attacks that resulted in chemical 
alarms sounding; DU on task worked on/around and used by 
returning A-10's flying overhead after firing rounds in Iraq, 
trailing dust.
    After my return to the United States, I became increasingly 
more ill. I finally went to the hospital in Fort Jackson, SC, 
on 27 March 1991, and complained of fatigue, sleeplessness, 
inability to concentrate, headaches, rashes, dizziness, 
abdominal pain, blood in my stool and urine, and short-term 
memory loss. Soon after, my wife began having the same 
illnesses.
    The doctors examined me thoroughly and agreed that my 
symptoms were real and that I did have blood in my stool and 
urine. They then told me they could do nothing for me, and even 
though they found physical signs of what could have been 
internal bleeding, I was sent away with no idea what was wrong 
with me, no treatment, and no followup in the near future. This 
was a potentially life-threatening situation. To this day, I 
still occasionally have the same blood in my stool and urine 
and have no idea why.
    After a few months, I received a compassionate reassignment 
to Fort Gordon, GA. During my time there, I progressively 
became worse and tried to be evaluated by the doctors there. I 
had a series of tests done on 2 September 1992, by the doctors 
at Eisenhower Medical Center, and the results showed that I had 
a tendency toward anemia and abnormally high glucose levels. 
The doctors dismissed the findings and told me to go back to 
duty, with, again, no idea what was causing the fainting and 
nausea I constantly experienced.
    On 4 November 1993, I ended up in the Army post's emergency 
room after having passed out standing up while outside doing 
common task training. Nothing strenuous was involved to induce 
this reaction.
    I was taken to the hospital and put in an area far from any 
other patients and left to sit on a curtained-off bed. Soon, 
several doctors pushed into the cramped space and began talking 
excitedly among themselves about toxicology, poisoning, and the 
effects usually seen in victims of it. This was said directly 
about me and my problem.
    They talked about me as if I would not understand the 
jargon, yet I understood all too well that these people were 
connecting an exposure to a toxin to my condition. I sat up to 
look at them and began asking questions that left no doubt that 
I did understand them. The conversations stopped, and all eyes 
turned to me.
    With ``hand in the jar'' looks, the doctors, who now 
numbered about 10, looked suddenly about for somewhere else to 
be. I asked if there was some kind of a problem with 
intelligent patients coming in this hospital and was told to 
lie down and be quiet and wait for another doctor. I asked why 
the change and was again told to be quiet. So I waited. I 
stayed in the hospital for 2 days hooked up to an IV of fluids 
mixed with antibiotics of a type I had not heard of. Since I am 
not a doctor, no surprise there. The surprise came when the 
doctors told me I could leave and I was not to tell anyone that 
I had been given antibiotics at all. Again I asked why. I was 
again told to be quiet.
    When I asked what was wrong with me, I was told it was 
pharyngitis. I asked how they knew so fast, since cultures take 
a little while to be really sure of the microorganism 
responsible. As expected, I was told to leave well enough 
alone, and it seemed to anger the doctor a lot to be put on the 
spot. It seemed to be the trend in the hospital when dealing 
with normal questions about abnormal situations. The nurse that 
had attended most of the ``be quiet'' sessions let me know some 
of what had happened to me. She pointed out that a lot of the 
returning Saudi vets were coming in sick, same symptoms, and 
especially right after the flu shots had been given out on the 
post. She also said that I had gotten mine 2 days before I 
showed up sick. In other words, she was trying to connect the 
flu shot and my seeming reaction to it. The timeframe didn't 
seem very consistent considering--but oh, well.
    After all of this, I was forced out of the military because 
I wanted medical treatment. They sent me home. The assessment 
and diagnosis they gave me was ``benign physical examination; 
stress syndrome.'' In other words, a PTSD.
    The doctors were all worried that I had a toxic shock 
reaction to the shot and that it ``was to be expected in the 
Saudi vets as opposed to healthy folks.'' It seemed that there 
was a lot more to this than I had first thought, especially if 
it was treated as if it were a common thing by the doctors and 
that the doctors were making a connection where they were 
publicly saying there was not one. No surprise there either.
    After looking at the test results from this hospital stay, 
I was seeing a trend of values that were high or low rather 
than normal that the doctors were dismissing yet were cropping 
up in every lab report I had. A pattern was forming.
    After all of this, I was forced out of the military because 
I wanted medical treatment.
    Repeatedly I was denied it and got worse as time went by.
    Eventually I finished my time allowed and transferred to 
the Reserves to finish my 8-year obligation.
    On September 1, 1994, I went to the VA hospital in Augusta, 
GA, for my registry exam. I was already aware of the CCEP 
protocol and the three phases involved since I had access to 
the documentation concerning that. I and other veterans had met 
in support groups we had formed and were sharing information we 
had gathered.
    Prior to coming to the VA, I had done several TV interviews 
with stations in the area. I was known to be outspoken. Since 
there was a large amount of veterans close to the hospital at 
Fort Gordon--two full battalions had been deployed from there 
to Saudi Arabia, and I knew many of the vets who were sick 
there--I thought this would be a good idea to invite a member 
of the media to interview me as I went through the program, to 
let the vets know they had somewhere to go for testing and 
possibly treatment.
    I asked the press representative at the VA if this was OK 
with them. The reaction was not a good one. He felt it was best 
for me to leave it to the professionals and called the reporter 
to tell him what had happened. He informed me that when I tried 
to talk to the press officer, he was told that, ``He and I 
would be forcibly ejected from the hospital grounds,'' if any 
reporter showed up. So we crossed the street and did the 
interview with the hospital in the background.
    When I went back to the hospital after the interview, 
everything seemed to have changed in a very weird way. All of 
the people who would not even look at me before were asking me 
if they could get me things like coffee, and since I was 
accompanied there by my mother, who drove me there since I had 
traveled all night to attend the testing, and assumed they 
would draw a lot of blood, making me unfit to drive home, as 
well as another vet, they also got royal treatment.
    It seemed like things might be turning for the better when 
the other vet noted that he had been followed when going to the 
bathroom. Looking around, my mother noted the same thing 
happening when one of us moved around. We began to test this 
just to knock the paranoia theory down, and, sure enough, every 
time we would move, whenever we moved, the people at the front 
desk would send someone to see where we went.
    I finally surprised one of them and asked what was going 
on. I was told it was for security reasons, to keep the 
reporters out of the hospital. I said that was odd since 
neither I, my mother, or the vet were reporters and the 
interview was already over. She said it was the administrator's 
decision, not hers, and went back to her desk, which means they 
had coordinated with someone in the upper hierarchy, told them 
what was going on, and received instruction.
    After all this happened, I was finally seen by the 
environmental physicians, and which I have to ask this 
committee, does anybody know the actual definition that the VA 
is giving these people as ``environmental physician''? The 
doctors that are seeing the veterans are calling themselves 
this, but from my understanding, this is a discipline that 
these people have absolutely no training in. They are putting a 
name to themselves that they haven't earned, they have no 
diploma, and no right to say. And I wish this committee would 
investigate that fully.
    As I saw the doctor, I filled out the paperwork with care, 
attending to all the formalities I knew of, in order to test 
the system for other vets that may not be as well informed as 
I. I let the physician see the large package of medical files I 
was carrying and asked where he wanted them. He answered, 
``Outside the office.'' I said they would help establish a 
pattern of illness for him. He said that was what he was for. I 
began to see an old pattern forming again I had seen in the 
DOD, which again supports the idea that if DOD says it's 
supposed to be done a certain way, the VA is going to follow 
and tow the line.
    DOD basically has subcontracted the VA to take care of the 
health care for its employees, which are the veterans, and 
that's a conflict of interest all the way around. The VA has an 
innate sense of survivability. It's not going to treat us and 
get rid of its only people that keep it in business. It's going 
to keep us around to make sure that we keep coming back.
    I held on to my copy of the protocol phases and asked him 
to describe the testing he was going to do today. He said it 
would be real extensive, a lot of stuff, and he rattled off the 
basic tests listed on the phase 1 protocol, very simple things. 
I mentioned this and was told it was the very best they have to 
offer and this would be all the VA could do for me, period, 
ever. He said this as I had the protocol papers rolled in my 
hand. I knew better and had proof.
    So after he said this, I asked him again if he would not 
like to increase the testing scope since the tests I had from 
other physicians told a real pattern story. He said no. We 
proceeded through these tests he outlined.
    When he was done with what any first-day medical student 
would have passed over as useless, I showed him the protocol 
sheets with the three phases on them. He turned a very 
interesting shade of white and asked me where exactly did I get 
those from, I was not supposed to have those, and so on. He got 
rather irate then. I showed the three phrases to him and asked 
him what we were going to do now. He stammered something about 
having to go get more papers so he could do tests I requested 
since he only had 25 patients in the office at the time. Phase 
1 consists of only five tests if you include the x-ray. It 
seemed that a little pressure had worked.
    Afterwards I had talked to the doctor in finding out what 
tests he had done, and they took approximately eight tubes of 
blood during that time, at one time. It made me woozy, it made 
me dizzy, but I figured we would actually get somewhere with 
this. When I received the statement from the VA telling me 
exactly what had come of this, this very extensive training, 
very extensive testing, they sent me this letter on September 
23rd, which was 22 days after I had had my examination: ``The 
results of your physical examination indicate no problems with 
your labs or x-rays. However, you should keep all your 
appointments to Mental Health.''
    That put it into a very interesting frame. When I compared 
the documentation that the VA actually had put forward on me, 
the tests they had run, and I compared them to other 
documentation I had gotten from medical doctors outside the VA 
and DOD system, the results were almost identical. Highs were 
in the same place, and lows were in the same place, and these 
other doctors had said that I had a severe case of anemia and I 
had a severe infection of the Epstein-Barr virus, which at that 
time didn't mean very much to me, but considering what I had 
been exposed to in my environment and the chronic fatigue I was 
experiencing at that time, it seemed rather odd that the VA did 
not pick this up with their own testing. The people 
interpreting the test results are falling flat on their face. 
The test results were the same.
    [The prepared statement of Mr. Brown follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.196
    
    [GRAPHIC] [TIFF OMITTED] T8711.197
    
    [GRAPHIC] [TIFF OMITTED] T8711.198
    
    [GRAPHIC] [TIFF OMITTED] T8711.199
    
    [GRAPHIC] [TIFF OMITTED] T8711.200
    
    [GRAPHIC] [TIFF OMITTED] T8711.201
    
    [GRAPHIC] [TIFF OMITTED] T8711.202
    
    [GRAPHIC] [TIFF OMITTED] T8711.203
    
    [GRAPHIC] [TIFF OMITTED] T8711.204
    
    [GRAPHIC] [TIFF OMITTED] T8711.205
    
    [GRAPHIC] [TIFF OMITTED] T8711.206
    
    [GRAPHIC] [TIFF OMITTED] T8711.207
    
    [GRAPHIC] [TIFF OMITTED] T8711.208
    
    [GRAPHIC] [TIFF OMITTED] T8711.209
    
    [GRAPHIC] [TIFF OMITTED] T8711.210
    
    [GRAPHIC] [TIFF OMITTED] T8711.211
    
    [GRAPHIC] [TIFF OMITTED] T8711.212
    
    Mr. Shays. Let me figure out how we proceed. This has been 
10 minutes now. I'd like Jim Green----
    Mr. Green. Mine is not very long.
    Mr. Shays. Yes, we might come back to you, but I would 
like--you have eight more pages left in your testimony, and you 
are also doing some ad-libbing as well. So why don't you make 
your statement.
    Mr. Green. OK. How are you doing, Mr. Chairman.
    My name is James B. Green, formerly of the U.S. Air Force. 
On or near October 1990, I was placed on an antiterrorist team. 
We were told that----
    Mr. Shays. Let me do this. While he is giving his 
testimony, if you could get your eight pages down to four and 
just kind of go through what you think would be good.
    Yes, Mr. Green.
    Mr. Green. Sorry about that.
    We were told that we were going to Germany and then 
possibly the Gulf. I was told to get my shots updated for 
mobility, so I went and was given a shot and a series of little 
white pills. We went to Germany and stayed at a hotel, waiting 
to be assigned. It turned out that another group had come 
before us and we were sent home.
    About a week later, I was assigned to Dover, DE. There I 
guarded planes and work gates to monitor the coming in and out 
of the base.
    When I first got sick, I broke out in rashes that looked 
like bull's-eyes, and later they turned into pimples what split 
open whenever I moved. I now have AIDS-like lesions that come 
and go on my body, and he saw--Mr. Brown here saw--some of them 
last night. I got out of the military--excuse my speech. My 
speech gets slurred sometimes.
    Mr. Shays. You know, your statement is a little shorter, so 
you can speak slowly. You have a statement, so why don't you 
take your time.
    Mr. Green. OK. Excuse my speech; it does get slurred.
    Mr. Shays. Take your time.
    Mr. Green. At one point in time, my entire body was covered 
with this rash. I got out of the military and immediately went 
to the doctors. After four visits to the VA, I was given some 
type of medication that helped with the rash, but it kept 
coming back in different forms. The health care I received in 
the military was inadequate.
    After receiving the shots and the PB pills, I suffered many 
symptoms. These included severe headaches, muscle soreness, 
joint pain, stiffness, memory loss, severe mood swings, loss of 
appetite, loss of mental capability.
    My wife and children have been forced to live a life of 
hell. They don't know how I am going to act from one day to the 
next or even hour to hour.
    I signed up for the VA Health Registry in 1994. I filled 
out the paperwork. They sent me to the VA hospital for a Desert 
Storm exam. I received a better exam from my family doctor. The 
doctor asked what was wrong and asked me to describe the 
symptoms. I was then sent for a series of blood work and 
referred to the mental health clinic for stress-related 
problems. Seems awful funny to me that my illness is stress 
related and I was not even in the theatre.
    I am scared to go to the VA hospital for treatment. The 
government thought it was OK to give us poison once. Why 
wouldn't they do it again? I am referring to the shots and the 
PB bills. That is what I believe is making me sick with this 
illness and probably exposure to things coming from overseas.
    I've lost excessive amounts of weight. I've lost about 80 
pounds. I was 222 when I got out of the military; I am down to 
167 pounds now. My life and my family's lives have been 
complete hell. I have to drink a six-pack of Ensure almost 
daily to keep at this weight.
    I feel that the government should take responsibility for 
what it has done to us. This disease is obviously not stress 
related, as they would like us to believe. I am a perfect 
example. My jobs weren't stress related, and I am experiencing 
the same symptoms as others.
    My theory rests on the inoculations and the PB pills. As 
everybody knows, the French troops were not given the 
experimental pills, and not many of them are sick.
    In conclusion, I believe that it is the government's duty 
to help those that are sick, especially those who were also 
exposed to the chemicals in the Persian Gulf. They are twice as 
sick. Let them not fight anymore just to find a way to live day 
to day. Take responsibility. We weren't sick before, and now we 
are very sick. We're not asking for much, just a chance to live 
as normal a life as possible under the circumstances.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Green. Your testimony is 
interesting in that you never served in the theatre but you 
basically took the pills, and you didn't take the PB tablets, 
did you?
    Mr. Green. Yes, sir, I took the tablets.
    Mr. Shays. As well as the shots.
    Mr. Green. And the shots; yes, sir.
    Mr. Shays. And you learned that you weren't going in about 
when?
    Mr. Green. Well, we went to Germany, and they said go to 
this hotel and wait and you will be assigned where you are 
going, and we were--like I said, we were there a week, and then 
they sent us home, and then they sent me to Dover, DE.
    Mr. Shays. I just want to come back to Mr. Brown in a 
moment to finish up his four pages, but your health before you 
went in the service was----
    Mr. Green. Excellent.
    Mr. Shays. Mr. Green.
    Mr. Green. I was in excellent health. I went through 6 
weeks of basic training, 6 weeks of tech school, and 6 weeks of 
combat training.
    Before I went in the military, I was in excellent health. 
Now I am 100 percent disabled. I am just trying to help these 
Desert Storm--I am 100 percent disabled for my back, neurologic 
problems in my back.
    Mr. Sanders. Mr. Green, were any of your comrades who also 
took these pills affected in any kind of negative way?
    Mr. Green. A lot of people complained about just like being 
sick, but nobody ever broke out with the skin rashes and stuff 
like that. I was the only one, for some reason.
    Mr. Shays. Mr. Brown, let me just say all of your testimony 
is just very valuable to this committee and tells us a story 
totally in conflict with the so-called party line of the VA. I 
mean, all three of you experienced--now you are on total 
disability.
    Mr. Green. Yes, sir. It took 5 years to get that, almost 6 
years of fighting the VA to get that, and my back was hurting 
immediately after I got out of the military. So it took 6 years 
of fighting to get my 100 percent.
    Mr. Shays. Mr. Brown.
    Mr. Pappas. Mr. Chairman.
    Mr. Shays. Yes.
    Mr. Pappas. I would just ask Mr. Green a question about the 
pills and shots that you were administered. How soon from the 
time you were given these pills or shots did you begin----
    Mr. Green. To tell you the truth, sir, I really can't 
recall. I mean, if you asked me what happened last Tuesday, I 
couldn't really tell you. That's how bad my memory is anymore, 
just disintegrating.
    Mr. Shays. Would somebody in your family be able to answer 
that question?
    Mr. Green. Yes, my wife would, but she's getting--like he 
said about his wife, my wife is starting to get the same 
symptoms. My child has swollen lymph nodes on her neck, the 
skin rash.
    Mr. Shays. If you are able to get us that answer----
    Mr. Green. I can definitely have my wife----
    Mr. Shays. Write down the question. Do you have a pencil 
there?
    Mr. Green. Sure.
    Mr. Shays. The question is, how soon--you took the pills, 
the shots and the pills--did you become ill, OK?
    Mr. Green. Yes, sir, I'll get that to you.
    [The information referred to was not available at the time 
of press.]
    Mr. Shays. Mr. Brown, why don't you finish up. Again, your 
testimony is very valuable to us, so thank you for condensing 
what is left.
    Mr. Brown. Yes, sir. As far as my experiences with the VA, 
the main problem I had with them all the way around is, I got 
the exact same treatment from them that I did from the 
Department of Defense: Basically, there's nothing wrong with 
you, go about your business, and if there is, don't worry about 
it, we know better.
    When I finished up at the VA and had to end up spending my 
own money, which I didn't happen to have that much of, because 
I had been put out of the military for speaking out about this, 
I ended up spending my own money on this, and ended up finding 
out some answers that I should have gotten from the VA to begin 
with.
    And when I went back and started comparing notes with 
Medicare papers--and a half, I submitted those to Mr. Newman 
for the record, my medical records. You can look through these. 
And compared from 1991, 1992, 1993, 1994, all the way through 
there, every one of the tests comes out the same.
    The only one out of the entire gamut that I got any answers 
from was a private physician I ended paying money to. There 
wasn't any treatment they had. They told us, ``We can't treat 
that, you have to go back to the government because they are 
the ones that messed you up to begin with.''
    When you look through these papers, there's no way you can 
reconcile that going back there is going to get me treatment, 
for him, for him, any of us, unless pressure is put on the VA 
and DOD. Unless accountability is put on these individuals, I 
don't see any kind of change coming about.
    Like Dr. Murphy and Mr. Kizer here, if they make a 
misstatement or perjure themselves before the committee, that's 
something they can have put back on them. There are 
consequences for these people, as you well know. That's the 
only way I can see we're going to get any.
    DOD is the same way. They know the fat's in the fire and 
they are about to burn. That's why they came forward with the 
facts about Khamisiyah. It wasn't somebody in the CIA that was 
listening to the radio and washing dishes. That wasn't it. A 
video came forward, the documentation came forward, they were 
advised of it by the President's Advisory Committee's counsel, 
Jim Turner, and as of that time when they were advised of the 
fact that this video and this document fit together, they knew 
the gig was up. They had to come forward and make their 
statement first. And that is when June 21st came forward.
    Until and unless that gets out of the way, the VA is going 
to follow in DOD's footsteps. As DOD goes, so do they. Where VA 
messed me over, there is a contract between DOD, VA, and the 
veteran. ``Honor the contract'' is the bottom line. We 
fulfilled our side of the contract. We're not asking for money. 
We're not asking for anything but our health back. I had a job 
to begin with.
    Mr. Shays. You may not be asking for money, but there is 
one question, properly diagnose, properly treat, and properly 
compensate.
    Mr. Brown. Right.
    Mr. Shays. If you are not able to support your family 
because of your illness, you might need compensation.
    Mr. Brown. It comes down to that. If I had the option 
between being treated and put back in the work force, more or 
less, and being able to be put back to my job, that's it for 
me, I am done; let me earn my own way. I did before all this 
other junk started.
    That's one of the things I've been after from the get-go. I 
want these people to put us back where we were, if that's at 
all possible. The documentation I've seen points in the 
direction that there is some form, if not a cure, a treatment, 
that at least can keep us where we are, if not backtrack us 
some. As Dr. Haley talked about, there is a way. So for VA and 
DOD to wait until we all die off and there's 20 left and then 
talk about compensation and treatment, that's not it.
    One of things I wanted to submit for testimony also is this 
list of cancers. There are 2,045 cancers listed on this. This 
is from the VA data base in Hines, IL, the VMAG there. This 
lists in fiscal year 1991 through 1995 the amount of cancers 
that were in the VA system. We've been told there's only a 
couple of hundred. This is a couple of thousand.
    Mr. Shays. Is that of Gulf war veterans?
    Mr. Brown. Yes. It reads at the top, ``Persian Gulf War 
Veterans with neoplasms by diagnosis and age group, fiscal year 
1991.'' It has the diagnostic codes which they have in their 
system and no one else does, the IDC9ZM codes, ``malignant 
neoplasms of,'' and then they fill in the blanks. For 1991, 
there was 51; for 1992, there was 250. Now, this is not in 
addition, with the 51 incorporated in it. These are 250 that 
occurred in the fiscal year of 1992.
    Mr. Shays. I will be happy to have you submit that, and we 
would ask the VA to respond to it.
    Mr. Brown. Yes, sir. Thank you very much for that. There is 
no way for VA to say there is no pattern to this illness. 
There's nothing that makes us stand out from the background of 
everybody else. We're no different from anyone else. That's 
ridiculous, and it's got to stop, because people are dying from 
this.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8711.213
    
    [GRAPHIC] [TIFF OMITTED] T8711.214
    
    [GRAPHIC] [TIFF OMITTED] T8711.215
    
    [GRAPHIC] [TIFF OMITTED] T8711.216
    
    [GRAPHIC] [TIFF OMITTED] T8711.217
    
    [GRAPHIC] [TIFF OMITTED] T8711.218
    
    [GRAPHIC] [TIFF OMITTED] T8711.219
    
    [GRAPHIC] [TIFF OMITTED] T8711.220
    
    [GRAPHIC] [TIFF OMITTED] T8711.221
    
    [GRAPHIC] [TIFF OMITTED] T8711.222
    
    [GRAPHIC] [TIFF OMITTED] T8711.223
    
    [GRAPHIC] [TIFF OMITTED] T8711.224
    
    [GRAPHIC] [TIFF OMITTED] T8711.225
    
    [GRAPHIC] [TIFF OMITTED] T8711.226
    
    [GRAPHIC] [TIFF OMITTED] T8711.227
    
    [GRAPHIC] [TIFF OMITTED] T8711.228
    
    [GRAPHIC] [TIFF OMITTED] T8711.229
    
    [GRAPHIC] [TIFF OMITTED] T8711.230
    
    [GRAPHIC] [TIFF OMITTED] T8711.231
    
    [GRAPHIC] [TIFF OMITTED] T8711.232
    
    [GRAPHIC] [TIFF OMITTED] T8711.233
    
    [GRAPHIC] [TIFF OMITTED] T8711.234
    
    Mr. Shays. Mr. Kornkven, are there any points you would 
like to make in addition before we adjourn?
    Mr. Kornkven. I believe my testimony and the recommendation 
are an initial starting point. Tomorrow I will be meeting with 
Dr. Rostker and Mr. Gober at the VA, and we're encouraged that 
finally they are opening up a dialog with us. We will see over 
the next few months how everything will be improving on this 
issue.
    Mr. Shays. And you will stay in touch with us to let us 
know how you think that is going.
    Mr. Kornkven. Yes, sir, and I do hope that things will 
start to change now.
    Mr. Shays. Mr. Green, do you have any other comment you 
would like to make to the committee?
    Mr. Green. No, sir. My main worry is the children and my 
wife, as he was saying, with whatever it is that we have going 
over to them, and that's my main worry. And my--I care about my 
life, but they are my life, you know.
    Mr. Shays. I wish I had the three of you go first, and that 
way I could make reference to your testimony, which has been 
the practice we wanted. We may just decide that if they can't 
wait, we will just tell them to come later. But I wish I had 
asked all the witnesses before the issue of what type of 
exposure a spouse has to chemical disorders, if that is the 
case.
    Mr. Kornkven. Sir, if I may.
    Mr. Shays. Sure.
    Mr. Kornkven. I have provided some information to Mr. 
Newman concerning the questions we'll have for Dr. Rostker and 
Mr. Gober, and some of the questions are rather pointed, and 
you may want to followup those questions in the future.
    One last comment, I guess, is if the VA can do something 
about the registry. For this data base to be a truly useful 
tool, it needs to be updated. This is my paperwork, sir, since 
1992. This is what is in the Registry concerning that 
paperwork: two pages. It needs to be updated.
    Thank you.
    Mr. Pappas. Mr. Chairman.
    Mr. Shays. Yes. The gentleman may ask any questions he 
wants. It has been nice to have you there.
    Mr. Pappas. Thank you.
    For Mr. Kornkven, is that how you pronounce your name?
    Mr. Kornkven. Yes, sir.
    Mr. Pappas. In your testimony you mentioned something about 
an arbitrary 2-year limit, and I am not familiar with what you 
were speaking about.
    Mr. Kornkven. Public Law 103-446 was passed, I believe, 2 
or 4 November 1994 to specifically address Gulf war veterans' 
health problems.
    There are 13 prevalent symptoms that Gulf war veterans have 
been reporting that are considered undiagnosed by the VA. With 
that legislation, it calls for a Gulf war veteran to have 
reported their health problems within 2 years of leaving the 
Persian Gulf. That is the 2-year timeframe. That 2-year 
timeframe must be extended, because many Gulf war veterans are 
falling just outside of that 2-year timeframe. We did not know 
of some of the programs that were going on in inside the VA 
until well after this 2-year timeframe.
    I'd like to note as well with that statement that the VA be 
instructed to follow that law. I say follow that law. The 2-
year timeframe, with myself personally, I returned in August 
1991, which means symptoms should have been reported by August 
1993. This registry paperwork is January 1993, yet every one of 
the problems that I had requested service connection for were 
denied. The law was ignored.
    Mr. Shays. Was not what, I am sorry?
    Mr. Kornkven. The symptoms or the diagnoses or the health 
problems that I had reported to the VA and requested service 
connection for were denied, even though they were reported 
within this 2-year timeframe. And I'd like to note as well, on 
that 2-year timeframe, it appeared many veterans that just 
after that law was passed were suddenly diagnosed with any kind 
of frivolous title diagnosis.
    Mr. Green. It seems they wanted to pin--I am sorry, I 
didn't mean--it seemed like they were trying to put PTSD on all 
of us. That's their magic, you know: This is what you have, 
PTSD, all three of us. They all say we have PTSD. It's not 
PTSD; it's not in our heads. I have rashes and lesions I can 
show you. I don't think y'all want to--but I mean, it's not in 
our heads.
    Mr. Shays. Mr. Green, we know it is not in your head. I 
think the second panel can point us in a direction where they 
didn't, in their studies, see PTSD as a likely diagnosis. So I 
know this has been extraordinarily frustrating and life 
threatening, and as someone who sent you all there, I feel, as 
do other Members, a tremendous responsibility to make it right.
    If there's no other comment, I am going to call this 
hearing--yes, sir, Mr. Brown.
    Mr. Brown. Sir, one more thing that I would like to add for 
the record. If you would, please ask the VA and DOD exactly 
what are the ICDM codes for chemical and biological injuries. 
They don't have them in their data base at all. They don't 
exist. They have to take a lot of different symptoms that look 
like they fit into that category and then throw them at the 
problem. That is why you have somebody walking in with one 
problem or three or four problems.
    I've asked the doctors at the VA if they have them, and 
there's no way--it is like going to a Burger King and asking 
one of the kids behind the counter to give you a burger with 
extra onions but there isn't a picture they can push. It is the 
same mentality; they give you a blank stare, like, ``Excuse 
me.'' That is what we have at the VA right now. DOD is doing 
the same thing.
    Yet what is chemical warfare? What is biological warfare? 
This isn't something you run into working at the local grocery 
store. This is military-based. So is DOD; so is VA. By that, 
they should have the code in there first for this type of 
warfare. They should. They don't.
    Mr. Shays. That is an excellent point I am happy you made, 
and I am glad you felt compelled to make it.
    Any other points?
    Mr. Brown. Thank you.
    Mr. Green. Thank you for having us.
    Mr. Kornkven. Yes, thank you, sir.
    Mr. Shays. Sure.
    Mr. Pappas. My statement----
    Mr. Shays. Yes, your statement will be submitted for the 
record, and it has been great having you.
    Mr. Pappas. Thank you.
    Mr. Shays. Thank you, gentlemen. This hearing is adjourned.
    [Whereupon, at 4:37 p.m., the committee was adjourned.]

                                   - 

</pre></body></html>
